<html>
<title> - WILDFIRE PREPAREDNESS: AN OUNCE OF PREVENTION IS WORTH A POUND OF CURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
WILDFIRE PREPAREDNESS: AN OUNCE OF PREVENTION IS WORTH A POUND OF CURE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, June 19, 2007

                               __________

                           Serial No. 110-30

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                    U.S. GOVERNMENT PRINTING OFFICE
36-214                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Bobby Jindal, Louisiana
Dan Boren, Oklahoma                  Louie Gohmert, Texas
John P. Sarbanes, Maryland           Tom Cole, Oklahoma
George Miller, California            Rob Bishop, Utah
Edward J. Markey, Massachusetts      Bill Shuster, Pennsylvania
Peter A. DeFazio, Oregon             Dean Heller, Nevada
Maurice D. Hinchey, New York         Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Doug Lamborn, Colorado
Ron Kind, Wisconsin                  Mary Fallin, Oklahoma
Lois Capps, California               Kevin McCarthy, California
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
John P. Sarbanes, Maryland               Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Tom Cole, Oklahoma
Ron Kind, Wisconsin                  Dean Heller, Nevada
Lois Capps, California               Bill Sali, Idaho
Jay Inslee, Washington               Doug Lamborn, Colorado
Mark Udall, Colorado                 Kevin McCarthy, California
Stephanie Herseth Sandlin, South     Don Young, Alaska, ex officio
    Dakota
Heath Shuler, North Carolina
Nick J. Rahall II, West Virginia, 
    ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, June 19, 2007...........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     3
        Letter to the House Committee on the Budget submitted for 
          the record.............................................     4
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1

Statement of Witnesses:
    Allred, C. Stephen, Assistant Secretary, Land and Mineral 
      Management, U.S. Department of the Interior................     6
        Prepared statement of....................................     9
    Archuleta, Hon. Elizabeth C., Supervisor, Coconino County, 
      Arizona....................................................    52
        Prepared statement of....................................    54
    Daugherty, Dr. Peter J., Private Forest Program Director, 
      Oregon Department of Forestry, on behalf of The Society of 
      American Foresters.........................................    84
        Prepared statement of....................................    85
    DeBonis, Michael, Southwest Region Director, The Forest 
      Guild, Santa Fe, New Mexico................................    67
        Prepared statement of....................................    69
    Farris, Robert, Acting State Forester of Georgia.............    62
        Prepared statement of....................................    64
    Nazzaro, Robin M., Director, Natural Resources and 
      Environment, U.S. Government Accountability Office.........    14
        Prepared statement of....................................    16
    Rey, Mark, Under Secretary for Natural Resources and 
      Environment, U.S. Department of Agriculture................     7
        Prepared statement of....................................     9
    Rowdabaugh, Kirk, Arizona State Forester, on behalf of The 
      Western Governors' Association and the State of Arizona....    76
        Prepared statement of....................................    78
    Tighe, Kathleen S., Deputy Inspector General, U.S. Department 
      of Agriculture.............................................    21
        Prepared statement of....................................    23


OVERSIGHT HEARING ON ``WILDFIRE PREPAREDNESS: AN OUNCE OF PREVENTION IS 
                        WORTH A POUND OF CURE''

                              ----------                              


                         Tuesday, June 19, 2007

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:03 a.m. in 
Room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop, Kildee, 
Christensen, Holt, Sarbanes, DeFazio, Hinchey, Kind, Inslee, 
Udall, Shuler, Duncan, Tancredo, Pearce, Heller, Sali and 
Lamborn.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Let me call the Committee on National Parks, 
Forests and Public Lands to order.
    This is an oversight hearing on wildfire preparedness. Let 
me welcome everyone to today's oversight hearing on wildfire 
preparedness. I look forward to the testimony from today's 
witnesses, and to a thoughtful discussion and exchange on what 
I believe and many believe is a very, very important topic.
    This year's wildland fire season is off to an early start, 
with several large fires, primarily in the southeastern United 
States. There have been especially large fires in Georgia and 
Florida. Today we will be hearing from Robert Farris, State 
Forester of Georgia, about the fires in his state.
    While the fire season is not quite underway in the West, 
westerners are bracing for it. It could be a dramatic fire 
season fueled by recent drought and climate change.
    Fire is a necessary ecological process that renews the 
productivity of fire-adapted ecosystems. However, the impacts 
of large, uncharacteristic fires continue to grow. The old 
saying about an ounce of prevention is worth a pound of cure is 
certainly the case with wildland fire. It is critical to have 
an adequate Federal investment in preventive programs that 
reduce the threat of wildland fire in order to lower the fire 
suppression costs down the road.
    Unfortunately, the President's Fiscal Year 2008 budget 
requests include a $96 million cut in wildfire preparedness. 
This included a proposed cut in state fire assistance, even 
though an estimated 85 percent of the lands in wildland-urban 
interface are state, private, or tribal lands.
    I am happy to join my colleague, Chairman Norm Dicks, in 
calling this cut to wildfire preparedness irresponsible, and I 
want to thank him for proposing to restore the wildfire 
preparedness funding in the Interior appropriations bill.
    I also believe that we are being penny-wise and pound-
foolish by underfunding our budget for forest thinning. 
Internal agency studies have indicated that the need for 
investment in forest thinning is many times more than the 
funding requested in the President's budget. We all know that 
the funding requested in the President's budget falls far short 
of the target set in the Healthy Forest Restoration Act.
    My concern is that this lack of investment in thinning now 
just leads to higher suppression costs in the future. Computer 
models have indicated this repeatedly; and frankly, I think it 
is just common sense. And so I also thank Chairman Dicks for 
proposing to raise the funding for hazardous fuel treatment 
above the President's current budget request.
    Today we will be hearing from the Government Accountability 
Office and the USDA Inspector General. The GAO has found in two 
separate reports that the Forest Service and the Department of 
the Interior still lack an overall cohesive strategy in dealing 
with wildland fire. Under Secretary Rey told this committee two 
years ago that he would submit such a plan with the Fiscal Year 
2007 budget request. We have yet to receive that plan.
    Even with the progress the agencies have made in this area, 
the GAO says that the agencies have not produced a cohesive 
strategy on wildland fire that they have been called to do.
    The USDA Inspector General has also found that the Forest 
Service lacks a process for assessing the level of risk that 
communities face from wildland fire. The Inspector General 
further found that the Forest Service does not have the ability 
to ensure that the highest priority fuels reduction projects 
are being funded first. This is a major concern. I see this 
firsthand in my home state of Arizona, where we have many 
hazardous fuels projects that are already NEPA-approved and 
ready to go, but awaiting Federal investment. That leaves our 
community at risk, and frankly is unacceptable.
    Today we are joined by the Arizona State Forester, who can 
give us a good picture of the need for Federal investment in 
thinning projects in Arizona. And Arizona is just one state of 
many which is in a similar predicament.
    I am glad to hear that the Federal land management agencies 
are working to address these problems with a hazardous fuel 
priority list. I hope that any new process they develop will be 
transparent to all stakeholders.
    I also look forward to hearing from the witness, Mike 
DeBonis, about the role between wildfire and poverty. A study 
conducted by the University of Oregon found that the rural poor 
often live in the most fire-prone areas, and cannot afford to 
meet their basic economic needs and still pay for the wildfire 
protection measures that are required.
    As a former county supervisor, I know this firsthand about 
the influx of development and wildland-urban interface in the 
West. The newspaper USA Today found that since the year 2000, 
roughly 450,000 people have moved to rural western areas at 
most risk from wildfire. Insurance companies in many western 
states are now requiring homeowners to protect their homes from 
wildfire risk, or lose their insurance.
    Today we will be hearing from Supervisor Elizabeth 
Archuleta about the efforts of the National Association of 
Counties on wildland-urban interface fire.
    I look forward to hearing from all our witnesses, and thank 
those who have traveled far to be here today.
    I would now like to recognize our Ranking Member, Mr. 
Bishop, for any opening statement he may have. Sir.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman, I appreciate the 
chance at being here. I am extremely appreciative of the 
Chairman for establishing the dress standard for today's 
meeting, and invite any of our guests, if you would like to do 
the same thing, as well.
    I really want to know who actually decided to build the 
Capitol in this swamp. Those of us from--and some people want 
to spend six years sweating out here? It is just amazing.
    So those of us in the west, I hate humidity. I want dry. 
That is all there is to it. All the Jergens in the world is 
fine, just give me dry.
    Mr. Chairman, I want to thank you for having this hearing 
today on wildfire preparedness. It cannot be overstated just 
how important it is that we work together in a bipartisan 
manner to find solutions to the growing threat of wildfires in 
our national forests and public lands, and that ever-growing 
costs to our Federal agencies in dealing with these fires.
    I would like to commend Chairman Rahall and Ranking Member 
Young for their March 14 letter to the House Committee on the 
Budget asking them for additional funding for wildfire 
suppression. And I would ask unanimous consent to submit this 
letter for the record.
    Mr. Grijalva. Without objection.
    Mr. Bishop. Thank you, sir.
    [The letter to the House Committee on the Budget follows:]

    [GRAPHIC] [TIFF OMITTED] T6214.009
    
    [GRAPHIC] [TIFF OMITTED] T6214.010
    

    Mr. Bishop. It is clear that additional funding is 
needed for the Forest Service and BLM in order for them to 
combat wildfire. The cost of fighting wildfires is 
skyrocketing: 47 percent of the Forest Service budget will go 
to wildland fire management, which is four times what it was a 
decade ago.
    There really are two issues that beg for answers. First, 
there is the immediate issue that the Forest Service budget is 
being consumed by wildfires--there is a pun intended there--to 
be at the detriment of other vital programs.
    But the second issue that we must deal with--and Dr. 
Daugherty will provide excellent testimony on this--is the need 
to implement widespread hazardous fuel reduction treatments. 
This makes sense environmentally, and it definitely makes sense 
economically.
    Our national forests are tinderboxes, and, like the movie 
Groundhog Day, we continually repeat the same scene every 
Sunday, every summer--the rest of the days of the week, as 
well--every summer, especially for those of us who live out 
west.
    Hazardous fuel reduction will help save our forests and 
communities from catastrophic wildfires, and with aggressive 
implementation the percentage of money the Forest Service and 
BLM must spend on fighting fires will decrease.
    I would like to thank our witnesses for coming. I look 
forward to hearing your testimony.
    I yield back.
    Mr. Grijalva. Thank you very much, Mr. Bishop. And let me 
begin with our witnesses, and thank them very much.
    Under Secretary Mark Rey will be our first witness. He is 
the Under Secretary for Natural Resources and Environment at 
the Department of Agriculture, thank you for being with us, 
Secretary Rey, and I look forward to your testimony. Sir.
    Mr. Rey. Mr. Chairman, with your permission, Mr. Allred and 
I divided the material so that it would be actually more 
efficient if he went first, and I will follow him.
    Mr. Grijalva. Mr. Allred.

 STATEMENT OF C. STEPHEN ALLRED, ASSISTANT SECRETARY, LAND AND 
      MINERAL MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Allred. Thank you, Mr. Chairman, Members of the 
Subcommittee. Thank you for the opportunity to testify today. 
From someone who is a recent transplant from the West, I am 
finding the temperature and the humidity to be a real 
challenge, as well.
    It is my pleasure to appear here today with Mark, because 
we represent the Department of Agriculture and the Department 
of the Interior.
    As you know, multiple factors contribute to our wildland 
fires, including weather, fuel types, terrain, location and 
proximity to our biggest challenge, the wildland-urban 
interface, as you had indicated. Certainly changing 
temperatures, prolonged drought, expansion of the wildlands-
urban interface, continued accumulations of biomass, and the 
substantial increase in what leads me to be very concerned are 
highly flammable invasive species on the rangelands are 
converging to increase the risk of catastrophic loss from our 
wildland fires.
    In combination, these trends present continuing challenges 
in our efforts to decrease the number and the cost of those 
fire incidents.
    One challenge we face is addressing, as I indicated, 
wildland fire in areas such as the wildland-urban interface, 
where suppression efforts are inherently more expensive. The 
rate of growth in the wildlands-urban interface is triple that 
outside of that area. We estimate there were some 8.4 million 
new homes constructed in the 1990s in this area.
    Another one obviously, as you have indicated, is the 
accumulation of flammable biomass on public lands, and that 
continues to be a risk for major fires.
    The Departments, both Ag and Interior, worked aggressively 
to reduce the amount of hazardous fuels and restore the health 
of our public lands and rangelands. We have used the 
authorities that were provided to us under the President's 
Healthy Forest Initiative and the Healthy Forest Restoration 
Act to expedite those actions.
    In 2006, more than half of the total areas treated were 
inside the wildlands-urban interface. We will continue to 
emphasize that goal to treat approximately another 2 million 
acres in the wildlands-urban interface in 2007.
    A quick look at what the outlook is for this year. 
Certainly we expect the potential in 2007 to be higher than 
normal across much of the Southwest, California, portions of 
the Great Basin and Northern Rockies, and smaller portions of 
the Northwest, Alaska, and the Southeast. Critical conditions 
certainly continue to be drought, the low snow pack, and the 
warmer-than-normal forecast temperatures that we believe will 
result in early snow melt. These conditions have already 
resulted in burning of over 1.2 million acres in the southern 
area, and more than almost 200,000 acres in the eastern area.
    To prepare for these natural conditions anticipated in the 
2007 fire season, the Departments are working to improve the 
effectiveness of our firefighting resources. Our resources are 
comparable to those available in 2006. Permanent and seasonal 
firefighters, hot shot firefighting crews, smoke jumpers type 
one and type two, incident management teams, and national 
incident management organizations are ready to respond.
    D.O.I.'s aviation assets include type-one and type-two 
helicopters, single-engine air tankers and water scoopers on 
exclusive-use contracts, and additional resources on local or 
regional contracts or on an on-call-as-needed basis.
    As we have already demonstrated this year during fires in 
the Southeast, we leverage our firefighting ability by shifting 
our firefighters and equipment as the season progresses. 
Assignments are made on anticipated fire starts, actual fire 
occurrence, fire spread and severity, with the help of 
predicting services.
    The initial attack of the fire is handled by the closest 
available local resources, and continues to be our major 
emphasis. In the event of multiple, simultaneous fires, 
resources are prioritized and allocated by a national multi-
agency coordinating group. Prioritization ensures firefighting 
forces are positioned where they are needed most.
    Mr. Chairman, Members of the committee, again, I appreciate 
the opportunity to visit with you, and I would be happy to 
answer any questions at the appropriate time.
    Mr. Grijalva. Thank you very much.
    Under Secretary Rey, thank you.

 STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL RESOURCES AND 
          ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you, Mr. Chairman. Now that Assistant 
Secretary Allred has talked about the fire season outlook for 
the year and our preparedness efforts, I am going to talk a 
little bit about our fuels treatment efforts and our efforts to 
contain costs on large-incident fires.
    Today we treat more fuels than ever, and we collaborate 
with our local, state, and tribal partners more effectively 
than ever. Our focused efforts to remove accumulation of fuels 
in our forests and grasslands is having a positive effect on 
the land, and is helping to reduce wildfire risk to 
communities.
    The Federal land managing agencies will have treated nearly 
25 million acres of Federal at-risk lands, from 2000 through 
2007, including approximately 20 million acres treated through 
the Hazardous Fuel Reduction programs, and about 5 million 
acres of landscape restoration, accomplished through other land 
management activities.
    At 25 million acres, it is a size and an area roughly the 
size of the State of Ohio. We are treating acres at a rate four 
times the average annual treatments during the 1990s.
    The Department of Agriculture, in cooperation with the 
Department of the Interior, in collaboration with our non-
Federal partners, continue to increase the community protection 
emphasis of the hazardous fuels program. Community wildfire 
protection plans are essential for localities to reduce risk 
and set priorities. Over 1100 of these plans, covering 3,000 
communities, have been completed nationally. An additional 450 
plans are progressing toward completion.
    The implementation plan of the 10-year comprehensive 
strategy for fuels treatment was updated and released with the 
Western Governors Association and the Western State Foresters 
in December of 2006. The goals and guiding principles from the 
2001 document are constant, but performance measures and 
implementation tasks have been updated to reflect the progress 
made toward national fire plan goals in the past five years, 
and to build on our successes.
    Also, last fall the Administration released its cohesive 
fuels strategy, the subject of earlier GAO analyses, to assist 
with prioritization of fuels treatment needs.
    In September 2006, the Office of Inspector General 
conducted an audit report on the implementation to the fuels 
treatment work under the Healthy Forest Initiative. The OIG 
audit recommended that the Forest Service implement a 
consistent analytical process for assessing the level of risk 
the communities face from wildfire; strengthen the 
prioritization of projects; and improve performance measures 
and reporting standards in order to better communicate the 
outcome of treatments.
    The Forest Service concurred with the five recommendations 
in the report, and developed a series of action steps that are 
summarized in my testimony.
    Let us talk a bit about cost containment. As you indicated, 
Mr. Chairman, suppression costs have escalated in recent years, 
as wildfire seasons have generally lasted longer and the 
acreage burned has grown. The external factors noted by Mr. 
Allred also influence the number and severity of incidents.
    While safety is our primary concern, our departments do 
share concerns about the cost of fires, and are committed to 
doing all we can to contain these costs.
    The Departments of Agriculture and Interior are taking the 
issue of large-fire cost containment very seriously, and are 
actively moving forward to implement a number of cost-
containment adjustments, both summarized in the testimony for 
the record, as well as in materials that I will submit for the 
record.
    The comprehensive list of management efficiencies has been 
developed to guide actions over the short, intermediate, and 
long term, and to produce results with the two departments 
working together.
    That will conclude my summary of the written statement for 
the record. I would like to submit one additional study for the 
record, because this past month the Brookings Institution 
released a report entitled, ``Towards a Collaborative Cost 
Management Strategy: 2006 U.S. Forest Service Large Wildfire 
Cost Review Recommendations.'' This report is by an independent 
panel that assessed agency performance on the 20 large fires 
that burned 1.1 million acres across 17 national forests during 
2006.
    The panel found that the Forest Service exercised 
appropriate and adequate fiscal diligence in suppressing 
wildfires during the record-breaking 2006 season. The panel 
report also makes a series of recommendations for improvement 
that the Agency will begin to act on immediately.
    I will submit a copy of the complete report for the record 
of this hearing, and be happy to respond to any questions.
    Mr. Grijalva. Thank you. Without objection, that will be 
part of the testimony.[NOTE: The study has been retained in the 
Committee's official files.]
    [The joint prepared statement of Mr. Rey and Mr. Allred 
follows:]

   Statement of Mark Rey, Under Secretary for Natural Resources and 
  Environment, U.S. Department of Agriculture, and C. Stephen Allred, 
 Assistant Secretary for Land and Minerals Management, U.S. Department 
                            of the Interior

INTRODUCTION
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify on wildland fire preparedness for the 2007 fire 
season and hazardous fuel reduction activities. Since the Department of 
the Interior (DOI) and the Department of Agriculture (USDA) work 
closely together in fire management, the two Departments are providing 
a joint statement.

WEATHER, WILDLAND URBAN INTERFACE, AND WOOD
    Multiple factors contribute to wildland fire. These factors include 
weather, fuel type, terrain, location with respect to the wildland 
urban interface (WUI), and other highly valued landscapes, and 
managerial decisions made before and during fire incidents. In 
addition, changing temperatures and prolonged drought across many 
portions of the West and Southeast, an expansion of the WUI and an 
increase in the number of people living in the WUI, continued 
accumulation of wood fiber, and substantial increases in highly 
flammable invasive species, such as cheatgrass, are converging to 
increase the risk of catastrophic loss from wildland fires. In 
combination, these trends present continuing challenges in our efforts 
to decrease the number and cost of fire incidents.
    Over the last few years, we have reported regularly to Congress on 
these challenges. The 2005 Quadrennial Fire and Fuels Review by DOI and 
USDA examined the growth of the WUI, the area where structures and 
other human developments meet or intermingle with undeveloped wildland. 
The review found that 8.4 million new homes were added to the WUI in 
the 1990s, representing 60 percent of the new homes constructed in the 
United States. The rate of growth is triple the rate of construction 
outside of the WUI. Also, the recent Audit Report by the Office of 
Inspector General ``Forest Service Large Fire Suppression Costs'' found 
that the majority of Forest Service large fire suppression costs are 
directly linked to protecting property in the WUI. These reviews 
illustrate the challenge of addressing wildland fire in land areas such 
as locations in the WUI where fire suppression is inherently more 
expensive.
    Another challenge is addressing the accumulation of flammable 
biomass on our public lands, a major cause of fire risk. The 
Departments have worked aggressively to reduce the amount of hazardous 
fuels on Federal lands and restore the health of our public forests and 
rangelands, utilizing the authorities provided under the President's 
Healthy Forests Initiative and the Healthy Forests Restoration Act to 
expedite action. In 2006, more than half of the total acres treated 
were inside the WUI. We will maintain this emphasis with a goal to 
treat approximately 2 million acres in high-risk wildland urban 
interface areas through the hazardous fuels reduction program in 2007.

2007 WILDLAND FIRE SEASON OUTLOOK
    Most of the eastern, central and northwestern U.S. has a normal 
outlook for significant wildland fire potential in 2007. A portion of 
the Southwest is predicted to have a below-normal wildland fire season. 
This area includes northeastern New Mexico, and small parts of 
southeastern Colorado, western Oklahoma, and northern Texas, where it 
borders New Mexico. Wildland fire potential is expected to be higher 
than normal across much of the Southwest, California, portions of the 
Great Basin, the Northern Rockies, a small portion of the Northwest, 
Alaska, and the Southeast. The amount of precipitation many areas 
receive in the early summer periods is an important factor in the 
severity of the fire season.
    The critical conditions influencing the 2007 wildland fire outlook 
are:
    <bullet>  Drought conditions are expanding and intensifying across 
large portions of the West and Southeast, and drought relief is not 
expected in these areas through the season.
    <bullet>  Low snow pack, warmer-than-normal forecast temperatures, 
and early snow melt over most of the West will likely dry out timber 
fuels and could cause an early onset of fire season in some areas.
    <bullet>  Abundant new and carry over fine fuels are expected to 
green-up and cure early, leading to an active and prolonged grassland 
fire season.
    <bullet>  Another hotter than normal summer is projected for the 
West. Depending on heat levels and timing of higher temperatures, 
higher elevation fuels could dry quickly and be susceptible to 
ignitions.
    The fire season is already producing incidents that are evidence of 
our concern about the 2007 fire season. Drought and high temperatures 
have resulted in the burning of over 1.1 million acres in the Southern 
Area, including areas located in the Big Turnaround, Sweat Farm Road, 
Bugaboo Scrub and Florida Bugaboo fire complex in Northern Florida and 
Southeastern Georgia. More than 161,000 acres have burned in the 
Eastern Area, including the Ham Lake fire in Northern Minnesota and in 
Canada, which burned for over eighteen days, due to drought conditions 
and winds.

WILDLAND FIRE PREPAREDNESS
    To prepare for these natural conditions anticipated in 2007 Fire 
Season, the USDA and DOI are working to improve the efficiency and 
effectiveness of our firefighting resources. New management efforts are 
allowing for increased mobility of firefighting forces and aviation 
assets.

Firefighting Forces
    For the 2007 fire season, we have secured firefighting forces--
firefighters, equipment, and aircraft--comparable to those available in 
2006. As has already been demonstrated during the fires in the 
Southeast, we leverage our firefighting ability by shifting our 
firefighters and equipment as the fire season progresses. Fire managers 
assign local, regional and national firefighting personnel and 
equipment based on anticipated fire starts, actual fire occurrence, 
fire spread, and severity with the help of information from Predictive 
Services.
    More than 18,000 firefighters will be available, including 
permanent and seasonal Federal and State employees, crews from Tribal 
and local governments, contract crews, and emergency/temporary hires. 
This figure includes 92 highly-trained Hotshot firefighting crews and 
about 400 smokejumpers nationwide. There are 17 Type 1 national 
interagency incident management teams (the most experienced and skilled 
teams) available for complex fires or incidents. Thirty-eight Type 2 
incident management teams are available for geographical or national 
incidents.
    Initial attack of a fire is handled by the closest available local 
resource regardless of agency jurisdiction. Generally this means that 
the agency with management jurisdiction and protection responsibility 
for the location of the fire, such as a national forest, Tribal lands, 
Bureau of Land Management unit, wildlife refuge, or national park, will 
handle initial attack. Often, our partners at the local community or 
county level are the first to respond.
    Two interagency National Incident Management Organization (NIMO) 
teams were staffed in 2006, and are operational with two seven-member 
full-time Type I Incident Management Teams ready to respond to wildland 
fire incidents. The teams are headquartered in Atlanta, Georgia and 
Boise, Idaho and will help wildland fire agencies improve future fire 
management programs. Currently, the Atlanta NIMO team is assisting the 
Florida State incident management team on the Florida Bugaboo fire. 
Last week, the Boise NIMO team concluded nearly 40 days of assisting 
FEMA in its tornado disaster response operation in Greensburg, Kansas. 
Both teams will be called to assist in wildland fire incidents this 
season, and when they are not on assignments, they will implement the 
NIMO Implementation Plan, which calls for improvements in wildland fire 
program management in the areas of training, fuels management, cost 
containment, and leadership development, among others.
    The National Interagency Coordination Center, located at the 
National Interagency Fire Center in Boise coordinates critical 
firefighting needs throughout the nation. In the event of multiple, 
simultaneous fires, firefighting resources are prioritized and 
allocated by the National Multi-Agency Coordinating group, composed of 
national fire directors headquartered at NIFC. Prioritization ensures 
firefighting forces are positioned where they are needed most. Fire 
managers dispatch and track personnel, equipment, aircraft, vehicles, 
and supplies through an integrated national system. If conditions 
become extreme, assistance from the Department of Defense is available 
under our standing agreements, as well as firefighting forces from 
Canada, Mexico, Australia, and New Zealand using established agreements 
and protocols.

Aviation
    The wildland firefighting agencies continue to employ a mix of 
fixed and rotor wing aircraft. Key components of our 2007 aviation 
assets include 16 civilian large air tankers on federal contracts, 
along with 41 Type 1 and Type 2, or heavy and medium, helicopters on 
national use exclusive-use contracts; and 84 Type 2 and 3 helicopters 
on local or regional contracts. Additionally, there are nearly 300 
call-when-needed Type 1, 2 and 3 helicopters available for fire 
management support as conditions and activity dictate.
    Although both the large and single-engine air tanker programs have 
evolved in recent years, we are confident that we have appropriate and 
cost-effective assets in place or available to respond to the air 
support needs in the field. Twenty three Single Engine Air Tankers 
(SEATs) will be on exclusive-use contracts for the 2007 fire season and 
about 80 available on a call-when-needed basis. Some states and local 
areas also contract their own SEATs.
    In addition, there will be two water-scooper airtankers on 
exclusive-use contracts and an additional one available on a call-when-
needed basis for the 2007 fire season. Additional water-scooper 
aircraft will be available through agreements with state and county 
firefighting agencies. As in the past, military C-130 aircraft equipped 
with Modular Airborne Fire Fighting Systems (MAFFS) will be available 
to supplement our large air tanker fleet as needed. Six MAFFS are 
available this year.

MITIGATING WILDLAND FIRE RISK TO COMMUNITIES AND THE IMPACTS OF FIRE ON 
        THE ENVIRONMENT
    We have dangerous fire and fuels conditions in areas in the United 
States and the situation is becoming increasingly complex. However, we 
now treat more fuels than ever, and we collaborate with our local, 
state and tribal partners more than ever before. Our focused effort to 
remove accumulation of hazardous fuels in our forests and grasslands is 
having a positive effect on the land and is helping to reduce wildland 
fire risk to communities.
    Some of our specific accomplishments in reducing hazardous fuels 
include:
    <bullet>  Despite an unprecedented wildfire suppression workload, 
the Forest Service and DOI improved fuel conditions and ecosystem 
health on 4 million acres of land in 2006, of which 2.6 million acres 
were treated through hazardous fuels reduction programs and 1.4 million 
acres of land restoration accomplished through other land management 
activities.
    <bullet>  The Federal land management agencies will have treated 
nearly 25 million acres from 2000 through 2007, including approximately 
20 million acres treated through the hazardous fuels reduction programs 
and about 5 million acres of landscape restoration accomplished through 
other land management activities.
    <bullet>  In 2006, the Administration treated many overstocked 
Federal forests. Hazardous fuels treatments resulted in qualitative 
improvements of at least 994,000 acres in fire regimes classes 1, 2, or 
3 that moved to a better condition class. In addition, the 
Administration has begun measuring the percentage of total National 
Forest System land for which fire risk is reduced through movement to a 
better condition. The Administration is continuing to work on metrics 
for forest health changes that will help demonstrate the outcomes of 
projects that remove fuels.
    <bullet>  USDA and DOI, in collaboration with our non-federal 
partners, continue to increase the community protection emphasis of the 
hazardous fuels program. Community Wildfire Protection Plans are 
essential for localities to reduce risk and set priorities. Over 1100 
CWPPS covering 3,000 communities have been completed nationally and an 
additional 450 plans are progressing toward completion.
    <bullet>  The LANDFIRE project has now been completed for the 
western third of the mainland United States. The data are being used in 
setting hazardous fuel treatment priorities by local field units and 
regionally, and are used in managing large, long duration wildfires 
burning across landscapes. USDA and DOI are also testing methods of 
modeling fire risk with LANDFIRE data to help better inform hazardous 
fuel treatment prioritization.
    <bullet>  USDA and DOI are developing methods for effectively 
allocating fuels reduction funds and measuring the effectiveness of 
those treatments in terms of community risk reduction. The agencies 
will identify national priorities within the fuels program and focus 
funding on those priorities, develop more effective measures of risk 
reduction through the introduction of systematic risk analysis tools 
for fire hazard analysis and fuels treatment implementation, and 
strengthen the project criteria for WUI fuels treatments.
    <bullet>  The ``Implementation Plan'' of the ``10 Year 
Comprehensive Strategy'' was updated and released in December of 2006. 
The goals and guiding principles from the 2001 document are constant, 
but performance measures and implementation tasks have been updated to 
reflect the progress made toward National Fire Plan goals in the past 
five years and build upon our success.
    Collaboration among communities and local Forest Service and DOI 
agencies' offices has resulted in highly effective and successful 
hazardous fuels reduction projects. One example is the New Harmony 
(Utah) Community Fire Plan that called for coordinated treatments on 
forested lands managed by the State of Utah, the Bureau of Land 
Management, Dixie National Forest and individual property owners. 
Between 2002 and 2004 the agencies and landowners completed fuel 
treatments that reduced fire intensity in the treated areas helping 
fire fighters to more safely protect the community during the 2005 Blue 
Spring Fire. In another example, the use of Healthy Forests Restoration 
Act (HFRA) authorities enabled federal agencies and local communities 
to quickly begin clean-up and fuels reduction in the wake of hurricanes 
that devastated Gulf Coast communities and surrounding forests in 2005. 
The Forest Service and DOI worked closely, using HFRA authorities, to 
facilitate the National Forests of Mississippi to successfully remove 
over 1.3 million tons of hazardous fuel from over 100,000 acres, 
salvaging over 240 million board feet of timber. Nearly 1000 miles of 
fuel breaks were constructed and another 500 miles will be completed 
this year to protect homes in the wildland urban interface.
    In this challenging fire season, citizens who live or vacation in 
fire-prone areas must take personal responsibility to protect their 
individual homes. Valuable information about how to increase their 
safety and protect their homes and property is available through the 
FIREWISE program. Homeowners can learn how to protect their homes with 
a survivable, cleared space and how to build their houses and landscape 
their yard with fire resistant materials. Information about the 
FIREWISE program can be found at www.firewise.org, sponsored by a 
consortium of wildland fire agencies that includes the Forest Service, 
the DOI, the National Fire Protection Association, and the National 
Association of State Foresters.

USDA Office of Inspector General--Progress on Implementation of the 
        Healthy Forests Initiative
    In September 2006, the USDA Office of Inspector General, Southeast 
Region, concluded an Audit Report on the Implementation of the Healthy 
Forests Initiative. The OIG audit recommended that the Forest Service 
implement a consistent analytical process for assessing the level of 
risk that communities face from wildfire, strengthen its prioritization 
of projects, and improve performance measures and reporting standards 
in order to better communicate the outcome of treatments. The Forest 
Service concurred with the five recommendations of the report and 
developed an action response and estimated completion date for each. An 
update on progress includes:
    <all>  In August 2006, the Forest Service completed development of 
the Hazardous Fuels Prioritization and Allocation Process--a national 
methodology to assess the risk and consequence of wildfire that 
prioritizes the allocation of hazardous fuels funds to the Regional 
level. The Forest Service applied the Hazardous Fuels Prioritization 
and Allocation Process framework to assist in the allocation of fuels 
funding in the last quarter of FY 2006 and to allocate hazardous fuels 
funds for FY 2007. DOI is working with Forest Service to adapt the 
Hazardous Fuels Prioritization and Allocation Process to meet BLM's 
vegetation and landscapes and will begin a pilot implementation 
process.
    <all>  In December 2006, the Forest Service completed work with the 
DOI and other partners in the Wildland Fire Leadership Council to 
update the 10-Year Implementation Plan. National performance measures 
were set and Program Assessment and Rating Tool (PART) measures assess 
performance based on achievement of desired conditions.
    <all>  In December 2006, the Forest Service completed 
accomplishment reporting with additional detail (i.e. acres moved to 
better condition class) in the FY 2006 Forest Service Performance 
Accountability Report (PAR). The FY 2007 PAR report will incorporate 
new outcome measures from the 10-Year Implementation Plan and will 
report accomplishments by Region.
    <all>  In February 2007, the Forest Service changed appropriate 
annual targets to multi-year averages and included emphasis on outcomes 
rather than outputs in the agency FY 2007 Program Direction and future 
President's Budgets. All accomplishment and budget documents for FY 
2008 and beyond reflect the new PART performance measures that 
demonstrate agency performance by focusing on risk reduction and 
restoration outcomes.
    <all>  Due in July 2007, the Forest Service will refine the 
Hazardous Fuels Prioritization and Allocation Process with updated data 
sources for the FY 2008 allocation, develop a methodology to determine 
outcomes of all activities to achieve desired condition (i.e. 
wildfires), and monitor and update severity mapping through the 
LANDFIRE.
    <all>  Due in October 2007, and still in progress, the Forest 
Service will require documentation of Regional methodology as part of 
General Management Reviews with seven Regions to be reviewed in FY 2007 
and change the National Fire Plan Operations and Reporting System and 
FACTS databases to incorporate geospatial information for all hazardous 
fuel treatments.

MANAGING THE COST OF FIGHTING WILDLAND FIRE
    Suppression costs have escalated in recent years, as wildfire 
seasons have generally lasted longer and the acreage burned has grown. 
The external factors noted earlier in this testimony influence the 
number and severity of incidents. While safety is our primary concern, 
our Departments do share concerns about the cost of fires and are 
committed to doing all we can to contain these costs.
    Over the last several years, various studies and assessments 
dedicated to fire suppression costs have been conducted by the National 
Academy of Public Administration, the Wildland Fire Leadership Council, 
the Brookings Institution, and the Government Accountability Office 
(GAO). As a result of the reviews, more than 300 recommendations have 
been documented to suggest approaches to trim the costs of wildland 
fire suppression. The agencies have taken these reviews seriously, and 
the overall awareness and personal responsibility for cost-containment 
among the federal fire agencies has never been more acute.
    In 2006, TriData, a Division of System Planning Corporation, under 
contract with the Forest Service, completed a review and analysis of 22 
past cost containment reports and made recommendations regarding those 
which would yield the greatest savings. The Tridata report determined 
there were 203 unique recommendations directed at improving wildfire 
suppression cost containment. Of those, the report identified 71 
recommendations that represented potentially high to extremely high 
cost savings if implemented. As of August 2006, we have taken or are in 
the process of taking action on 57 of these recommendations. We have 
not implemented corrective actions on the remaining recommendations for 
various reasons, including that the recommendation involves actions 
beyond agency authority, the action must be deferred due to pending 
court decisions, or that recommendations were directed at isolated 
events. Both the Forest Service and DOI are working on a comprehensive 
report on recommendations for large fire cost reviews. We expect that 
report to be available later this year.
    DOI and USDA are taking the issue of large fire cost containment 
very seriously and are actively moving forward to implement these 
important changes. The comprehensive list of management efficiencies 
has been developed to guide action over the short, intermediate and 
long-term and to produce results. The Forest Service and DOI are 
working together in collaboration and our staff is committed to action.

RECENT STUDIES

Government Accountability Office--Wildland Fire Management: Update on 
        Federal Agency Efforts to Develop a Cohesive Strategy to 
        Address Wildland Fire Threats:
    In May 2006, the GAO issued a report entitled, ``Wildland Fire 
Management: Update on Federal Agency Efforts to Develop a Cohesive 
Strategy to Address Wildland Fire Threats.'' The report reiterated its 
recommendation to develop a cohesive wildland fire management strategy. 
It also acknowledged the Departments' progress on LANDFIRE and Fire 
Program Analysis, but urged continued vigilance in ensuring that 
appropriate data is utilized. In response, we have collaborated with 
our partners on the following:
    <bullet>  Cohesive Fuels Strategy: USDA and DOI issued a Cohesive 
Fuels Strategy to set forth priorities for fuels reduction projects to 
guide investments in reducing risks of catastrophic wildland fires and 
enhance strategically placed ``defensible space'' in areas at risk.
    <bullet>  LANDFIRE: USDA and DOI are presently completing an 
operations and maintenance plan for LANDFIRE. This plan includes 
provisions for ensuring that data is updated and maintained and that a 
stable organization will be available to provide such data for the 
users. The Wildland Fire Leadership Council will be reviewing this plan 
at its June meeting. Implementation of the plan will begin in 2008 as 
the project is completed and will continue uninterrupted into the 
future.
    <bullet>  Fire Program Analysis (FPA): One of the principal 
functions of the LANDFIRE program is to provide data to support Fire 
Program Analysis (FPA). FPA is on schedule, with the prototype expected 
to be delivered this summer and system delivery expected in 2008. FPA 
will enable managers to better evaluate the effectiveness of 
alternative fire management strategies in order to meet land management 
goals and objectives.
    As we continue to strive aggressively to contain the costs of 
wildland fire suppression, our primary goal will continue to be the 
protection of life, property and resources. We share the GAO's interest 
in prioritizing fuels treatment work and increasing accountability for 
cost containment and have taken many steps forward. We are hopeful that 
GAO and this Subcommittee are able to ascertain from the actions that 
have been taken and planned, that the agencies indeed have established 
strategies, goals and objectives for reducing costs of large wildfire 
suppression and improving hazardous fuels reduction. We believe that 
the 10-Year Strategy Implementation Plan, Office of Management and 
Budget PART Improvement Plan, Forest Service Strategic Plan, and new 
DOI Strategic Plan, along with the Management Efficiencies initiatives 
underway, demonstrate a commitment to constantly improve performance, 
efficiency and accountability.

Secretary of Agriculture's Independent Panel--Brookings Institution
    On May 22, 2007 the Brookings Institution released a report 
``Towards a Collaborative Cost Management Strategy--2006 U.S. Forest 
Service Large Wildfire Cost Review Recommendations.'' This report is by 
an independent panel that assessed agency performance on 20 large fires 
that burned 1.1 million acres across 17 national forests, five regions 
and six states that exceeded $10 million in cost. The Brookings 
Institution's Project Director acted as facilitator of the process and 
author of the report. The purpose was to determine if the agency 
exercised fiscal due diligence in managing specific incident 
suppression activities. The panel found that the Forest Service 
exercised appropriate and adequate fiscal diligence in suppressing 
wildfires in the record breaking 2006 season. The panel report also 
makes a series of recommendations for improvement that the agency will 
begin to act on immediately. The report is available at the USDA 
website http://www.usda.gov/wps/
portal.

CONCLUSION
    In conclusion, Mr. Chairman and members of the subcommittee, we are 
prepared for the 2007 fire season. Where local areas experience severe 
fire risk, firefighters, equipment and teams will be assigned. We have 
a long-term and complex fuels and fire situation that will continue to 
need to be addressed by communities, tribes, states, and federal 
agencies. We appreciate your continued support and work as we move 
forward on these challenges. We are happy to answer any questions you 
might have.
                                 ______
                                 
    Mr. Grijalva. Let me turn now to Ms. Robin Nazzaro, 
Director of Natural Resources and Environment, Government 
Accountability Office.
    Ms. Nazzaro, thank you.

 STATEMENT OF ROBIN NAZZARO, DIRECTOR OF NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Nazzaro. Thank you, Mr. Chairman and Members of the 
Subcommittee. I am pleased to be here today to discuss Federal 
agencies' efforts to prepare for and respond to wildland fires 
effectively
    Increasing wildland fire threats to communities and 
ecosystems, combined with the rising costs of addressing those 
threats, have not abated. On average, the acreage burned 
annually by wildland fires from 2000 to 2005 was 70 percent 
greater than the acreage burned annually during the 1990s.
    Appropriations for wildland fire preparation and response, 
including appropriations for reducing fuels, have also 
increased substantially over the past decade, totally about $3 
billion in recent years.
    As Mr. Allred mentioned, a number of factors have 
contributed to more severe fires and corresponding increases in 
expenditures for wildland fire management activities. However, 
in light of the Federal deficit and the long-term fiscal 
challenges facing the nation, attention has increasingly 
focused on ways to contain these growing expenditures, and to 
ensure that agencies' wildland fire activities are appropriate 
and carried out in a cost-effective and efficient manner.
    My testimony today is based on several of our previous 
reports and testimonies, which identified critical actions the 
agencies need to complete if they are to effectively prepare 
for and respond to wildland fires.
    First, because a substantial investment and decades of work 
will be required to address wildland fire problems that have 
been decades in the making, the agencies need to develop a 
cohesive strategy that addresses the full range of wildland 
fire management activities. Such a strategy would identify the 
available long-term options and associated funding for reducing 
excess vegetation and responding to wildland fires.
    We first recommended in 1999 that such a strategy be 
developed to address the problems of excess fuels and their 
potential to increase the severity of wildland fires and the 
cost of suppression. By 2005, the agencies had yet to develop 
such a strategy, and we reiterated the need for such a strategy 
and broadened our recommendations focus to better address the 
inter-related nature of fuel reduction efforts and wildland 
fire response.
    Further, because the agencies said they would be unable to 
develop such a strategy until they had completed certain key 
tasks, we recommended that the agencies develop a tactical plan 
outlining these tasks, and the timeframes needed for completing 
each task and the cohesive strategy.
    These tasks include finishing data systems that are needed 
to identify the extent, severity, and location of wildland fire 
threats in our national forests and rangelands; updating local 
fire management plans to better specify the actions needed to 
effectively address those threats; and assessing the cost 
effectiveness and affordability of options for reducing fuels 
and responding to wildland fire problems.
    Although the agencies have made progress on these tasks, 
they have yet to complete the joint tactical plan outlining the 
critical steps, together with the related timeframes that it 
would take to complete a cohesive strategy.
    With respect to the agencies' efforts to contain wildland 
fire costs, as we testified before the Senate Energy and 
Natural Resources Committee this past January, their efforts 
lack several key elements fundamental to sound program 
management, such as clearly defining cost containment goals, 
developing a strategy for achieving the goals, and measuring 
progress toward achieving them.
    For their cost containment efforts to be effective, the 
agencies need to integrate cost containment goals with the 
other goals of the wildland fire program, such as protecting 
life, resources, and property, and to recognize that trade-offs 
may be needed to meet desired goals within the context of 
fiscal constraints.
    Further, because cost containment goals need to be 
considered in relation to the other wildland fire goals, it is 
important that the agencies integrate their cost containment 
goals within an overall cohesive strategy. Our forthcoming 
report on Federal agencies' efforts to contain wildland fire 
costs includes more detailed findings and recommendations to 
the agencies to improve their management of their cost 
containment efforts. This report is expected to be released at 
a hearing before the Senate Committee on Energy and Natural 
Resources, scheduled for June 26, 2007.
    In summary, complex conditions have contributed to 
increasing wildland fire severity. These conditions have been 
decades in the making, and will take decades to resolve.
    In light of the large Federal deficit and the long-term 
fiscal challenges facing the Nation and our agencies, it is 
important that the agencies develop an effective and affordable 
strategy for addressing these conditions.
    To make informed decisions, such a cohesive strategy needs 
to identify the long-term options and associated funding for 
reducing excess vegetation and responding to wildland fires. 
Until a cohesive strategy can be developed, it is essential 
that the agencies create a tactical plan for developing this 
strategy, so Congress understands the steps and timeframes 
involved and can monitor the agencies' progress.
    Further, without clear program goals and objectives and 
corresponding performance measures, the agencies lack the tools 
to be able to determine the effectiveness of their cost 
containment efforts.
    Mr. Chairman, this concludes my prepared statement. I would 
be pleased to answer any questions that you or other Members of 
the Subcommittee may have.
    [The prepared statement of Ms. Nazzaro follows:]

    Statement of Robin M. Nazzaro, Director, Natural Resources and 
           Environment, U.S. Government Accountability Office

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss the key steps that we 
believe federal wildland fire agencies--the Forest Service within the 
Department of Agriculture and four agencies <SUP>1</SUP> within the 
Department of the Interior (Interior)--eed to complete to manage their 
efforts to prepare for and respond to wildland fires effectively. 
Increasing wildland fire threats to communities and ecosystems, 
combined with rising costs of addressing those threats--trends that we 
and others have reported on for many years--have not abated. On 
average, the acreage burned annually by wildland fires from 2000 to 
2005 was 70 percent greater than the acreage burned annually during the 
1990s. Appropriations to federal agencies to prepare for and respond to 
wildland fires, including appropriations for reducing fuels, have also 
increased substantially, from an average of $1.1 billion annually from 
fiscal years 1996 through 2000 to an average of more than $2.9 billion 
annually from Fiscal Years 2001 through 2005 (adjusted for inflation, 
these appropriations increased from $1.3 billion to $3.1 billion). A 
number of factors have contributed to more-severe fires and 
corresponding increases in expenditures for wildland fire management 
activities. These factors include an accumulation of fuels due to past 
fire suppression policies; severe weather and drought in some areas of 
the country; and growing numbers of homes built in or near wildlands, 
an area known as the wildland-urban interface. In light of the federal 
deficit and the long-term fiscal challenges facing the nation, 
attention has increasingly focused on ways to contain these growing 
expenditures and to ensure that federal agencies' wildland fire 
activities are appropriate and carried out in a cost-effective and 
efficient manner.
---------------------------------------------------------------------------
    \1\ The four agencies are the Bureau of Indian Affairs, Bureau of 
Land Management, Fish and Wildlife Service, and National Park Service.
---------------------------------------------------------------------------
    My testimony today is based on several of our previous reports and 
testimonies, which together discuss key issues we have identified over 
the last 7 years in federal agencies' management of wildland fire and 
critical actions the agencies need to complete if they are to 
effectively manage their efforts to prepare for and respond to wildland 
fires. <SUP>2</SUP> Specifically, my testimony focuses on the Forest 
Service and Interior agencies' (1) efforts to develop a long-term, 
cohesive strategy to reduce fuels and address wildland fire problems 
and (2) management of their efforts to contain the costs of preparing 
for and responding to wildland fires.
---------------------------------------------------------------------------
    \2\ GAO, Wildland Fire Management: Lack of a Cohesive Strategy 
Hinders Agencies' Cost-Containment Efforts, GAO-07-427T (Washington, 
D.C.: Jan. 30 2007); Wildland Fire Management: Update on Federal Agency 
Efforts to Develop a Cohesive Strategy to Address Wildland Fire 
Threats, GAO-06-671R (Washington, D.C.: May 1, 2006); and Wildland Fire 
Management Important Progress Has Been Made, but Challenges Remain to 
Completing a Cohesive Strategy, GAO-05-147 (Washington, D.C.: Jan. 14, 
2005).
---------------------------------------------------------------------------
Summary
    In summary, the Forest Service and Interior agencies need to 
complete several actions to strengthen their overall management of the 
wildland fire program. Because a substantial investment and decades of 
work will be required to address wildland fire problems that have been 
decades in the making, the agencies need to develop a cohesive strategy 
that addresses the full range of wildland fire management activities. 
Such a strategy should identify the available long-term options and 
associated funding for reducing excess vegetation and responding to 
wildland fires if the agencies and the Congress are to make informed 
decisions about an effective and affordable long-term approach for 
addressing problems that have been decades in the making. We first 
recommended in 1999 that such a strategy be developed to address the 
problem of excess fuels and their potential to increase the severity of 
wildland fires and cost of suppression efforts. <SUP>3</SUP> By 2005, 
the agencies had yet to develop such a strategy, and we reiterated the 
need for a cohesive strategy and broadened our recommendation's focus 
to better address the interrelated nature of fuel reduction efforts and 
wildland fire response. Further, because the agencies said they would 
be unable to develop a cohesive strategy until they have completed 
certain key tasks, we recommended that the agencies develop a tactical 
plan outlining these tasks and the time frames needed for completing 
each task and a cohesive strategy. <SUP>4</SUP> Although the agencies 
concurred with our recommendations, as of April 2007, a tactical plan 
had yet to be developed.
---------------------------------------------------------------------------
    \3\ GAO, Western National Forests: A Cohesive Strategy Is Needed to 
Address Catastrophic Wildfire Threats, GAO/RCED-99-65 (Washington, 
D.C.: Apr. 2, 1999).
    \4\ GAO-05-147.
---------------------------------------------------------------------------
    Second, as we testified before the Senate Committee on Energy and 
Natural Resources in January 2007, the steps the Forest Service and 
Interior agencies have taken to date to contain wildland fire costs 
lack several key elements fundamental to sound program management, such 
as clearly defining cost-containment goals, developing a strategy for 
achieving those goals, and measuring progress toward achieving them. 
For cost-containment efforts to be effective, the agencies need to 
integrate cost-containment goals with the other goals of the wildland 
fire program--such as protecting life, resources, and property--and to 
recognize that trade-offs will be needed to meet desired goals within 
the context of fiscal constraints. Further, because cost-containment 
goals need to be considered in relation to other wildland fire program 
goals, it is important that the agencies integrate cost-containment 
goals within an overall cohesive strategy. Our forthcoming report on 
federal agencies' efforts to contain wildland fire costs includes more-
detailed findings and recommendations to the agencies to improve the 
management of their cost-containment efforts; this report is expected 
to be released at a hearing before the Senate Committee on Energy and 
Natural Resources scheduled for June 26, 2007.
Background
    Over the past decade, the number of acres burned annually by 
wildland fires in the United States has substantially increased. 
Federal appropriations to prepare for and respond to wildland fires, 
including appropriations for fuel treatments, have almost tripled. 
Increases in the size and severity of wildland fires, and in the cost 
of preparing for and responding to them, have led federal agencies to 
fundamentally reexamine their approach to wildland fire management. For 
decades, federal agencies aggressively suppressed wildland fires and 
were generally successful in decreasing the number of acres burned. In 
some parts of the country, however, rather than eliminating severe 
wildland fires, decades of suppression contributed to the disruption of 
ecological cycles and began to change the structure and composition of 
forests and rangelands, thereby making lands more susceptible to 
fire.Increasingly, federal agencies have recognized the role that fire 
plays in many ecosystems and the role that it could play in the 
agencies' management of forests and watersheds. The agencies worked 
together to develop a federal wildland fire management policy in 1995, 
which for the first time formally recognized the essential role of fire 
in sustaining natural systems; this policy was subsequently reaffirmed 
and updated in 2001. The agencies, in conjunction with Congress, also 
began developing the National Fire Plan in 2000. <SUP>5</SUP> To align 
their policies and to ensure a consistent and coordinated effort to 
implement the federal wildland fire policy and National Fire Plan, 
Agriculture and Interior established the Wildland Fire Leadership 
Council in 2002. <SUP>6</SUP> In addition to noting the negative 
effects of past successes in suppressing wildland fires, the policy and 
plan also recognized that continued development in the wildland-urban 
interface has placed more structures at risk from wildland fire at the 
same time that it has increased the complexity and cost of wildland 
fire suppression. Forest Service and university researchers estimated 
in 2005 that about 44 million homes in the lower 48 states are located 
in the wildland-urban interface.
---------------------------------------------------------------------------
    \5\ The National Fire Plan is a joint interagency effort to respond 
to wildland fires. Its core comprises several strategic documents, 
including (1) a September 2000 report from the Secretaries of 
Agriculture and the Interior to the President in response to the 
wildland fires of 2000, (2) congressional direction accompanying 
substantial new appropriations in Fiscal Year 2001, and (3) several 
approved and draft strategies to implement all or parts of the plan.
    \6\ The Wildland Fire Leadership Council is composed of senior 
Agriculture and Interior officials, including the Agriculture Under 
Secretary for Natural Resources and Environment; the Interior Assistant 
Secretary for Policy, Management, and Budget; the Interior Deputy 
Assistant Secretary for Business Management and Wildland Fire; and the 
heads of the five federal firefighting agencies. Other members include 
representatives of the Intertribal Timber Council, the National 
Association of State Foresters, and the Western Governors' Association.
---------------------------------------------------------------------------
    To help address these trends, current federal policy directs 
agencies to consider land management objectives--identified in land and 
fire management plans developed by each local unit, such as a national 
forest or a Bureau of Land Management district--and the structures and 
resources at risk when determining whether or how to suppress a 
wildland fire. When a fire starts, the land manager at the affected 
local unit is responsible for determining the strategy that will be 
used to respond to the fire. A wide spectrum of strategies is 
available, some of which can be significantly more costly than others. 
For example, the agencies may fight fires ignited close to communities 
or other high-value areas more aggressively than fires on remote lands 
or at sites where fire may provide ecological or fuel-reduction 
benefits. In some cases, the agencies may simply monitor a fire, or 
take only limited suppression actions, to ensure that the fire 
continues to pose little threat to important resources, a practice 
known as ``wildland fire use.''
Agencies Need a Cohesive Strategy to Address Wildland Fire Problems
    Federal firefighting agencies need a cohesive strategy for reducing 
fuels and addressing wildland fire issues. Such a strategy should 
identify the available long-term options and associated funding for 
reducing excess vegetation and responding to wildland fires if the 
agencies and the Congress are to make informed decisions about an 
effective and affordable long-term approach for addressing problems 
that have been decades in the making. We first recommended in 1999 such 
a strategy be developed to address the problem of excess fuels and 
their potential to increase the severity of wildland fires and cost of 
suppression efforts. <SUP>7</SUP> By 2005, the agencies had yet to 
develop such a strategy, and we reiterated the need for a cohesive 
strategy and broadened our recommendation's focus to better address the 
interrelated nature of fuel reduction efforts and wildland fire 
response. The agencies said they would be unable to develop a cohesive 
strategy until they have completed certain key tasks. We therefore 
recommended that the agencies develop a tactical plan outlining these 
tasks and the time frames needed for completing each task and a 
cohesive strategy. These tasks include (1) finishing data systems that 
are needed to identify the extent, severity, and location of wildland 
fire threats in our national forests and rangelands; (2) updating local 
fire management plans to better specify the actions needed to 
effectively address these threats; and (3) assessing the cost-
effectiveness and affordability of options for reducing fuels and 
responding to wildland fire problems.
---------------------------------------------------------------------------
    \7\ GAO/RCED-99-65.
---------------------------------------------------------------------------
    First, federal firefighting agencies have made progress in 
developing a system to help them better identify and set priorities for 
lands needing treatment to reduce accumulated fuels. Many past studies 
have identified fuel reduction as important for containing wildland 
fire costs because accumulated fuels can contribute to more-severe and 
more costly fires. The agencies are developing a geospatial data and 
modeling system, called LANDFIRE, intended to produce consistent and 
comprehensive maps and data describing vegetation, wildland fuels, and 
fire regimes across the United States. <SUP>8</SUP> The agencies will 
be able to use this information to help identify fuel accumulations and 
fire hazards across the nation, help set nationwide priorities for 
fuel-reduction projects, and assist in determining an appropriate 
response when wildland fires do occur. LANDFIRE data are nearly 
complete for most of the western United States, with data for the 
remainder of the country scheduled to be completed in 2009. The 
agencies, however, have not yet finalized their plan for ensuring that 
collected data are routinely updated to reflect changes to fuels, 
including those from landscape-altering events, such as hurricanes, 
disease, or wildland fires themselves. The agencies expect to submit a 
plan to the Wildland Fire Leadership Council for approval later this 
month.
---------------------------------------------------------------------------
    \8\ A fire regime generally classifies the role that wildland fire 
plays in a particular ecosystem on the basis of certain 
characteristics, such as the average number of years between fires and 
the typical severity of fire under historic conditions.
---------------------------------------------------------------------------
    Second, we reported in 2006 that 95 percent of the agencies' 
individual land management units had completed fire management plans in 
accordance with agency direction issued in 2001. <SUP>9</SUP> As of 
January 2007, however, the agencies did not require regular updates to 
ensure that new data (from LANDFIRE, for example) were incorporated 
into the plans. In addition, in the wake of two court decisions--each 
holding that the Forest Service was required to prepare an 
environmental assessment or environmental impact statement under the 
National Environmental Policy Act (NEPA) <SUP>10</SUP> to accompany the 
relevant fire management plan--the Forest Service decided to withdraw 
the two plans instead of completing them. It is unclear whether the 
agency would withdraw other fire management plans successfully 
challenged under NEPA; nor is it clear whether or to what extent such 
agency decisions could undermine the interagency policy directing that 
every burnable acre have a fire management plan. Without such plans, 
however, current agency policy does not allow use of the entire range 
of wildland fire response strategies, including less aggressive, and 
potentially less costly, strategies. Moreover, in examining 17 fire 
management plans, a May 2007 review of large wildland fires managed by 
the Forest Service in 2006 identified several shortcomings, including 
that most of the plans examined did not contain current information on 
fuel conditions, many did not provide sufficient guidance on selecting 
firefighting strategies, and only 1 discussed issues related to 
suppression costs. <SUP>11</SUP>
---------------------------------------------------------------------------
    \9\ Fire management plans are local plans prepared by individual 
agency management units (such as national forests or wildlife refuges) 
to define each unit's program to prepare for and manage fires; such 
plans are important for identifying the fuel reduction, preparedness, 
suppression, and rehabilitation actions needed at the local level to 
effectively address wildland fire threats.
    \10\ For major federal actions that significantly affect the 
quality of the human environment, the National Environmental Policy Act 
requires all federal agencies to analyze the environmental impact of 
the proposed action. 42 U.S.C. Sec. 4332(2)(C).
    \11\ Independent Large Wildfire Cost Panel, chartered by the U.S. 
Secretary of Agriculture, Towards a Collaborative Cost Management 
Strategy: 2006 U.S. Forest Service Large Wildfire Cost Review 
Recommendations (Washington, D.C., May 15, 2007).
---------------------------------------------------------------------------
    Third, over the past several years, the agencies have been 
developing a Fire Program Analysis (FPA) system, which was proposed and 
funded to help the agencies
    <bullet>  determine national budget needs by analyzing budget 
alternatives at the local level--using a common, interagency process 
for fire management planning and budgeting--and aggregating the 
results;
    <bullet>  determine the relative costs and benefits for the full 
scope of fire management activities, including potential trade-offs 
among investments in fuel reduction, fire preparedness, and fire 
suppression activities; and
    <bullet>  identify, for a given budget level, the most cost-
effective mix of personnel and equipment to carry out these activities.
    We have said for several years--and the agencies have concurred--
that FPA is critical to helping the agencies contain wildland fire 
costs and plan and budget effectively. Recent design modifications to 
the system, however, raise questions about the agencies' ability to 
fully achieve key FPA goals. A midcourse review of the developing 
system resulted in the Wildland Fire Leadership Council's approving in 
December 2006 modifications to the system's design. FPA and senior 
Forest Service and Interior officials told us they believed the 
modifications would allow the agencies to meet the key goals. The 
officials said they expected to have a prototype developed for the 
council's review in June 2007 and to substantially complete the system 
by June 2008. We have yet to systematically review the modifications, 
but after reviewing agency reports on the modifications and 
interviewing knowledgeable officials, we have concerns that the 
modifications may not allow the agencies to meet FPA's key goals. For 
example, under the redesigned system, local land managers will use a 
different method to analyze and select various budget alternatives, and 
it is unclear whether this method will identify the most cost-effective 
allocation of resources. In addition, it is unclear how the budget 
alternatives for local units will be meaningfully aggregated on a 
nationwide basis, a key FPA goal.
    Although the agencies have made progress on these three primary 
tasks, as of April 2007, they had yet to complete a joint tactical plan 
outlining the critical steps, together with related time frames, that 
the agencies would take to complete a cohesive strategy, as we 
recommended in our 2005 report. We continue to believe that, until a 
cohesive strategy can be developed, it is essential that the agencies 
create a tactical plan for developing this strategy, so Congress 
understands the steps and time frames involved in completing the 
strategy.
Lack of Clear Goals or a Strategy Hinders Federal Agencies' Efforts to 
        Contain Wildland Fire Costs
    As we testified before the Senate Committee on Energy and Natural 
Resources in January 2007, the steps the Forest Service and Interior 
agencies have taken to date to contain wildland fire costs lack several 
key elements fundamental to sound program management, such as clearly 
defining cost-containment goals, developing a strategy for achieving 
those goals, and measuring progress toward achieving them. First, the 
agencies have not clearly articulated the goals of their cost-
containment efforts. For cost-containment efforts to be effective, the 
agencies need to integrate cost-containment goals with the other goals 
of the wildland fire program--such as protecting life, property, and 
resources. For example, the agencies have established the goal of 
suppressing wildland fires at minimum cost, considering firefighter and 
public safety and values being protected, but they have not defined 
criteria by which these often-competing objectives are to be weighed. 
Second, although the agencies are undertaking a variety of steps 
designed to help contain wildland fire costs, the agencies have not 
developed a clear plan for how these efforts fit together or the extent 
to which they will assist in containing costs. Finally, the agencies 
are developing a statistical model of fire suppression costs that they 
plan to use to identify when the cost for an individual fire may have 
been excessive. The model compares a fire's cost to the costs of 
suppressing previous fires with similar characteristics. However, such 
comparisons with previous fires' costs may not fully consider the 
potential for managers to select less aggressive--and potentially less 
costly--suppression strategies. In addition, the model is still under 
development and may take a number of years to fully refine. Without 
clear program goals and objectives, and corresponding performance 
measures to evaluate progress, the agencies lack the tools to be able 
to determine the effectiveness of their cost-containment efforts. Our 
forthcoming report on federal agencies' efforts to contain wildland 
fire costs includes more-detailed findings and recommendations to the 
agencies to improve the management of their cost-containment efforts; 
this report is expected to be released at a hearing before the Senate 
Committee on Energy and Natural Resources scheduled for June 26, 2007.

Conclusions
    Complex conditions have contributed to increasing wildland fire 
severity. These conditions have been decades in the making, and will 
take decades to resolve. The agencies must develop an effective and 
affordable strategy for addressing these conditions in light of the 
large federal deficit and the long-term fiscal challenges facing our 
nation. To make informed decisions about an effective and affordable 
long-term approach to addressing wildland fire problems, the agencies 
need to develop a cohesive strategy that identifies the available long-
term options and associated funding for reducing excess vegetation and 
responding to wildland fires. Because the agencies cannot develop such 
a strategy until they complete certain key tasks, we continue to 
believe that in the interim the agencies must create a tactical plan 
for developing this strategy so that Congress can monitor the agencies' 
progress. While the agencies continue to work toward developing a 
cohesive strategy, they have initiated a number of efforts intended to 
contain wildland fire costs, but the agencies cannot demonstrate the 
effectiveness of these cost containment efforts, in part because the 
agencies have no clearly defined cost-containment goals and objectives. 
Without clear goals, the agencies cannot develop consistent standards 
by which to measure their performance. Further, without these goals and 
objectives, federal land and fire managers in the field are more likely 
to select strategies and tactics that favor suppressing fires quickly 
over those that seek to balance the benefits of protecting the 
resources at risk and the costs of protecting them. Perhaps most 
important, without a clear vision of what they are trying to achieve 
and a systematic approach for achieving it, the agencies--and Congress 
and the American people--have little assurance that their cost-
containment efforts will lead to substantial improvement. Moreover, 
because cost-containment goals should be considered in relation to 
other wildland fire program goals--such as protecting life, resources, 
and property--the agencies must integrate cost-containment goals within 
the overall cohesive strategy for responding to wildland fires that we 
have consistently recommended.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you or other Members of the 
Subcommittee may have at this time.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. We may now turn to 
Deputy Inspector General, Department of Agriculture, Ms. 
Kathleen Tighe. Thank you.

STATEMENT OF KATHLEEN S. TIGHE, DEPUTY INSPECTOR GENERAL, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Ms. Tighe. Thank you. Good morning, Chairman Grijalva, 
Ranking Member Bishop, and Members of the Subcommittee. Thank 
you for inviting the Office of Inspector General to testify 
today concerning our work on wildfire preparedness issues.
    The Office of Inspector General has conducted substantial 
audit and investigative work pertaining to the Forest Service 
and its vital stewardship role to preserve and protect 
America's national forests.
    My written statement contains my full testimony, so I just 
plan on highlighting a brief few points.
    One of the most extensive and serious problems related to 
the health of our national forests is the over-accumulation of 
dead vegetation that can fuel fires, as noted by Mr. Allred 
earlier. The increase in the amount of hazardous fuels is the 
result of factors such as extended drought conditions, 
widespread disease, and insect infestations that have killed or 
affected large areas of forest, and past fire suppression 
practices that have prevented the natural use of wildland fire 
to reduce the accumulation of hazardous fuels.
    Reducing the buildup of hazardous fuels is crucial to 
reducing the severity and cost of wildfires. The Healthy Forest 
Initiative was launched in August 2002, with one of the primary 
goals being to reduce the threat of wildfire by removing 
hazardous fuels from areas in national forests that constitute 
the greatest threat of catastrophic fire.
    In September 2006, the Office of Inspector General 
completed an audit that evaluated the Forest Service efforts to 
implement the Healthy Forest Initiative. Our audit produced 
findings and recommendations on three primary issues that I 
will highlight for you this morning.
    The first pertains to the agency's assessment of risk, 
determining the level of risk that communities face from 
wildfires. At the time of our audit, the Forest Service did not 
have a consistent analytical process to assess the comparative 
level of risk different communities faced. In order to allocate 
its resources most effectively, the Forest Service needs to be 
able to identify the level of risk for significant wildfires, 
and what actual benefit would be achieved by conducting 
specific fuel reduction projects. We recommended that the 
agency develop guidance for assessing risks from wildland fires 
that is applied on a consistent basis among regions, forests, 
and districts.
    The second major finding was that the Forest Service did 
not have the ability to ensure that the highest priority fuel 
reduction projects would be funded first. Because projects were 
not prioritized under uniform national criteria, there was no 
systematic way to allocate funds to the most critical projects.
    Funds were allocated based on a region's historical funding 
levels, and targets for numbers of acres to be treated. We 
recommended that the Forest Service ensure that the process to 
identify and prioritize the most effective fuel reduction 
projects can be utilized at all levels to ensure funds are 
distributed according to the priority of projects.
    The third major recommendation resulting from our review 
pertained to the Forest Service's performance measures and 
reporting standards. The agency's focus has been on achieving 
annual targets that are measured in number of acres treated. We 
found that the Forest Service's performance measures and 
reporting standards did not provide adequate information to 
evaluate the effectiveness of a fuel treatment practice.
    We recommended that the Forest Service develop and 
implement a more meaningful and outcome-oriented performance 
measure, such as acres with risks reduced. I am pleased to 
report that the Forest Service, as noted by Under Secretary 
Rey, agreed with our audit findings, and committed to take 
action on them.
    We note that the Forest Service's budget justification for 
Fiscal Year 2008 placed an emphasis on measures to identify and 
treat wildfire risks. We appreciate the willingness of Under 
Secretary Rey and Forest Service officials to fully consider 
and respond to our review. The management and staff of the 
Office of Inspector General have a deep respect for the work 
done by Forest Service personnel to preserve and protect our 
national forests.
    Before concluding, I would like to mention that additional 
oversight work that we will conduct regarding the Healthy 
Forest Initiative, we plan to conduct a follow-up audit in 
Fiscal Year 2008. Our objective will be to look at the Forest 
Service implementation of our recommendations, and whether its 
responsive actions have been effective.
    This concludes my testimony. Thank you very much for 
affording me the opportunity to testify before the 
Subcommittee, and I would be happy to answer questions.
    [The prepared statement of Ms. Tighe follows:]

       Statement of Kathleen S. Tighe, Deputy Inspector General, 
      Office of Inspector General, U.S. Department of Agriculture

    Good morning, Chairman Grijalva, Ranking Member Bishop, and Members 
of the Subcommittee. Thank you for inviting the Office of Inspector 
General (OIG) of the Department of Agriculture (USDA) to present our 
views on wildfire preparedness issues. OIG has conducted substantial 
audit and investigative work pertaining to the Forest Service (FS) and 
its vital stewardship role to preserve and protect America's national 
forests. As requested by the Subcommittee, my testimony will present 
the findings and recommendations produced by our review of FS' 
implementation of the Healthy Forests Initiative (HFI).
    USDA, through FS, is responsible for the management of our Nation's 
155 national forests and 20 grasslands. These lands cover more than 192 
million acres. FS officials face significant challenges in their 
important stewardship activities, for it is clear that wildfires on FS 
lands are becoming larger and more expensive to extinguish and 
suppress. From fiscal year (FY) 2000 to 2006, FS suppression costs 
averaged $900 million annually and exceeded $1 billion in 4 of those 7 
years. In some years, FS has had to borrow funds from other programs to 
pay for its wildfire suppression activities, and this has adversely 
affected FS' ability to accomplish work in other areas.
    FS has estimated that the 73 million acres of the land it manages 
and 59 million acres of privately owned forest land are at high risk of 
ecologically destructive wildland fire. One of the most extensive and 
serious problems related to the health of national forests is the over-
accumulation of dead vegetation that can fuel fires. The increase in 
the amount of hazardous fuels is the result of several major factors. 
First, extended drought conditions have significantly increased the 
amount of unhealthy or dead forests and vegetation. Second, widespread 
disease and insect infestations have killed or affected the health of 
large areas of national and private forestland. Third, past fire 
suppression practices of the Federal, State, and local governments, 
private companies, and individuals have prevented the natural use of 
wildland fire (Wildland Fire Use--WFU) to reduce the accumulation of 
hazardous fuels.
    It has been estimated by some FS managers that hazardous fuels are 
accumulating three times as fast as they can be treated. The 
accumulation of hazardous fuels has contributed to an increasing number 
of large, intense, and catastrophically destructive wildfires. Reducing 
the buildup of hazardous fuels is crucial to reducing the extent, 
severity, and costs of wildfires.
    The Healthy Forests Initiative (HFI) was launched in August 2002 by 
President Bush to reduce the risks severe wildfires pose to people, 
communities, and the environment. The HFI includes a number of policy, 
program, and legislative changes to help achieve this. One of the 
primary goals of the HFI is to reduce the threat of wildfire by 
removing hazardous fuels from areas in national forests that constitute 
the greatest threats of catastrophic fire. Catastrophic fires can 
destroy hundreds of thousands of acres at one time, burn entire 
communities, destroy watersheds that are the source of water for 
millions of people, and take the lives of community residents and 
firefighters. These fires can burn with such intensity that they change 
the composition of the landscape and soil for generations. A 
catastrophic wildfire can grow to such an extent that it creates its 
own weather pattern and becomes physically impossible to suppress 
without the assistance of nature (i.e. significant amounts of rain). 
Already in the 2007 fire season, one fire in Georgia and Florida has 
burned approximately 468,000 acres (731 square miles). This is 
approximately 2.4 times larger than the entire land area of New York 
City or about 12 times that of Washington, D.C.
    In September of 2006, OIG completed an audit that evaluated FS 
efforts to implement the HFI. We focused our audit work on the agency's 
hazardous fuels reduction program because more than half of FS' funding 
under the HFI is allocated for this purpose. For FY 2005 and 2006, the 
FS budget for hazardous fuels reduction was approximately $262 million 
and $281 million, respectively. Our review evaluated the methods used 
by FS to identify, select, and fund fuel reduction projects. We also 
evaluated how the agency reported accomplishments.
    At the time of our review, FS' identification of and funding for 
fuel reduction projects were determined and performed at the discretion 
of individual field units, after they performed various analyses to 
identify communities at risk. FS did not require the use of a specific 
set of criteria or analytical process to ensure that the identification 
of projects was consistent nationwide, or to justify the selection of 
one project over another. FS allocated hazardous fuels reduction funds 
to its regions based primarily on historical funding levels and 
established acres as targets. Regional officials were then responsible 
for making funding allocations to Forest Supervisors and final project 
allocation decisions were made at the local level. Funds were not 
allocated to the regions based upon identified wildfire risks or those 
fuel reduction projects that would be most effective in reducing that 
risk.
    Specifically, our audit evaluated FS management controls to (1) 
determine if the hazardous fuels reduction projects that were conducted 
were cost beneficial, (2) how FS identified and prioritized such 
projects, (3) the agency's process for allocating funds among projects 
in different regions, and (4) the agency's process to report hazardous 
fuels reduction accomplishments. I would like to advise the 
Subcommittee of the primary findings and recommendations from our 
audit.

Audit Findings and Recommendations
Assessment of Risk
    At the time of our audit, we found that FS lacked a consistent 
analytical process for assessing the level of risk that communities 
faced from wildland fire and determining if a hazardous fuels project 
would be cost beneficial. FS had not developed specific national 
guidance for weighing the risks against the benefits of fuels treatment 
and restoration projects.
    In order to allocate resources most effectively, it is important 
for FS to be able to identify which communities and what National 
Forest System (NFS) resources are at risk. FS needs to be able to 
determine the level of risk for significant and destructive wildland 
fires throughout the NFS and what the potential benefit or payback 
would be from conducting a specific fuels reduction project. While we 
agreed with FS that a traditional cost benefit analysis would be 
impractical, we concluded that FS could develop a set of criteria to 
compare the relative degrees of exposure and risk to wildland fire that 
each community faces. The assessment should include a measure of the 
benefits and/or consequences of selecting one project over another for 
treatment.
    Currently, FS' nine regions each have different ways of identifying 
priorities. At the time of our audit, FS could not adequately compare 
hazardous fuels reduction projects among regions. This affects the 
ability to identify, on a national basis, those projects that should be 
funded and completed first. While some areas or communities may be at 
high risk from wildfires, it may not be effective for FS to spend large 
sums of money on hazardous fuels reduction projects if the nearby 
communities have not enacted and enforced rigorous building and zoning 
regulations, otherwise known as ``Firewise'' regulations. A community's 
lack of Firewise regulations could significantly reduce the 
effectiveness of any FS efforts to reduce hazardous fuels around the 
community. FS officials believe that the new LANDFIRE system being 
developed will provide more accurate nationwide data so that they can 
better define and identify areas where fuels treatment would be most 
cost beneficial.
    In the interim while new systems are being developed, FS needs to 
develop a methodology to evaluate the effectiveness of alternative 
strategies in meeting the agency's hazardous fuels reduction program 
goals. Without a sound process for assessing the level of risk that 
communities face from wildland fire, one that agency managers can apply 
consistently, FS will be unable to identify and prioritize the most 
effective fuel reduction projects.

Prioritizing and Funding Projects
    FS also did not have the ability to ensure that the highest 
priority fuels reduction projects were funded first. Because projects 
were not prioritized under uniform, national criteria, there was no 
systematic way to allocate funds to the most critical projects. Funds 
were allocated based upon a region's historical funding levels and 
targets for number of acres to be treated that were set by FS 
Headquarters office in Washington, D.C. There were no controls in place 
to prevent funds from being allocated to projects in order to achieve 
targets of acres treated instead of reducing the most risk. This could 
lead to less important projects being funded.
    We recommended that FS develop and implement specific national 
guidance for assessing the risks wildland fires present to residents 
and communities and determining the comparative value and benefit of 
fuels treatment/restoration projects. We also recommended that FS 
establish controls to ensure that the process and methodology to 
identify and prioritize the most effective fuels reduction projects can 
be utilized at all levels to ensure funds are distributed according to 
the priority of the projects. This process should have uniformity (and 
comparability) from the local level (districts) through to the 
Headquarters office and across geographic boundaries (i.e. among 
regions).

Performance Measures and Reporting Standards
    We found that FS' performance measures and reporting standards did 
not provide adequate information to evaluate the effectiveness of a 
fuel treatment practice. They did not communicate to either FS managers 
or other stakeholders whether the treatment of an acre of forest had 
resulted in changing its condition class, <SUP>1</SUP> or if the 
project reduced the risk from catastrophic wildland fire. The agency's 
focus has been on achieving firm annual targets (output) that are 
measured in the number of acres treated. However, these acres are not 
homogenous, meaning that some acres of hazardous fuels create much more 
risk to communities and resources than others. Reporting the number of 
acres treated did not communicate the amount of risk that has been 
reduced. Focusing only on acres treated did not communicate key 
information on the effectiveness of the treatment practice. In 
addition, hazardous fuels accomplishment reports did not provide 
detailed information to evaluate the overall progress of the program; 
details such as the location of treatments, changes in condition class, 
and initial or maintenance treatments are not reported.
---------------------------------------------------------------------------
    \1\ The fire-regime condition class is an expression of the 
departure of the current condition from the historical fire regime 
resulting in alterations to the ecosystem. A condition class is 
measured as a 1, 2, or 3, with 3 being the most significant departure 
from the historical fire regime. Activities that cause the departure 
include fire exclusion, timber harvesting, grazing, growth of exotic 
plant species, insects, and disease.
---------------------------------------------------------------------------
    We recommended that FS develop and implement a more meaningful and 
outcome-oriented performance measure for reporting metrics, such as 
acres with ``risk reduced'' or ``area protected.'' Also, FS should 
direct that implementing effective integrated treatments are more 
important than solely meeting acreage targets. We also recommended that 
FS improve accomplishment reporting by including more detailed 
information, such as breaking down accomplishments by region, noting 
changes in condition class, and differentiating between initial and 
maintenance treatments and multiple treatments on the same acres.
    FS agreed with our audit findings and each of our HFI program 
recommendations and committed to take action on them.

HFI Activities in FY 2008
    FS' estimated budget for Hazardous Fuel Reduction activities in FY 
2007 is $291.8 million and is projected by agency officials to be $292 
million for FY 2008. While the amounts for FY 2007 and FY 2008 are 
approximately the same, the proposed FY 2008 amount of $292 million is 
25% more than the enacted amount for FY 2004 of $233 million.
    OIG plans to conduct a follow-up audit in FY 2008. Our objective 
will be to determine if FS has implemented the agreed upon 
recommendations and whether the agency's responsive actions have been 
effective. FS' FY 2008 budget justification reflects some of the 
measurements we recommended in our report, i.e., reporting 
accomplishments by changes in condition class, reporting 
accomplishments obtained through other land management activities, and 
distinguishing accomplishments between initial treatments and 
maintenance treatments. The budget justification's FY 2008 plan places 
an emphasis on identifying and treating risks.
    As part of our evaluation of the key management challenges facing 
the Department in 2007, we identified large fire suppression cost as a 
new challenge. This challenge encompasses the HFI. During our audit of 
FS' Large Fire Suppression Costs, <SUP>2</SUP> we identified the 
accumulation of hazardous fuels, especially within the wildland urban 
interface, as a major factor in increasing fire suppression costs. We 
believe that improving the health of the National Forests will 
ultimately help reduce agency costs for suppressing wildfires.
---------------------------------------------------------------------------
    \2\ OIG Report, ``Forest Service Large Fire Suppression Costs.'' 
Report No. 08601-44-SF, November 2006.
---------------------------------------------------------------------------
    I want to express my sincere thanks to FS officials and employees 
for the assistance and considerable cooperation they extended to OIG 
during these two audits. FS faces many difficult programmatic issues 
and natural resource challenges as it strives to provide good 
stewardship of America's national forests. OIG's management and staff 
greatly appreciate the excellent but frequently uncredited work that FS 
employees perform on a daily basis to preserve and enhance our precious 
national forests.
    This concludes my testimony. Thank you again for affording me the 
opportunity to testify before the Subcommittee. I would be pleased to 
address any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. And let me begin with 
some questions.
    And let me begin by asking you, elaborate on one of the 
points in your testimony where you talked about how the 
agency's habit of reporting how many acres has been treated is 
not helpful in determining how much fire risk has been reduced. 
If you could elaborate on that point.
    Ms. Tighe. Absolutely. What we would like to see, I mean, 
reporting on acres treated is an output measure. What we would 
like to see is a more qualitative measure that looks at whether 
treatment of those acres has reduced the risk. And so you would 
look at whether a condition class has changed after treatment, 
and areas like that.
    And I believe we have seen some steps in the right 
direction. As I noted in the budget justification for Fiscal 
Year 2008, Forest Service has, in fact, included performance 
measures along those lines. It is simply not, we didn't think 
it was sufficient to look simply at acres treated. You have to 
be more qualitative.
    Mr. Grijalva. Yes. And let me follow up on that, if I may. 
The common criticism is that the Forest Service fuel reduction 
work, it seems that the agency seems to be more focused on 
meeting acreage targets than treating acres that will reduce 
that wildland-urban interface to communities.
    That common criticism correlates or doesn't correlate with 
the findings of this audit?
    Ms. Tighe. Yes, it absolutely does. In our opinion, what 
needs to be done is develop criteria that--you can use acres as 
one measure or one criteria to look at. But the criteria ought 
to be more evaluative and consistently applied throughout the 
National Forest System, so that you are looking at, you know, 
what is the risk of, in particular locations. And then what are 
the protection capabilities of those locations, and what values 
in those locations are there to be protected.
    Mr. Grijalva. Which leads me to my final question for you, 
if I may, Ms. Tighe.
    In the opening statement and some of the other comments 
that will be made today, we are going to talk about the funding 
for that hazardous fuel reduction program. And the President's 
budget is even way below what was authorized in the Healthy 
Forest Restoration Act.
    Do you think that this underfunding of hazardous fuels is a 
factor with the problems that we have seemed to encounter with 
implementing some of the issues that you discovered in the 
initial audit?
    Ms. Tighe. The Office of Inspector General hasn't exactly 
evaluated it in terms of how much funding has gone to the 
program. I think our position is that what funding there is 
ought to be used wisely. And so, you know, the first matter is 
you have to do it according to priorities.
    Mr. Grijalva. Thank you. Ms. Nazzaro, if I may, you stated 
that the first recommendation about developing a cohesive 
strategy on wildland fire management was in 1999, as of this 
April. And we still don't have that strategy. In your 
communication with the agencies, have they indicated why it has 
taken so long to get to that strategy development, or producing 
a cohesive strategy?
    Ms. Nazzaro. You are correct in that we made the initial 
recommendation back in 1999, and then we came back in 2005 and 
looked at it again and reiterated that need.
    At the time there was a discussion about the need for 
certain information to be able to develop a cohesive strategy. 
And we concurred with the agency that there were some key 
building blocks, if you will, to help them get that data, which 
would be, for example, they have a program called Landfire, 
which was going to provide key data and modeling data that 
would be useful in developing such a cohesive strategy.
    At that time, because they needed to complete these 
building blocks, we said then give the Congress a tactical plan 
as to what it is going to take to complete those projects, as 
well as a timetable for when you think you can complete a 
cohesive strategy. And we still haven't seen the tactical plan 
nor the cohesive strategy at this point.
    Mr. Grijalva. Yes. And let me follow up, with the time that 
I have left, the Under Secretary and the Assistant Secretary 
have indicated in their testimony that they hope that GAO will 
ascertain from their actions that they have established 
strategies, goals, and objectives dealing with wildland fire.
    Does the work that I referenced in their testimony, does 
that meet what GAO had been requesting in terms of a cohesive 
strategy on wildland fire?
    Ms. Nazzaro. No, sir. We had key elements that we felt were 
needed in this cohesive strategy. One was certainly that this 
was an investment strategy, if you will, over the long term. So 
we were looking for something that would be decades.
    You know, this problem, as I mentioned, has been decades in 
the making, and it is going to take us a long time to get out 
from under. There are a lot of fuel treatments that are needed, 
and that is going to be very expensive.
    So what we are looking for is that there would be options. 
You know, what would be needed as far as fuel treatments, 
integrated with the other goals and objectives of the 
organization, including what they need to do on preparedness 
and suppression. And then set their priorities, if you will, 
and to put associated cost estimates, so that Congress has some 
idea what is it going to take us to get out from under this 
problem.
    Mr. Grijalva. Thank you very much. My time is up.
    Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Grijalva. I first of all would 
like to remind the rest of the committee that you haven't taken 
Mr. Grijalva's and my entire standards to heart here.
    When I was Speaker of the House in Utah, we used to have 
sweater day, where no one could speak unless they were in a 
sweater, not in a suit. I don't think we are allowing anyone in 
a jacket to testify today.
    But Mr. Grijalva, I am going to be here for the long haul. 
I would like to yield to the rest of my committee to go first, 
so I can go last. And I believe, Mr. Tancredo, you have a 10:45 
appointment? So if I could ask him to start.
    Mr. Grijalva. Mr. Tancredo.
    Mr. Tancredo. Oh, thank you.
    Mr. Bishop. And if you have time left over, yield to some 
of the others.
    Mr. Tancredo. Yes. Thank you, Mr. Chairman, I shall try.
    Mr. Rey, are you concerned about, or do you see, as I do, 
that the agency has really become more of a fire-suppressing 
agency than the forest management agency? I mean, it seems like 
so much of our efforts are spent in that regard.
    To what extent is the analysis paralysis that--I think a 
former director once coined that phrase--to what extent is it 
still preventing us from doing what is necessary to move 
quickly to reduce that fire hazard?
    Mr. Rey. I guess my response to that is that fire 
management and fire ecology are part of forest management. We 
are in a period of extended drought, with decades of fuels 
treatment work that have backed up. We have to get beyond that.
    But we are still doing all of the other multiple-use 
activities and fulfilling the multiple-use mission that the 
Forest Service has.
    As far as analysis paralysis is concerned, we still have 
challenges through administrative appeals and lawsuits of fuels 
reduction projects that are time-sensitive, but we have 
accelerated the amount of work we have done through the tools 
in the Healthy Forest Initiative and in the Healthy Forest 
Restoration Act.
    I would note that if you read the budget cross-cuts in our 
budget request for 2005, 2006, 2007, and 2008, the totality of 
what we requested to implement the Healthy Forest Restoration 
Act are above, not below, the authorized levels of HFRA. So we 
have requested record budgets in those four cycles to do the 
fuels treatment work.
    And we do have a cohesive strategy that we released last 
July. We in GAO have a fundamental disagreement about the 
utility of including out-year budget estimates in such a 
strategy, that being the one thing that they believe needs to 
be in a strategy for it to be adequate. We don't think that is 
either relevant or useful. Conditions on the ground are going 
to change significantly as fuels treatment work is done and 
fires burn, and those far-out-year estimates are going to be 
worth about the paper they are printed on five or six years 
out. So that is not the essence of a good cohesive or tactical 
strategy for this sort of work.
    Mr. Tancredo. And then just along the lines, don't you 
think it is a bit perplexing, I guess in a way, disconcerting, 
that where we used to be able to actually make money from the 
sale of timber, we now appropriate huge amounts of money in 
order to actually cut it and treat it? I mean, it is an odd 
change that has occurred as a result of different philosophies.
    Mr. Rey. We still make money selling timber, but we don't 
make enough money to cover our firefighting and other 
suppression costs, because the timber sale program is about a 
quarter of what it was at its peak.
    Mr. Tancredo. Right. And just a last question. A comment 
from anyone.
    Today in the Washington Times there is an article about the 
number of wildfires that have been started in the Coronado and 
other areas by illegal aliens who have been trespassing there, 
sometimes started for the purpose of burning out the actual 
Border Patrol stations.
    I visited the Coronado, I guess it was the first year I was 
in Congress, and problems, there were those kinds of problems 
then.
    To what extent, I guess, are we paying attention to that? 
What kind of resources are we applying to that particular 
problem? It is evidently becoming quite serious, where actual--
this is according to today's paper--Molotov-cocktail-type 
explosives are being used to burn out these Border Patrol 
stations. And thousands of acres have been damaged by fires 
started--not just those kind, but started by illegal aliens who 
are coming through in the Coronado, start a fire at night for 
just warmth, move on, fire takes off.
    Mr. Rey. There is an incidence of ignitions that are caused 
by people coming across the border. We have been cooperating 
with the Border Patrol to try to secure the borders. The 
forests are fairly remote, so they offer an easy opportunity 
for border crossing.
    In addition, the flip side of that is that those people are 
in harm's way if a wildfire ignites and they are in the area. 
We don't know they are there, obviously, unless we encounter 
them; and so therefore, there is no way to ensure their safety.
    Mr. Tancredo. Yes. And firefighters that go in have to be 
protected. As people are coming across, illegal aliens are 
crossing, they are being guarded by people with guns. And the 
people who we send in to fight the fires have to go in also 
with protection against the coyotes. So it is an interesting 
and very dangerous place down there.
    Thank you, Mr. Chairman. I yield to whomever.
    Mr. Grijalva. Thank you. Mr. Kildee.
    Mr. Kildee. I will ask any of you, do we dialogue with 
other nations that have similar wildfire potential as to best 
practices?
    Mr. Rey. We do more than dialogue, Mr. Kildee. We actually 
have cooperative agreements where we exchange firefighting 
assets and personnel, particularly with Australia and New 
Zealand, since their seasons are reversed.
    In very bad fire years, we send personnel, particularly 
leadership personnel, to Australia or New Zealand. In bad years 
here we will bring some of their people in to assist in 
firefighting.
    The firefighting community is very well organized 
internationally, so the concept of best practices for both 
wildland and for structural firefighting are pretty well known. 
And it is, we benefit from the insights we get when the New 
Zealand and Australia firefighters come here. We think they 
benefit when we go down to assist them during our winter and 
their summer.
    Mr. Kildee. Thank you very much. Does anyone else want to 
comment on that? I appreciate your very clear answer, and you 
are on top of the situation. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, sir. Mr. Duncan.
    Mr. Duncan. I yield
    Mr. Grijalva. Mr. Lamborn.
    Mr. Lamborn. And I thank the gentleman for yielding. And I 
think this question is best directed to Ms. Nazzaro.
    Are you--let me back up a second. The 302nd Airlift Wing is 
stationed at Fort Peterson, and they have C-130 cargo planes. 
And they have been outfitted, and in the last five or six years 
they can be used now, although their military assets are used 
for fire suppression when there is an active fire.
    Have you taken into account their role in all this? And are 
you aware of how complicated the training is and the support 
and maintenance that is needed for that kind of airlift 
capability?
    Ms. Nazzaro. I am not familiar with the specific example 
that you mentioned, but I have been out to a fire camp myself. 
I mean, we take this very seriously. We understand the 
complexity of what the agency has to do. This is not easy, and 
that is why we really feel that this strategy is needed. 
Because, one, it is costing a lot of money. It is a very 
complex task, and we think it would be in everyone's best 
interest to lay out what exactly is it going to take for us to 
get a handle on it and maybe get out from these escalating 
costs, if that is even possible. Maybe it is not even possible.
    So that is why we would like to see laid out, you know, 
what is it going to take us. Is there a break-even point where, 
if we put more money in fuel reduction, that we would be able 
to get a better handle on the cost of suppression.
    So like I say, I am not familiar with that specific 
example, but we certainly appreciate the complexity of the 
situation, and what happens when a fire breaks out, and the 
concerns of the communities, as well as the Federal agencies 
responsible.
    Mr. Rey. I am familiar with the C-130H wing, if you wanted 
to discuss that. We have six C-130H-class models that the 
military has reconfigured for firefighting use, with mobile 
aerial firefighting tanks. They are a reserve fleet: when 
things get very difficult and our other aviation assets are 
overstretched, the military makes them available for support 
for firefighting. And they do a good job. It is a very good, 
cooperative relationship that we have with the military.
    Mr. Lamborn. Well, thank you for that comment, Mr. Rey. I 
was amazed by the amount of training and support and 
maintenance that is needed for that. You know, the chemicals 
are corrosive, the training is the opposite of what you 
normally trained for in cargo use. You fly into little, narrow 
valleys, instead of away from them. I mean, everything is the 
opposite.
    And one final question for any one of you, maybe Ms. Tighe 
or whoever. But is there any direct method that we are using 
for the destruction and treatment of the pine beetles and the 
other beetles? Now that the drought has weakened the forests, 
these beetles find it easier to infest, and that is killing 
trees in my district in Colorado and in many other places. That 
is a very unfortunate thing. And that is what will give added 
fuel to these fires.
    It is a difficult problem. Do we have a direct way of 
dealing with the beetles?
    Ms. Tighe. I am not aware of a direct way of dealing with 
the pine beetles. I would be happy to defer to Under Secretary 
Rey.
    We would totally agree with you that that is a problem. It 
was certainly a significant factor in wildfires in California 
in 2003; the destruction wrought by the pine beetle devastated 
the forests there. But as far as a direct solution, I am not 
aware.
    Mr. Rey. But the beetles do most of their damage under the 
bark. In fact, they spend most of their life cycles under the 
bark, with a very short emergence time. That makes the use of 
pesticides basically ineffective on a forest-wide basis. You 
can treat individual trees if you have a favorite tree in your 
backyard that you want to try to save, but you have to do that 
with a tree service. That is very time-consuming and resource-
intensive, and therefore impractical on a forest-wide basis.
    Therefore, the only way to halt a beetle epidemic is to cut 
down the trees that are infected before the beetles emerge and 
spread. And if they get into an epidemic or a pandemic 
situation, then even that is an unrealistic option because the 
outbreak is too widespread. And that is what we are seeing in 
Colorado right now.
    Mr. Lamborn. I thank you for your answers, and I yield 
back.
    Mr. Grijalva. Thank you. Thank you very much. Ms. 
Christensen?
    Ms. Christensen. Thank you, Mr. Chairman. Let me ask this 
question to Mr. Rey.
    You mentioned the Brookings report, and you entered it into 
the record at the end of your testimony. And it is very much in 
contrast to the other reports of the GAO and the Inspector 
General.
    But does that report only address the efficient use of 
funds while you are fighting fires? Or does it also address the 
strategy coordination and prioritizing?
    Mr. Rey. The Brookings report addresses only the former. 
The Brookings report is the result of a Congressional 
requirement in the Fiscal Year 2005 Appropriations bill. In 
that requirement, the Congress directed us to charge an 
independent panel with reviewing cost containment strategies 
and tactics for every fire that exceeds $10 million in 
expenditures. And so this would be the third such independent 
report.
    The thing that is notable here is that in reviewing the 17 
fires that exceeded that amount, Brookings felt that the Forest 
Service executed judgment and restraint in containing costs in 
each of the instances. That, to me, suggests that we are 
proceeding with strategic and tactical developments, at least 
for fire cost containment, in an appropriate fashion.
    Ms. Christensen. OK. But on the prevention side, which is 
really what this hearing is more about, can you just tell me 
how you prioritize in the fuel, what is it, fuel management?
    Mr. Rey. Fuel treatment area.
    Ms. Christensen. Fuel treatment area. And also in your 
answer, was the, what are the other areas called, the 
Okefenokee area in Georgia and Florida? Were they prioritized 
for this fuel management, fuel treatment?
    Mr. Rey. Sure. The two things that we use for setting fuels 
treatment priorities, as laid out in our cohesive strategy, 
are, first, the community wildfire protection plans authorized 
to be developed under the Healthy Forest Restoration Act of 
2003. There are over 2,000 such plans now out across the 
landscape. Those plans tell us where fuels treatment work 
should be done.
    Then, in order to prioritize in what order that work is 
done, we look at five factors. First, wildfire potential. How 
likely is there to be an ignition, given fire frequency.
    Second, the negative consequences associated with an 
ignition; what are the values that are at risk.
    Third, the efficiency of the fuels treatment that is being 
proposed. Fuels treatment work on a per-acre basis costs 
anywhere from $50 an acre to $3,000 an acre, depending on what 
you have to do and where you have to do it. So efficiency is 
one criteria in setting priorities.
    The fourth criteria is effectiveness; does the proposed 
fuels treatment have the prospect of being effective.
    And then the fifth is are there opportunities for 
ecological restoration that can be accomplished along with the 
fuels treatment work.
    So as laid out in the cohesive strategy, the community 
wildfire protection plans tell you where you are going to treat 
on a community-by-community basis, and these other criteria, 
our hazardous fuels prioritization and allocation system, tell 
us in what order, based on those five criteria.
    Ms. Christensen. So where do southern Georgia and northern 
Florida fit in in this criteria?
    Mr. Rey. We do a substantial amount of fuels treatment in 
the pine areas. We would likely not have done a significant 
amount of fuels treatment work in the Okefenokee Swamp National 
Wildlife Refuge.
    The circumstances that are occurring there today in this 
fire season are extraordinary by any measure, because we have a 
record drought, and that system will burn with the intensity it 
is burning now about every 100 years.
    Ms. Christensen. Thank you. In my last couple of seconds, 
would Ms. Nazzaro and Ms. Tighe just comment on the plan and 
the strategy that was outlined, versus what you say doesn't 
exist?
    Ms. Tighe. The strategy that Under Secretary Rey just 
talked about as far as the use of the community wildlife 
protection plans and the five factors, when we did our audit, 
the community-wide protection plans, we looked at as how they 
related to setting priorities in other ways. And we generally 
found, and I think we actually looked at a Forest Service study 
that was done internally, we found that yes, they are good at 
setting priorities, and they are very useful for that. But they 
hadn't been integrated into determining nationwide where 
priorities ought to be set. And whether that is happening now 
we will look at when we do our follow-up work in Fiscal Year 
2008.
    The five factors that Under Secretary Rey outlined sound 
along the lines of what we think they ought to be doing.
    Ms. Christensen. Thank you. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you very much. Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Before the Forest 
Subcommittee was merged into this subcommittee this year, 
almost every year we would have a hearing early in the year in 
which we would be warned about all the millions of acres that 
were in danger of catastrophic forest fire. One year we were 
warned that 40 million acres were in imminent danger. I think 
one year we had 7 million acres burned, with $10 billion worth 
of damage.
    And I was told by Subcommittee staff that in the mid-
eighties, that Congress passed a law that environmentalists 
wanted, that we wouldn't cut more than 80 percent of the new 
growth in the national forests. And yet, for several years now 
we have been cutting I think less than one seventh of the new 
growth. And the head of the Forest Service a few years ago told 
us that if we want to really cut down on these forest fires, we 
simply have to cut more trees.
    And six years ago when we were dealing with this issue, I 
put out a newsletter in which I covered 24 or 25 different 
unrelated topics. But I quoted from a column by Robert Nelson, 
a professor at the University of Maryland. And he wrote this. 
He said, ``In fact, over the last decade it was more important 
to environmental groups to promote wilderness values by 
creating roadless areas and taking other actions to exclude a 
human presence. This aggravated last summer's tinderbox forest 
conditions, and continues to threaten public land.''
    He said, ``Federal policies have produced an enormous 
buildup of small trees, underbrush, and deadwood that provide 
excess fuels to feed flames.'' And then he said that in many 
Federal forests, tree density has increased since the 1940s 
from 50 per acre to 300 to 500 per acre, and that these forests 
are ``filled with dense strands of small stressed trees and 
plants that combine with any deadwood to provide virtual 
kindling wood for forest fires.''
    And I know we passed this Healthy Forest initiative, 
Secretary Rey, in 2003. And yet, one of the later witnesses on 
the next panel testifies, in addition to increased fuel 
densities, past management decisions have led to unhealthy 
forests that are much more susceptible to insect infestation, 
disease, and catastrophic wildfire.
    Are we cutting enough trees? Do we still have many 
unhealthy forests around the country?
    Mr. Rey. We are cutting a lot more trees. We have a lot 
more to cut before we get ahead of this problem. This problem 
has been a century in the making, since the first organized 
fire suppression campaigns occurred at the beginning of the 
last century.
    If we knew then, a hundred and some years ago, what we know 
now, we might have approached fire suppression differently. But 
you know, that is not, that is hindsight, so it is not terribly 
helpful.
    I think where we are at today is that we have accelerated 
the work that needs to be done, but there is still a lot left 
to be done. You don't solve a problem that is 100 years in the 
making in four or five years; you are going to have to commit 
more like 15 or 20 years to that task.
    I think we have broad agreement that we need to reduce fuel 
loads in order to restore healthy forests. I think we still 
have some disagreements about what trees should be cut and 
where they should be cut, both environmental disagreements 
about where they should be cut or whether they should be cut in 
a particular location, as well as disagreements about 
priorities.
    But I think we have broken through. I think most people 
understand that we have a program of work ahead of us that will 
probably extend another decade before we get enough fuels 
treatment work done to affect these fires.
    We have had some successes so far. Over 60 percent of the 
work that we have done since the Healthy Forest Restoration Act 
passed has been in the wildland-urban interface. Last year we 
had a record year, because of drought conditions, in terms of 
the number of acres burned. But we had a relatively successful 
year in terms of saving homes.
    In 2002 and 2003, we lost 3,000 and 2,000 homes 
respectively, in far less severe fire years. Last year we only 
lost about 700 homes. That is still tragic, but it is a sign 
that the fuels treatment work done in the wildland-urban 
interface is having some effect.
    Mr. Duncan. All right, thank you very much. A later witness 
also discusses the relationship between poverty and wildfires 
in these public-lands areas. And I have noticed that in our 
part of the country, any county that is more than 50 percent 
Federally owned seems to be a very lower-income area. And I 
have noticed that also in many other parts of the country, that 
where there is 75 percent or 80 percent Federal ownership of 
land, that county seems to be a lower-income county.
    Ms. Nazzaro, have you all ever done a study of anything 
like that?
    Ms. Nazzaro. No, sir, we have never looked at areas to do 
any relationship between income levels or poverty levels and 
Federal lands. No..
    Mr. Duncan. All right. Thank you very much.
    Mr. Grijalva. Thank you, sir. Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman. Let me thank the panel 
again for taking time to come up here and further edify us on 
this important issue.
    Secretary Rey, I wanted to turn to a follow-on my colleague 
from Colorado, Congressman Lamborn, touched on. And that is the 
long-term plan for the air tanker fleet. You and I had some 
conversations about this over the last few years.
    Last month Congressman Salazar and I wrote you about the 
status of the plan. And in response, a Forest Service spokesman 
was quoted in the press as saying the plan won't be ready for 
months, maybe longer. We followed up with another letter to you 
asking if that was accurate, and urging that this be a priority 
matter. And I had a series of three questions.
    Have you received our letter? If so, when could we expect a 
response? And can you fill us in on what slowed the progress of 
developing this long-term plan for the air tanker fleet?
    Mr. Rey. The answer to the first question is I will give 
you a response now, and we will follow with a written response 
by the end of the week.
    That statement was not entirely accurate. The reason for 
the delay is that our planning for the large air tanker fleet 
has been now merged into an overall evaluation of our total 
aviation force. And that evaluation will be completed no later 
than December of this year. It will not effect, negatively or 
positively, firefighting tactics and resources for the 2007 
season. We have a full complement of aviation assets that are 
designed and deployed to continue to achieve a 98 percent rate 
of success at initial attack. And we are comfortable that the 
mix of aviation assets, smaller fixed-wing tankers, larger 
tankers, smaller and larger helitankers, are going to be 
adequate to the task.
    The larger longer-term evaluation involves both the mix of 
aircraft, as well as, in the case of the larger tankers, what 
the ideal aircraft model for the next generation of air tankers 
should be. And as I said, that will be done no later than 
December of this year, and that will affect what the next 
generation of large air tankers looks like. It will also affect 
the decisions we make for procurement for the other aircraft in 
the 2008 fire season.
    Mr. Udall. Thank you for that update. What I hear you 
saying to the committee is that we have your assurances that we 
are prepared with our air fleet to respond to whatever arises 
this summer.
    Mr. Rey. That is correct.
    Mr. Udall. Ms. Tighe, if I might turn to you. You made the 
point that the number of acres treated doesn't necessarily 
translate directly to the amount of risk reduction. But 
wouldn't you agree that work done in the interface areas has a 
bigger payoff for risk reduction than work done in more remote 
areas?
    Ms. Tighe. I think you could say that generally, but not 
absolutely. I think work in the WUI, or the wildland-urban 
interface, and the fact that in those areas you would clearly 
give credit for protection of, you know, certain values and 
structures, and that would have to count in your assessment, 
there may be times at which you get bang for your buck in 
remote locations simply because those would be strategically 
placed fuel reduction sites that could help an overall picture. 
I just don't know.
    But I don't think you can say absolutely, across the board 
in every case it is the WUI over other parts. I think there are 
also areas outside of the WUI that also you should look at.
    Mr. Udall. Yes. I would offer an observation. I think in 
terms of risk to communities, the urban-wildland interface is 
probably where more emphasis ought to be placed. But I 
understand there may be specific----
    Ms. Tighe. Exactly.
    Mr. Udall.--unusual circumstances where----
    Ms. Tighe. That is what we would say.
    Mr. Udall. It would also depend on how you define remote.
    Ms. Tighe. Yes.
    Mr. Udall. If it is 50 miles from a community, then I think 
that is truly remote.
    Ms. Tighe. One can get too remote. I mean, obviously there 
is, you know, inaccessibility is a big factor to whether you 
can do anything, strategically or otherwise.
    Mr. Udall. Secretary Rey, I have too many questions today 
for my time, but I wanted to ask you about your statements 
about firewise regulations, and perhaps enforcing some 
discipline on communities that don't have those firewise 
regulations in place.
    But couldn't that be a little bit counter-productive, in 
that we hold communities hostage in that regard? And then they 
don't have the opportunity to do the work they need to do to 
minimize the potential that they have.
    Mr. Rey. I don't think we have ever advocated penalizing 
communities that don't have firewise regulations or building 
codes and ordinances. It is more an exercise in encouraging 
communities to move quickly to develop those kinds of codes and 
ordinances.
    And I think that the more effective mechanism of seeing 
that through to a conclusion is not a Federal government 
regulation, but probably the marketplace. I think you are 
starting to see a lot of insurance companies now refusing to 
write policies in areas where building codes don't specify 
construction with more fire-resistant materials and the 
creation of defensible space on private lots.
    Mr. Udall. Mr. Chairman, I see my time has expired. I want 
to, for the record, clarify that I asked Mr. Rey to comment on 
a GAO point in regards to firewise communities, and I think he 
gave us essentially what the Forest Service thinks is the way 
we ought to proceed. So thank you.
    Mr. Grijalva. Thank you, Mr. Udall. Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. I was interested by 
Mr. Lamborn's comments about the differences that pilots train 
to, if they are flying fires there is a commonality for all 
pilots. That is, take heed the earth lest it rise up and smite 
thee. So there are some similarities for pilots training.
    Mr. Rey, I was fascinated by your discussions. As you know, 
our office and your office have had several discussions. It was 
our district where the Forest Service escalated the grazing 
problem into one that looked like Ruby Ridge, where you sent 
them guys, 20 or 30 armed people to take a guy's herd away. It 
was a little bit over-responsive.
    It is my district where a Kopelli fire burned 30 or 40 
houses in the village of Ruidoso. It is in our district where 
we got the Lincoln National Forest, and we are cleaning about 
3,000 acres per year. That is in a drought state. And 3,000 
acres a year, I was fascinated to hear you talk about when we 
get through with the fuels treatment, because it is going to 
take us 330 years to get through the Lincoln National Forest at 
this rate. Meanwhile, we have the risk of our towns over in the 
Gila, on the other side of the district, we have the Gila has 3 
million acres. And we are likewise just cleaning about 3,000 
acres a year over there. It is going to take us 1,000 years to 
get through this cleaning program. And I was really fascinated 
to hear your plans for the future, for when we get through with 
that. I don't think we are ever going to get through with it at 
the rate we are going.
    As you know, we lost about a million trees up around Santa 
Fe to infestations of some sort. And that brings us to the 
current period.
    The Scott Able fire burned there near Cloudcroft in the 
Lincoln, and it burned 12 miles at about 2,000 degrees. And it 
took about five hours.
    Now, when it hit the Mescalero Apaches, who have gone in 
and done tremendous clearing, thousands of acres, the fire 
simply fell to the ground and ran along the ground like it is 
supposed to. So we see the process working; that is, the 
clearing process has a validity. I just don't see the acreage 
happening in our national forests.
    We don't have timber sales any more. Neither the Lincoln 
nor the Gila have had significant timber sales, and so we are 
stuck here in the current situation, where the village of 
Cloudcroft is simply, all the acreage around and in the village 
of Cloudcroft is dying because of the spruce bud work and the 
looper.
    Now, these are defoliating insects. And the Forest Service 
watched from 2002 on without taking one treatment, so that now 
the village, just this last, about a month ago, two months ago, 
declared an emergency, even though the Forest Service would not 
declare an emergency. And they said, you know, we are afraid 
for our lives, we are afraid we are going to see that same 
2,000-degree fire burn through our town that burned through the 
Scott Able area.
    And I wonder what it is going to take to get the Forest 
Service to actually do some remedial treatment there. Do you 
have a plan to spray? I know that you have not sprayed; you 
choose not to spray. But is there a plan at which the situation 
becomes scary enough to you all in Washington that you will 
actually do anything to control the infestation of the spruce 
bud worms and the loopers?
    Mr. Rey. We have treatments planned for this summer. We 
have developed some treatments close in, around the community 
of Cloudcroft, using categorical exclusions to preclude the 
need for more detailed environmental analysis under the 
National Environmental Policy Act. So trees will start to fall 
late this summer and fall in the vicinity of Cloudcroft.
    We are also doing a more detailed environmental assessment 
for a broader array of treatments in infested areas. And those 
treatments will likely be on line, assuming that the decision 
is not appealed, which, in Central New Mexico, is not sometimes 
a reasonable assumption. But assuming the decision is not 
appealed, those broader treatments will begin to take place 
next----
    Mr. Pearce. Who will be appealing decisions like that?
    Mr. Rey. It could be any of a number of groups in that----
    Mr. Pearce. Who in the past have appealed decisions like 
that?
    Mr. Rey. The Southwest Center for Biological Diversity, 
Forest Guardians are probably the two most prominent in New 
Mexico and Arizona. We don't believe----
    Mr. Pearce. We are going to take treatments in the fall? 
You are going to give treatments in the fall if you get no 
appeals?
    Mr. Rey. Right.
    Mr. Pearce. In the summertime is when the drought is 
typically the worst in New Mexico. And so it looks like we are 
going to subject the people of Cloudcroft to the most extreme 
circumstances with dead trees over 30 or 40 or 50 thousand 
acres.
    The Forest Service made a decision in the Capitan fire 
about three years ago. It was a 12-acre fire burning on a 
hillside, and the Forest Service said I think it will be OK. It 
burned 100,000 acres, and you spent about $6 million before you 
got it out.
    I just hope that the people on the ground there in the 
Lincoln are not making similar decisions there. By not doing 
anything back in 2002, nothing in 2003, nothing in 2004, 
nothing in 2005, nothing in 2006, and we might start doing 
something in the fall of 2007, I hope, my friend, that we are 
not putting a whole community at risk. You have done that over 
in the Ruidoso area to the extreme, and finally we raised 
enough pressure there to start cutting trees.
    I hope that we spray to kill the spruce bud worm. I hope 
that we spray to kill the looper. And I hope that you begin to 
cut trees.
    Thank you, Mr. Chairman.
    Mr. Grijalva. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Rey, first let us 
put it in perspective. What did we spend on firefighting last 
year, total?
    Mr. Rey. We spent about $1.6 billion.
    Mr. DeFazio. $1.6 billion. And was that an anomaly? Or were 
we kind of running----
    Mr. Rey. That was an all-time record.
    Mr. DeFazio. OK. And what are we projecting this year?
    Mr. Rey. This year we are projecting somewhere between $1.1 
billion and $1.25 billion.
    Mr. DeFazio. OK. So average fire year these days, we would 
be lucky to get away with $1 billion?
    Mr. Rey. Yes. I would say an average fire season has been 
running about $1 billion. That is pretty fair.
    Mr. DeFazio. OK. Well, now we have a little context. So let 
us go to the funding for the Healthy Forest Restoration Act.
    You know, I opposed the first version in the House because 
it did not authorize any money. And we fought very hard over 
it; worked with the Senate, and we got into substantial 
authorization. But we have never come near to that amount of 
money in either the requested budget from the Administration 
and/or the appropriated budget from Congress consequent to 
those requests.
    And I guess I am puzzled why we wouldn't invest more there. 
And I would look at--and I know you gave out some numbers, but 
Dr. Daugherty from Oregon is going to testify subsequently 
using some very conservative analysis, working with some 
colleagues, came up that avoided future costs justifies 
spending $238 to $601 an acre for reduction treatments. And 
they used a very, very conservative methodology, in my opinion.
    So I guess I am wondering why aren't we asking--I realize 
we are in constrained budget times. But when you look at what 
we are spending to fight the fires, what the risks are, the 
avoided costs, why aren't we asking for more and spending more 
money on HFRA? That is one question.
    The second is Mr. Pearce was making a point about appeals. 
But I would like to know, we had to do quite a bit of work and 
did put in expedited procedures in HFRA to avoid undue delays 
for needed fuel reduction work. Are you using those procedures?
    Mr. Rey. Two questions. The first question is, if you look 
at the authorization of the Healthy Forest Restoration Act, it 
authorizes a number of activities that go to the promotion of 
healthy forests, that go beyond the hazardous fuels account, 
and include other accounts in the Forest Service budget, and in 
the Department of the Interior's budget.
    If you aggregate all of those accounts, what you will find 
is that we are asking for and spending in excess of the 
authorization levels in the Healthy Forest Restoration Act.
    Mr. DeFazio. I understand. And I see that list every year. 
But I have to say, when I was helping, from my perspective, 
work on the bill, I was thinking about that is what we are 
going to spend on actual fuel reduction, because we had an 
earlier report from GAO.
    I think we are losing ground in terms of where we are at in 
the western U.S., and GAO might, after you finish commenting on 
that, in terms of whether or not we are beginning to deal with 
the backlog, or we are actually seeing the backlog grow. The 
last testimony we had a couple of years ago was it is growing. 
We are not getting ahead.
    So we may have a different opinion there. I thought, 
straight up, 760, we are out there reducing fuels. Those other 
things are nice to do, but--OK.
    And then the second part, are you using the expedited 
procedures?
    Mr. Rey. The $900 million-plus is all spent on fuel 
reduction, just from different accounts. We are using the 
expedited procedures in the Healthy Forest Restoration Act and 
the Healthy Forest Initiative. But those expedited procedures 
did not eliminate the opportunity for appeals or litigation. 
That was a decision that the Administration and the Congress 
made jointly.
    Additionally, some of the expedited procedures have--the 
effectiveness of some of the expedited procedures have been 
eroded by subsequent court actions. To whit, the Courts have 
interpreted our obligations, under the National Environmental 
Policy Act, to require notice and comment, as well as a right 
of appeal, for projects that are covered under categorical 
exclusions from the National Environmental Policy Act.
    That makes the Forest Service the only agency, the only 
agency in the Federal government that has to give notice, 
comment, and a right of appeal for de minimis projects that are 
covered by a categorical exclusion under the National 
Environmental Policy Act, including fuels reduction projects.
    Mr. DeFazio. OK. But I mean, do we, are you really running 
up against you can't spend the funds you have on an annual 
basis on productive fuel reduction because of appeals? Or are 
you managing to spend the funds that you have, since there is 
quite a bit of it out there, and some of it----
    Mr. Rey. We are managing to spend every dollar we invest. 
But there are some priority fuels treatment projects that are 
going begging because of the impact on appeals.
    Mr. DeFazio. Well, since you mentioned priorities, I asked 
back, I think it was in 2005 at a hearing, about whether or not 
there was a cohesive strategy for prioritization. And it seems 
that what I am hearing here is that, as of at least the 2006 
analysis, we still didn't have that kind of prioritization; we 
are still using sort of regional apportionment, and then out to 
the local forests at the discretion of the regions.
    Is this Project Landfire, is that the solution to that 
problem? Is that what you are talking about, how we are going 
to finally get to really prioritizing the funds into the 
regions that need them? And then within those regions, applying 
them to the highest-risk, highest-benefit areas?
    Mr. Rey. Landfire is going to give us additional data to 
make more informed prioritization decisions. But we have 
released a cohesive fuel strategy during the early fall of last 
year.
    The debate that we should be having today is not whether we 
have a cohesive fuel strategy; but rather, whether all of the 
things that each of us thinks are necessary are included in 
that cohesive fuel strategy. The debate that we should be 
having between the Forest Service and GAO today are what 
benefit hard out-year funding predictions really going to 
provide as part of a cohesive fuel strategy, when in fact those 
funding predictions are going to, by necessity, change year to 
year, based on what happens on the ground over the course of 
time.
    Mr. DeFazio. So, Ms. Tighe, when you were speaking earlier 
about the evaluation next year, I mean, so between your 2006 
work and now, do you believe that they have really focused in 
better on the prioritization of the expenditure of the funds?
    Ms. Tighe. Well, without going in and really looking at it, 
we can't say. We will be looking at it next year.
    Mr. DeFazio. So they say they have addressed, they may have 
addressed your concerns, but you don't know yet. OK.
    Ms. Tighe. We don't know yet.
    Mr. DeFazio. And, Ms. Nazzaro, on the GAO, I know it has 
been a while since the GAO did an analysis of the backlog and/
or the magnitude of the fuel reduction work in the West. I 
mean, are you aware that we--are we getting ahead of it, or are 
we still losing ground, holding even? Do you have any idea?
    Ms. Nazzaro. You are correct in that we have not updated 
our data. But based on data from the agencies, it is my 
understanding that we have not kept pace; that there are 
additional fuels, of course, being added every year to that 
list. So you have a backlog, as was mentioned earlier. You may 
be treating 2 million acres, you know, right now, but is that 
really getting to the problem.
    And that is why we are saying we need this cohesive 
strategy to really understand. What is the problem, what is it 
going to take to address the problem and start a turn-around 
that is not affecting our fuel suppression costs.
    Mr. DeFazio. And just one last question.
    Mr. Grijalva. Mr. DeFazio, we are going to do a second 
round.
    Mr. DeFazio. All right. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. Mr. Heller.
    Mr. Heller. Thank you, Mr. Chairman. I appreciate all of 
you being here, and the discussion that we are having today. I 
do want to tell Secretary Rey, you are spending money up at 
Lake Tahoe. Fuels treatment is critical. A very important 
discussion that has been had up there for many years. I served 
on the planning committee up there for 12 years, and fire 
suppression, fuels treatment was a critical issue, and I am 
glad to see that moving forward.
    But I want to talk for a little bit about the rangelands 
and the fires that we have. You are probably familiar with 
Nevada and the amount of acres that we burned every year. Just 
last year in one county we burned over a million acres. And 
most of these wildfires start on Federal lands. And 
unfortunately, these fires spread to private lands in Nevada, 
with obviously devastating results. Some of those results 
meaning that multi-generational families that have had ranches 
and farms will be going out of business this year because of 
these fires, again that are starting on Federal lands.
    I want to raise a question of a bill that was introduced 
this week in the Senate, specifically proposed for rangeland. 
And it is an incentive program that would pay ranchers or other 
landowners who carry out conservation practices or other 
activities, including working on lands that are scorched and 
refueling them or reintroducing native vegetation, so that we 
can get rid of some of the cheek grass that is growing instead 
after some of these burned areas move on.
    I just want to get your feedback on that. Are you familiar 
with this particular piece of legislation?
    Mr. Allred. Congressman, I am not sure which it is. Is it 
the cooperative conservation legislation?
    Mr. Heller. The piece of legislation introduced by Senator 
Reid and Senator Enzi.
    Mr. Allred. I am not familiar with that. But I would say 
that much of what we do, both on rangelands and obviously on 
the national forests, requires that we work in very close 
coordination with our partners. And the effort we make in 
initial attack to try to stop those, the efforts that we make 
in coordinating any kind of sustained attack really depends 
upon those local resources.
    The more we can do in coordination with our partners, 
whether they be other Federal agencies, local agencies, or 
private interests, to try to deal with these issues on the 
front end, is going to benefit us all.
    So while I am not familiar with that, I am not sure which 
legislation you are talking about, you will find, I think, the 
Administration very much interested in finding ways to leverage 
the resources the Federal government has with those of our 
partners as we attack these fires.
    Mr. Rey. Apropos of that kind of activity, in the 
Administration's Farm Bill proposal, we propose a significant 
increase in funding, mandatory funding, for the Environmental 
Quality Improvement Program, which is a cost share program with 
private farmers and ranchers. And the Environmental Quality 
Improvement Program pays for a lot of range improvement work, 
both general range improvement, as well as post-fire range 
improvement work. So we are generally supportive of that kind 
of cost share activity.
    Mr. Heller. I think the landowners and the ranchers and the 
cattlemen have a high incentive of reintroducing native 
species, as opposed to the cheek grass that is growing out 
there, that I believe causes more fire concern. And I think 
this summer isn't going to be any different.
    I am a little concerned also about the shift of funding 
toward some of the local governments. As I mentioned, most of 
these fires occur or are started on Federal lands, and then 
move over to state lands or private lands. And I am hearing 
more and more about shifting the burden.
    And having sat on the Board of Examiners in Nevada for 12 
years, and the millions of dollars that Nevada does spend in 
fire suppression, based on the fact that most of these fires 
are started on Federal lands, I do have some concern and would 
like some feedback on the efforts to lessen the burden on some 
of these local governments and state governments, seeing that 
the majority of these fires are started on Federal lands.
    Mr. Rey. Well, the fact that we are the only ones that are 
responsible for Federal lands goes to the proposition that that 
is where we have suggested most of our suppression resources be 
concentrated. So we are not trying to shirk our burden for 
suppression work on Federal lands. Rather, we are maintaining 
that that is where we have the greatest responsibility.
    Mr. Heller. Do you have any programs or efforts to 
compensate some of these private landowners for the damage 
caused by these Federal fires?
    Mr. Rey. We have used Emergency Watershed Restoration 
Program money, through the Natural Resources Conservation 
Service, to stabilize areas that were affected by fires. The 
Farm Services Agency has provided some compensation for crop 
losses, and for livestock losses. So in the normal course, if 
they are agricultural producers they are eligible for some of 
our Farm Bill programs, for either compensation for lost crops, 
or for assistance in restoring areas that have been affected by 
fire. Or flood, for that matter, as well.
    Mr. Heller. Thank you, Mr. Chairman, my time is up. Thank 
you.
    Mr. Grijalva. Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I am still trying to 
get my head around some of the concepts here. And I wanted to 
ask you if the budgeted appropriated amount of dollars to cover 
the fire suppression need is not enough in a given year, so 
that it is exceeded, which apparently it has been on a fairly 
regular basis, those dollars then come from other parts of the 
budget, such as from the fuel treatment and reduction programs? 
Is that essentially the formula?
    Mr. Rey. The Secretary has the authority to draw funds from 
any other available account if our fire suppression funds fall 
short of need because of a bad fire year. And you are correct, 
we have executed that borrowing authority three out of the last 
five fire seasons.
    What we try to do when we execute that authority is keep in 
close touch with the Appropriations Committees of the House and 
Senate, and tell them where we think the least destructive 
places to draw the necessary funds are. And we try to put fuels 
treatment work at the very back of the list, for the simple 
reason that if you are borrowing fuels treatment money to fight 
fires, you really are borrowing from Peter to pay Paul. So we 
try not to borrow fuels treatment money for that purpose.
    Mr. Sarbanes. What is the pecking order, in terms of where 
you go first to find the dollars?
    Mr. Rey. Where we go first are trust funds where we have 
unobligated balances, so that we are not affecting any program 
delivery in a given year. And then if we exceed the amounts 
available in all existing trust fund balances, then we look at 
capital projects with multi-year contracts, where we can still 
maintain our contract obligations, but maybe take some of the 
money that won't be allocated in a multi-year contract until an 
out year. Because Congress then would have the opportunity, as 
they do, in the next supplemental, to pay those accounts back.
    So the pecking order is first, trust fund balances that are 
unobligated. Second, balances that are sitting in capital 
contracts that are multi-year in nature. And if we exceed both 
of those, then the rubber really meets the road, and we have to 
look at non-essential working programs that we can reduce in 
order to keep up with the necessary suppression activities.
    Mr. Sarbanes. Well, how far into the fuel treatment and 
reduction programs have you had to reach in recent years?
    Mr. Rey. To my knowledge, we have not yet had to borrow 
from fuels treatment work to pay for fire suppression.
    Now, I say that in terms of funding balances. There is a 
second impact, though, as well. And that is that some of the 
people who fight fire are also people who are designing and 
laying fuels treatment projects. So putting aside the 
appropriated dollars, there are also staff shortages that occur 
in a very bad fire year, as people spend more of their time 
devoted to firefighting on an incident to make sure that they 
get the fire out, and less of their time designing next year's 
fuels treatment projects.
    So it is not so much money as it is manpower in that 
regard.
    Mr. Sarbanes. But certainly it is a distraction of energy 
and attention, potentially, away from the fuel treatment 
efforts, that that can happen.
    It seems to me that--I mean, it is an unusual kind of 
budgeting environment, because you are never not going to spend 
the money you have to to do the fire suppression, right? I 
mean, by definition, it is not a situation where you say we 
just won't spend money on that program, so we won't deliver 
that program this year. You have to put the fires out, you have 
to suppress the fires.
    So there is a kind of charade-like quality to knowing or 
being able to predict, it seems, that the amounts you are going 
to need for fire suppression are here; and yet, the 
appropriated dollars are consistently here. You are going to 
have to go rob Peter to pay Paul, almost on a consistent basis, 
it seems.
    Mr. Rey. It is not a charade. It is a formula-based 
allocation. We request, and Congress typically appropriates, 
the 10-year average for suppression costs. And what we have 
been doing is exceeding the 10-year average in several of the 
last fire seasons.
    So, I mean, nobody is playing games with it. The fact is 
you propose a budget two years out before you are into a fire 
season, and Congress appropriates that budget a year before the 
fire season. So absent any better mechanism to predict the 
future two years out, using a 10-year average is, you know, 
about as good as you can do.
    Now, in the 2003 budget cycle, the Administration proposed 
an alternative means of funding firefighting activity. And that 
is we proposed a contingency account for emergencies, including 
wildfire suppression. And that would then obviate the need to 
execute the borrowing authority. But for whatever reason, the 
Appropriations Committees weren't that enthusiastic about that 
contingency fund proposal, so it didn't go anywhere.
    But we are more than happy--in fact, willing--to work with 
Congress to look at alternative mechanisms for fighting, for 
funding firefighting. Because you are right; you are not going 
to stop fighting the fires because you run out of money.
    Mr. Sarbanes. Thank you.
    Mr. Grijalva. Thank you, sir. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Mr. Rey, I noticed in 
your testimony you talked about you have treated 2.6 million 
acres in 2006, about 20 million acres in the last seven years. 
Do you or anyone else there have a handle on the number that 
would be the backlog, or the total need that is out there for 
treatment as far as fuel suppression?
    Mr. Rey. In our judgment, there are 180 million Federal 
acres that are at risk to wildfire, based on fuel loads. Not 
all of those acres should be treated. There is probably about 
80 million acres of high-priority fuels treatment work that 
needs to be done on Federal lands.
    When I say that a lot of that acreage doesn't need to be 
treated, because a lot of it is very remote, in areas where the 
fire is going to have no appreciable ecological or economic 
negative consequence. You know, we burn a couple million acres 
in the interior of Alaska most summers, and there isn't a lot 
of effort spent on suppression work there, because you are in 
the middle of the interior of Alaska.
    Mr. Bishop. What we are still talking about is, you have 80 
million acres you have identified as high priority. We are 
doing 2 to 3 million acres a year.
    Mr. Rey. And we are doing, both agencies, both departments 
combined, in excess of 4 to 5 million acres a year now.
    Mr. Bishop. OK. That still doesn't come close to the total 
need that is there.
    If you had all the money you could want for right now, 
would there still be a problem with manpower in implementation 
of your plan and program?
    Mr. Rey. I think there would still be problems with 
manpower and with public acceptance of the program. We have 
made great inroads at getting the public to accept the 
proposition that you have to cut trees to save the forest, but 
that is still a debatable proposition in a lot of specific 
contexts with a number of people who want to have the debate 
over whether that is the right tree to cut, in the right place 
to cut it.
    Mr. Bishop. Well, as I am looking at just the numbers here, 
if we are dealing with like 5 percent of the total need that is 
out there, is it feasible to say that we can solve this problem 
without using some kind of outsourcing, or without involving 
the private sector, in helping us to deal with forest 
management?
    Mr. Rey. I think the greatest use of the private sector is 
to make greater use of the material that we have to pull off of 
these forests in order to do the thinning. Much of that 
material is low value; it is not suitable for being converted 
into lumber. It is suitable for low-value engineered wood 
products, biomass energy, or ethanol.
    So our greatest point of focus is to try to get greater 
utilization of that material. Because if we can do that, it 
will reduce the unit costs of pulling it off the forest. 
Instead of paying somebody $300 an acre to move it off, maybe 
we can get them to do it for free in exchange for owning the 
material, to convert it into a useable product.
    Mr. Bishop. I am just an old schoolteacher. I am assuming 
the answer was yes?
    Mr. Rey. You would have to remind me exactly what the 
question was.
    Mr. Bishop. That is what I was afraid of.
    [Laughter.]
    Mr. Bishop. If we are going to meet the 80 million acres, 
and we are only doing three to five right now a year, we are 
obviously going to in some way, as creative as you wish to be, 
have to involve either outsourcing of this material, or 
involving the private sector in helping us to do this work.
    Mr. Rey. We would have to involve the private sector in 
harvesting this material, or involving the private sector in 
helping us to do this work.
    Mr. Bishop. We would have to involve the private sector in 
harvesting and utilizing the material. We can fund up the ying-
yang, and with the manpower problems and the funding problems, 
we are not going to do it unless we involve the private sector. 
And I think that is one of the bottom lines that I am seeing.
    You have talked a great deal already about the problems you 
are having with offering and completing sales. I think we will 
probably have a chance to talk about that later.
    Can I also ask one other question? You know, the OIG has 
given you a report, the recommendations by July 31 of this year 
to be set, to be hit. Is the agency going to meet those 
deadlines?
    Mr. Rey. Yes.
    Mr. Bishop. It is a simple enough question. Can I ask some 
of you there--oh, crud. I have 40 seconds. Give me a really 
brief definition of what a WUI would be. How do you define 
that?
    Mr. Rey. The wildland-urban interface?
    Mr. Bishop. Yes.
    Mr. Rey. It is an area adjacent to a community that 
treating will reduce the risk to the community. Its distance 
from the most distant house varies, depending on topography, 
vegetation mix, and a lot of other variables.
    Mr. Bishop. I think I was hearing you saying you don't have 
a standard definition of size distance or anything like that. 
We just kind of do it on a case-by-case basis.
    Mr. Rey. That is correct.
    Mr. Bishop. All right. My time is up here. Let me let these 
others have a chance at it, and I will come back, if that is 
OK.
    Mr. Grijalva. Thank you, Mr. Bishop. Mr. Shuler.
    Mr. Shuler. Thank you, Mr. Chairman. Mr. Rey, last month we 
lost about nine homes in my home county due to wildfire. What 
emphasis does the Department do in the way of community 
wildfire protection plans? You know, relationship with the 
states, relationship with each one of the communities.
    Mr. Rey. As I indicated in my testimony, since the 
authorization for the development of community-based wildfire 
protection plans, we have cooperated with communities around 
the country, and have developed in excess of 2,000 of those 
plans. We have another 450 that will be developed this year.
    And in almost every instance where a group of community 
leaders, local elected officials for the most part, has 
indicated they wanted to work with us to draw out a community 
wildfire protection plan, we have made staff available for that 
purpose. And as I indicated earlier, that governs where we do 
the treatments.
    You know, generally speaking, where there are community 
wildfire protection plans, those plans lay out on the ground, 
in a map-based format, what areas need to be treated. And we 
don't deviate very much from those once we have them.
    Mr. Shuler. So it is basically left up to the elected 
officials in those communities, or the community itself, to 
actually get with the Department to be able to come up with a 
plan.
    Isn't there a way that we can be more proactive and look at 
some of the areas, because of my district's 53 percent public 
lands? It seems like that would be much more incentive to those 
communities that have--every community, all 15 counties, to 
actually have a plan.
    Mr. Rey. You know, we could go off and do that ourselves. 
But one of the things we have found since we started working 
with communities to develop these plans is that the effort on 
the part of local elected officials and local community leaders 
to work with us to develop these plans usually results in less 
environmental appeals over the activities that we conduct in 
concert with or in conjunction with those plans. Because that 
local community buy-in gets everybody oriented toward the idea 
that we really have to do this work. It is not an abstract 
question of, you know, whether we should hug this tree or cut 
this tree. It is stuff that needs to be done if we are going to 
protect our own homes and our neighborhoods and our 
communities.
    Mr. Shuler. Very good. Ms. Nazzaro, the fund for the Forest 
Land Enhancement Program in the last Farm Bill was used for 
fire borrowing. This year, how much do you expect to borrow 
from that particular bill? Those funds from the Forest Land 
Enhancement Program. It is in the Farm Bill.
    Ms. Nazzaro. I don't have an estimate. I don't know. Maybe 
Mr. Rey does.
    Mr. Rey. The authority for the Forest Land Enhancement 
Program expires with this Farm Bill, so we won't be borrowing 
any money from that account.
    Mr. Shuler. This year.
    Mr. Rey. This year. We are hoping that Congress 
reauthorizes the Farm Bill, including our proposal for the 
Forest Land Enhancement Program. If they do, then we will try 
not to borrow that money next year.
    Mr. Shuler. Very good. Thank you, Mr. Chairman. I yield 
back.
    Mr. Grijalva. Thank you. Mr. Pearce, just a question.
    Mr. Pearce. Thank you, Mr. Chairman. Mr. Rey, the county of 
Otero and the village of Cloudcroft have expressed alarm that 
the Forest Service has a sense of a lack of urgency on this 
problem around the community. Can you tell me the priority that 
you have established for that particular area?
    Mr. Rey. This is going to be one of our highest-priority 
treatments to get done this year and next.
    Mr. Pearce. OK. The complaint is that there is no time to 
develop an EIS. And I guess your office there, the Forest 
Service, and the city, the village of Cloudcroft have gone to 
the Council on Environmental Quality. I guess it begs the 
question why we didn't do something last year or the year 
before on back.
    But forgetting that, what are the chances that we are going 
to get this approval to do this spraying work? You all are 
going to spray, right?
    Mr. Rey. We are going to do some spraying, but we are going 
to do mostly harvesting.
    Mr. Pearce. So what are the chances we are going to get 
approval to do that, since we have not done the EIS? We let 
this thing drift through six years now, so we have kind of a 
crisis going. What are the chances we are going to get approval 
to do the work?
    Mr. Rey. I think the chances are going to be good, because 
we are going to do it under a categorical exclusion. So we----
    Mr. Pearce. OK. You are going to clear, I am reading, a 
500-feet buffer zone.
    Now, the last vision I have in my mind is driving up to my 
home town, where a fire was burning across New Mexico. And the 
fire, the 50-knot winds were pushing it almost 50 miles an 
hour.
    Now, when I see a 50-mile-an-hour fire running, and I see a 
500-foot gap, is 500 feet going to be enough to protect the 
community, given the nature of the winds that always blow in 
New Mexico?
    Mr. Rey. We think 500 feet, along with work to remove fuels 
and flammable materials on the private lands, will give us a 
pretty good chance to be able to save those communities, should 
they be confronted with an active fire.
    Mr. Pearce. OK. Your categorical exclusion you are talking 
about. And that is subject to this appeal by Southwest Center 
for Biological Diversity and Forest Guardian, is it not----
    Mr. Rey. They have a right of appeal, that is correct.
    Mr. Pearce. And I think you have adequately stated that it 
is common to assume that they are going to block anything that 
we try to do there.
    Now, you said that one of the problems that we have is 
getting public acceptance. Does the Forest Service give the 
same weight to people who live in the town and are worried 
about their houses? There is one road that goes through 
Cloudcroft. When the forest catches on fire, there is not going 
to be a way out of town; we are going to lose a lot of people.
    Now, public acceptance, do you give the same weight of 
public acceptance to the people who are at risk of losing their 
families, their homes, their livelihood, than some guy based 
out of--excuse me, Mr. Chairman, but I think the Center for 
Biological Diversity is out in your area, in Arizona somewhere. 
Do you give the same weight to public acceptance, I think was 
your term?
    Mr. Rey. Well, first a clarification. I did not say that we 
expect that these particular categorical exclusions will be 
appealed. We think that we have designed the fuels treatment 
work that needs to be done here in a way that will likely 
minimize----
    Mr. Pearce. Well, fine. Let me reclaim the words and put 
them in my mouth. I think they will be appealed, because they 
have blocked everything else in the district. So those are 
people who did not want to cut trees for any reason. And I am 
asking, does public acceptance from someone outside the area, 
whose life is not at risk, weigh the same as public acceptance? 
You said that is the problem, that public acceptance of cutting 
trees or hugging them is the problem.
    There is no problem in the minds of people in Cloudcroft 
and Otero County. So do you weigh it the same, inside and 
outside the county?
    Mr. Rey. I think the best way to answer your question is, 
we give the greatest weight to people whose concerns are backed 
up by----
    Mr. Pearce. That tells me that the people in Cloudcroft 
have a great reason to go ahead and fear. I mean, I am telling 
you that the greatest fear over anything that we have felt in 
the district is these. Because they saw the Scott Able fire, 
they saw the Kopelli fire in Ruidoso. They have seen us burn 
hundreds of thousands of acres to the ground, while we do not 
clean anything up. And they see a 500-foot buffer zone.
    Finally, when you talk about, to Mr. Bishop, using private 
firms, biomass, are you aware that the Forest Service in New 
Mexico will not give 20- or 30-year contracts in order that 
these private firms would come in and harvest for you? That we 
have had biomass firms appealing to us, can you help get us a 
contract, and the Forest Service will not grant those.
    So how are we going to get this stuff cleaned up? You are 
going two to three thousand acres yourselves, and it is obvious 
you are not going to put more there, because evidently, and 
according to your five different things, there is not enough 
negative consequences, I think was your second thing. So there 
is not enough life to be lost in New Mexico, so we do not 
evidently rank very high on the priority list.
    I know we are one of the driest states. We have about as 
much national forest as any state. We don't rank high on the 
list. So what are we to tell our people back home?
    Mr. Rey. I said earlier that these are high-priority 
treatments.
    Mr. Pearce. They are high-priority treatments, but we 
haven't done anything for seven years, and we are not going to 
do anything until the fall. And we put ourselves not having an 
EIS in place, so that you still stand the risk of getting 
appeals.
    And I will tell you that the risk is extremely big that the 
appeals will happen, and we will hear one more time I am sorry, 
we are not going to do anything. And that is not a very 
suitable answer for me to go back and tell these constituents, 
with one road through the town, that have no way to get out if 
a fire starts.
    I am stunned at----
    Mr. Rey. That is not an acceptable answer. We are going to 
do something. We are going to do these treatments this year. 
And if appellants show up and try to block them, we will defend 
our decisions aggressively, and see if the courts will agree 
with us about the immediacy of what needs to be done.
    One other clarification is the Forest Service cannot grant 
20-year contracts. The longest contract length that we are 
statutorily able to grant is 10 years, and we do and have 
granted 10-year contracts to biomass energy facilities, 
including a couple in Arizona.
    Mr. Pearce. But none in New Mexico. And I do appreciate it. 
And we will work with you any way we can to try to get rid of 
the problem there, because the people in both Ruidoso, Ruidoso 
towns, Cloudcroft, and the other mountain communities are 
extraordinarily concerned, as they are out in the West. We have 
talked mostly about the Lincoln, but the Gila. We have five 
national forests in our district, and they all have the same 
problems.
    But I appreciate your hard work, and appreciate that you 
are in difficult circumstances.
    Mr. Chairman, I have talked too long. I apologize.
    Mr. Grijalva. No problem. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Numerous hearings, 
Secretary Rey, the issue of a longer term for those sorts of 
contracts as have come up--you just mentioned in response to 
the gentleman from New Mexico that you are limited to 10 years. 
And yet I think you indicated previously that you didn't feel 
it was necessary. Do you still hold that position?
    Mr. Rey. I would like to get a little bit more experience 
in writing a larger number of 10-year contracts, to see whether 
10 years is too short for the amortization of new 
infrastructure. Because that is the real issue.
    It is a question of how much capital an investor has to 
have in order to turn the ground to start constructing a 
biomass energy facility, or a cellulosic ethanol plant. So far 
we have had some luck with investors who have come in and, with 
access to 10-year contracts, have gone ahead and broken ground 
and built facilities.
    So I am not sure that the contract length is the 
impediment. What I need the opportunity to do is to get more 
10-year contracts out on the landscape, and then see, in 
another year or two, what that looks like.
    Mr. DeFazio. What if we gave you the flexibility to make an 
exception; go to 20 years to get people to locate in high-risk 
areas, and engage in fuel reduction in those areas?
    Mr. Rey. I don't think we would find that objectionable. I 
would need to talk with the contracting experts in the Federal 
government to make sure that we write sufficient protections 
into those contracts, so that the government's interest is 
maintained, which is always the concern with a longer-term 
contract.
    Mr. DeFazio. You mentioned at one point in the first round 
there ecological restoration, along with fuel reduction. I 
believe I mentioned this to you. But there is a proposal on the 
Wallowa-Whitman Forest up in Northeast Oregon in Representative 
Walden's district, an east-side dryer forest, where there is a 
need for both some thinning and fuel reduction. A gentleman 
came by my office to talk about the possibility of doing, you 
know, going in there with a cellulosic plant. And what it was 
contingent upon was both the fuel reduction over a long term, 
and doing it in conjunction with the thinning, because he would 
also utilize the tops and limbs from the commercial thinning 
that would be done.
    I mean, would that be the kind of innovative approach you 
are talking about in doing ecological restoration along with 
fuel reduction?
    Mr. Rey. Yes. In fact, that is an area we are looking at 
for a potential 10-year contract, [inaudible].
    Mr. DeFazio. All right. And then just a last point, and I 
think we have had discussion of this before. The 10-year 
average on the fire, on your estimates for fire costs.
    I mean, there is nothing magic about 10 years, right? It is 
not required.
    Mr. Rey. No.
    Mr. DeFazio. And/or there might be an outlier year that you 
would drop, or something like that. I mean, if it is leading us 
to making proposals that are insufficient, it seems we might 
reconsider the standard we are using there.
    Mr. Rey. We have looked at that in terms of going to a 
five-year average, or just dropping the highest and lowest 
years to rationalize the longer-term average.
    I think this is sort of a good news, bad news observation, 
but I think we have now got enough high-cost years in the 
rolling 10-year average that what we are going to find is that 
our borrowing needs are going to be significantly reduced. 
That, combined with the cost containment work that we are 
doing, may put us in a position this year where we don't end up 
borrowing.
    Mr. DeFazio. OK, well, hopefully. Thank you.
    Mr. Chairman, thank you for holding this hearing. I 
appreciate it, because this is a critical--well, you live in 
the West, too, but obviously a critical issue.
    Mr. Grijalva. Thank you very much. Let me ask a couple of 
questions second round, and then finish up with Ranking Member, 
Mr. Bishop.
    For Assistant Secretary or Under Secretary, if you wouldn't 
mind, gentlemen. The Appropriations Committee has requested 
that the agencies deliver a joint report to the committee 
indicating how hazardous fuel funds are allocated among 
bureaus, agencies, regions, states, and make it available 
publicly. It appears from your testimony that you are moving in 
that direction.
    When can we anticipate that report or that communication to 
Congress?
    Mr. Rey. Of course, it will depend on whether they ask for 
it in our budget request, or whether they would just like to 
see it after we get our final appropriation.
    In our budget request, we generally submit supporting 
information that shows how we propose to allocate what we have 
requested. I think the nature of their request, if I understand 
it right, is that they would like to see a re-spin of that, 
based upon what we actually get appropriated. And if that is 
the request, then what we will try to do is turn it around 
within a couple weeks after the Appropriations Bill is signed.
    Mr. Grijalva. OK. Following up on Appropriation Committee 
requests, I think we are going to hear from the second panel 
about the need to redefine the wildland-urban interface.
    The Appropriations Committee has directed the agencies to 
reevaluate those existing definitions and criteria. How do you 
feel about that request, in terms of that redefinition process, 
or redoing the criteria, or looking at it differently?
    Mr. Rey. I think what we will propose to the Appropriations 
Committee is, rather than struggling through a redefinition, 
let us give them an analysis of what the combined, what the 
outlook is for the combination or the aggregation of the 
community wildfire protection plans.
    You know, we have now over 2,000 community wildfire 
protection plans in which there is a great deal of local 
agreement about what needs to be treated within the wildland-
urban interface to protect the community. I would hate to walk 
backwards from that agreement, and start spitting out a new 
definition of the wildland-urban interface. I think I would 
rather take a pass at seeing if I can aggregate the results of 
that work, so that it is available to somebody to look at on a 
more landscaped scale, and then discuss whether it is adequate 
or whether there are changes that need to be done.
    Mr. Grijalva. Let me see if I can construct your answer for 
myself. Evaluate and report on what has been done up to this 
point?
    Mr. Rey. Correct.
    Mr. Grijalva. And then, based on that, make a decision 
about redefining or changing criteria.
    Mr. Rey. Correct.
    Mr. Grijalva. OK. And the last question----
    Mr. Rey. I should get you to answer my questions more 
often. It goes a lot better that way.
    [Laughter.]
    Mr. Grijalva. Well, I tend to get confused easily, so I 
have to ask them.
    Mr. Under Secretary, the last question. And I was 
interested in the discussion that you had with Congressman 
Sarbanes about the pecking order, robbing Peter to pay Paul, 
and how the need to respond to suppression activities is 
priority A. And regardless of what is budgeted, that has to be 
done.
    Given that whole commentary, I mentioned the $96 million 
cut in wildfire preparedness in this year's budget request from 
the Administration. Given the severe wildfire seasons that we 
have had the last three, four, five years, that we have been 
experiencing, how does the Administration justify that cut? If 
it is not being--is it being redirected to suppression?
    Mr. Rey. We actually are seeing an increase in suppression, 
in part because we are following the 10-year average.
    But we have been engaged in four years of cost containment 
work. And I will submit for the record at this hearing a list 
of 41 separate cost containment initiatives that we have 
underway. I will also submit for the record at this hearing our 
testimony before the Appropriations Committees, which summarize 
some of the major cost containment initiatives.
    Looking forward into 2008, we believe that it is, we will 
see the fruits of some of that kind of, of that labor in 
different tactical approaches to both preparedness and 
suppression.
    Even this year, in 2007, as this fire season unfolds, we 
believe we will see savings in the neighborhood of $130 to $150 
million, as a consequence of some of the cost containment 
initiatives that we have underway, some of the very initiatives 
that were recommended by our Inspector General or by the 
Government Accountability Office.
    So that $96 million reduction in suppression that we 
proposed for 2008----
    Mr. Grijalva. Preparedness.
    Mr. Rey. Preparedness, I am sorry--for 2008 is a reflection 
of savings that we think we will incur as a result of these 
efficiencies.
    Now, if we are wrong and it doesn't manifest, we still 
obviously have time to make some changes. We also have the 
authority from the Appropriations Committees to take money from 
suppression to boost preparedness if we find ourselves in a 
severity situation that we didn't anticipate early in the fire 
season.
    So we think we have flexibility to cover that, but we think 
that those are real savings resulting from the work that we 
have done that has been recommended.
    [NOTE: The list and testimony submitted for the record have 
been retained in the Committee's official files.]
    Mr. Grijalva. Thank you. Given the reality of suppression 
activities will occur, regardless if there is a line-item limit 
to it. And I don't see that as an either-or between suppression 
and preparedness. And I would think that additional resources 
directed in preparedness that are categorically committed to 
that activity doesn't set up the question of either-or. I think 
it creates what I think is a necessary balance.
    But with that, I have gone over time. Mr. Bishop.
    Mr. Bishop. Thank you again. I might suggest, Mr. Rey, that 
if five years for a rolling average is enough to be actuarially 
sound in a public retirement system, it might be good enough 
for you.
    I did have a question for the Inspector General. We have 
talked and heard people talking about how fires that take place 
on public lands have an impact on private land and private 
forest land. Do we have any numerical data as to what the cost 
is to either state, local government, or private consumers that 
have to deal also with the fires that start on Federal lands, 
and then turn to private lands?
    Ms. Tighe. I don't know that we have that information.
    Mr. Bishop. Does anyone on the panel have a numerical value 
as to what it costs?
    [No response.]
    Mr. Bishop. OK. So I don't have the answer. I might 
presumptively argue that that may be a good reason why land 
acquisition should be at a minimum in the future, but we will 
deal with that.
    And actually, these guys have been on the hot seat for 
quite a while. I have some others, but they are not that vital. 
If there is anything more I have, I will submit them in 
writing. I just thank you, all of you, for taking the time to 
be with us here today.
    Mr. Rey. I think we may be able to get some of the data you 
just asked for. I don't have it at the tip of my tongue, but if 
we have calculated it in conjunction with the firefighting 
community, I will poll the system. And if we have it, I will 
submit it for the record.
    Mr. Bishop. If you have that, I would be appreciative. 
Thank you, sir.
    Mr. Grijalva. Let me join Mr. Bishop in thanking the panel. 
Thank you for your time and for your very important testimony 
today. Your full written testimony will be made part of the 
record, in addition to other materials you may submit.
    Thank you again. And let me call the second panel, please.
    Mr. Rey. Thank you.
    Mr. Grijalva. Let me as well thank you today. I appreciate 
it very much. That was a rather lengthy first panel, and so I 
appreciate your patience. Some of you have traveled a long way, 
some of you from the great State of Arizona, and I appreciated 
that very much, as well.
    Let me begin with Supervisor Elizabeth Archuleta, Coconino 
County. Thank you for being with us. And testimony will be 
limited to five minutes, but all materials will be made part of 
the record. So thank you very much.
    Supervisor.

   STATEMENT OF ELIZABETH C. ARCHULETA, SUPERVISOR, COCONINO 
                        COUNTY, ARIZONA

    Ms. Archuleta. Thank you, Mr. Chairman and Ranking Member 
Bishop and Members of the Subcommittee. I appreciate the 
opportunity to testify on behalf of the National Association of 
Counties and Coconino County on wildfire preparedness.
    I am the Chairman of the National Association of Counties 
Public Land Steering Committee, and a supervisor from Coconino 
County. Coconino County is located in one of the largest 
strands of Ponderosa pine in the world. The county spans almost 
19,000 square miles, and is the second largest in the lower 48.
    Coconino County contains Grand Canyon, the cities of 
Flagstaff, Williams, Page, and other unincorporated 
communities. It is also only 13 percent private land.
    As many of you know, the State of Arizona has learned some 
real lessons in the last few years on wildfire preparedness. 
Five years ago the Rodeo Chediski fire in the White Mountains 
burned nearly half a million acres, and cost the taxpayers more 
than $400 million.
    Last year the Woody fire immediately threatened the city of 
Flagstaff, and nearly escalated into a catastrophic wildfire. 
However, local forest treatments in the WUI protected the city 
from a loss of structure and lives.
    The Brins fire in Oak Creek Canyon outside Sedona burned 
more than 4,000 acres, and the aftermath is still being felt 
today. Potential rock slides, soil degradation, and an impact 
on water quality are serious problems that Coconino County and 
its communities will be addressing for years to come.
    While wildfires are a very real danger in Northern Arizona, 
Coconino County has created plans to prepare for catastrophic 
wildfire prevention. With the passage of HFRA, communities 
across the county were urged to create community wildfire 
protection plans to be eligible for Federal hazardous fuel 
reduction funding.
    Coconino County has implemented and provided funding for 
these plans, in collaboration with cities, the Greater 
Flagstaff Forest Partnership, the Ponderosa Fire Advisory 
Council, and the Forest Service Nature Conservancy and many 
other groups. The result has been prioritized hazardous fuels 
reduction and collaborative planning efforts.
    Also, Coconino County is currently exploring the adoption 
of specific codes and ordinances related to developments in the 
WUI areas.
    In addition, our Governor has created the Governor's Forest 
Health Advisory Council to develop a statewide strategy for 
managing Arizona's forests.
    Let me just talk about the benefits of HFRA on a national 
level. It has benefitted the counties in major ways: three, to 
be exact. It has enabled counties across the Nation to create 
collaborative wildfire protection plans. Over 100 counties have 
developed these plans.
    It has encouraged the development of partnerships with 
Federal land management agencies, state agencies, cities, 
counties, universities, and scientists, and environmental 
groups to create strategies to mitigate and reduce the risk of 
catastrophic wildfire.
    And three, it has provided streamlined compliance work 
under NEPA for fuel management projects, which has been very 
helpful.
    An important point I would like to stress today, though, is 
that we believed funding would come from this Act for the 
development of the CWPPs, and to support fuels management 
through the Forest Service and the State Fire Assistance 
Program. But that has not happened, to the extent that was 
anticipated or is needed.
    Coconino County has taken a very proactive approach, as 
well as the State of Arizona. And this has been nurtured across 
the West by a partnership between NACo and the Sonoran 
Institute based in Pima County, Arizona. We know that open 
space, natural beauty, recreational opportunities, and a 
desirable quality of life are some of the driving forces behind 
the growth and development in the WUI areas throughout the 
West.
    For local elected officials, this period of growth and 
change presents real challenges. In 1999, NACo and the Sonoran 
Institute partnered to create the Western Communities 
Stewardship Forum, to provide training and support to assist 
more than 300 rural county officials from eight western states 
to effectively manage growth through innovative community-based 
land-use decisions and solutions.
    Counties are taking responsibility for growth in the WUI 
areas. Counties are considering land-use codes and ordinances. 
And we want to stress this.
    Contemplating a similar model, the National Association of 
Counties is currently working with the USDA, Forest Service, 
and the Bureau of Land Management on a similar program that 
would strengthen the capacity of counties to reduce wildland 
fire risk in the WUI area.
    Let me just tell you, though, that we want to advocate 
today for a paradigm shift, to move from suppression to 
prevention. We encourage Federal land management agencies in 
the state to create the capacity for forest restoration 
treatments. We encourage Federal agencies to emphasize 
preventative treatments through active management over 
suppression efforts when setting priorities.
    We encourage Congress to use the appropriations process to 
change the emphasis from suppression to treatment. We also 
encourage the stimulation of stewardship contracts to bring 
wood utilization industries to forested counties to help pay 
for fuel reduction efforts, and look to the Federal agencies in 
Congress to help with this effort.
    We also would like to encourage you to continue to seek 
ways to fully fund PILT and to secure rural schools, because 
many of the community wildfire protection plans and the fuel 
reduction efforts are funded by these two funding sources.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Archuleta follows:]

 Statement of The Honorable Elizabeth Archuleta, Supervisor, Coconino 
   County, Arizona, on behalf of The National Association of Counties

INTRODUCTION
    Chairman Grijalva, Ranking Member Bishop, and members of the 
Subcommittee, I appreciate the opportunity to testify on behalf of the 
National Association of Counties and Coconino County on wildfire 
preparedness.
    I am Elizabeth Archuleta, Chairman of the National Association of 
Counties Public Lands Steering Committee and a Supervisor from Coconino 
County, Arizona. Coconino County is located in one of the largest 
stands of ponderosa pine in the world. The County spans almost 19,000 
square miles and is the second largest in the lower 48. Coconino County 
contains the City of Flagstaff, the Grand Canyon, the City of Williams, 
the City of Page and other unincorporated communities.
    As many of you know, the State of Arizona has learned some real 
lessons in the last few years on wildfire preparedness. In 2002, the 
Rodeo Chedeski fire in the White Mountains burned nearly half a million 
acres and cost the taxpayers more than $400 million. The February Fire 
in northern Gila County started in February 2006 and taught us that 
with extreme drought conditions, fire does not always occur in the 
summer months. The February Fire burned more than 4,000 acres and cost 
the taxpayers more than $3 million.
    Last year, the Woody Fire immediately threatened the City of 
Flagstaff and nearly escalated into a catastrophic wildfire. However, 
local forest treatment efforts in the wildland urban interface 
protected the City of Flagstaff from a loss of structures and lives. 
The Brins Fire in Oak Creek Canyon, outside of Sedona, burned more than 
4,000 acres and the aftermath is still being felt today. Potential 
rockslides, soil degradation and impact on water quality are serious 
problems Coconino County communities will be addressing for years to 
come.
    With the passage of the Healthy Forests Restoration Act of 2003 
(HFRA), communities across the country were urged to create 
collaborative Community Wildfire Protection Plans (CWPP) to be eligible 
for Federal hazardous fuels reduction funding. Coconino County and the 
City of Flagstaff, in collaboration with the Greater Flagstaff Forest 
Partnership (GFFP) and the Ponderosa Fire Advisory Council (PFAC), 
developed the Community Wildfire Protection Plan for the City of 
Flagstaff and surrounding communities. The USDA Forest Service is a 
member of both the GFFP and PFAC. The result of these efforts has been 
collaborative planning efforts and prioritized hazardous fuels 
reduction.
    In addition, the Governor of Arizona has created a Governor's 
Forest Health Advisory Council to develop a statewide strategy for 
managing Arizona's forests. With the recent release of the draft 
statewide strategy, the State is holding public hearings throughout the 
state. The goal of the draft strategy is to present scientific and 
policy recommendations to the Governor on forest health, unnaturally 
severe fire and community protection.
    While the dialogue in the State of Arizona and Coconino County has 
changed from a reactive approach to a proactive approach, more work 
needs to be done. Today, I would like to focus on a few key points to 
demonstrate how HFRA has helped counties and what additional tools we 
need to be more effective. First, I will focus on the community 
partnerships developed to address fire mitigation. Second, I will 
describe how counties are taking responsibility for growth and 
development in the Wildland Urban Interface. And finally, I would like 
to explain the real cost of wildfire suppression on the ground and 
encourage a paradigm shift from funding fire suppression to funding 
prevention and forest restoration through active forest management.

PARTNERSHIPS, PLANNING AND FOREST HEALTH
    The National Association of Counties believes there is a clear and 
imminent danger to our public forest resources and adjacent communities 
stemming from years of fire suppression and other management decisions. 
In addition to increased fuel densities, past management decisions have 
led to unhealthy forests that are much more susceptible to insect 
infestation, disease, and catastrophic wildfire.
    Federal land management agencies should focus management efforts on 
high-risk forests utilizing an array of appropriate forest management 
practices, including thinning and harvesting, and prescribed burning. 
In addition, Federal land management agencies should increase private, 
state, and local contracts and partnerships for more effective fire 
suppression and pre-fire management of federal forest lands.
    Locally, our forest ecologists tell us that when a forest is 
healthy it will support low intensity ground fires every 2-20 years. 
One of the best defenses against catastrophic crown fires is landscape 
adaptation to historical fire types. Evidence suggests that a treated 
area is vital for effective fire suppression. Proactive community-based 
approaches to wildland fire management combines cost-effective fire 
preparedness with fire suppression to protect communities and the 
environment. In 1996, Coconino County experienced several fires within 
and on the edge of the WUI that clearly focused the public's attention 
to the risk posed by a catastrophic wildfire and the plight of the 
forests. As a result, an instrumental partnership was established to 
comprehensively address fire mitigation in the greater Flagstaff area. 
Further discussion on the success of this partnership is described 
below.

Partnerships
    For a variety of reasons, partnerships between the Federal 
government, State and local government, and private organizations are 
vital to the development of local wildfire management strategies, fuels 
reduction and management projects, as well as the continuation of local 
community collaboration on all levels of government. Both Congress and 
the Administration have pushed for collaborative community management 
strategies through the Department of the Interior Collaborative 
Conservation and Healthy Lands Initiatives, as well as Congressional 
direction through PL 106-291 directing the Secretaries of Agriculture 
and Interior to develop a strategy that requires ``close collaboration 
among citizens and governments at all levels,'' including a diverse 
group of people representing all levels of government, tribal 
interests, conservation and commodity groups, and community-based 
restoration groups.

NACo Partnership with Sonoran Institute
    The proactive approach we have adopted in Coconino County has been 
nurtured across the West by a partnership between NACo and the Sonoran 
Institute, based in Pima County, Arizona. We know that open space, 
natural beauty, recreational opportunities, and a desirable quality of 
life are some of the driving forces behind the growth and development 
in the wildland urban interface of communities throughout the West. For 
local elected officials, this period of growth and change presents real 
challenges. In 1999, NACo and the Sonoran Institute partnered to create 
the Western Community Stewardship Forum (WCSF) to provide training and 
support to assist rural county officials effectively manage growth 
through innovative, community-based land use decisions and solutions.
    Since the Forum's inception, more than 300 officials from counties 
in eight western states have participated in WCSF. Participants receive 
practical, innovative land-use tools and strategies that have 
stimulated healthy economies, while preserving local identity and the 
cultural assets of the community. Through a competitive application 
process, WCSF selects teams of up to six county officials responsible 
for local growth-management strategies to participate in an intensive 
three-day training workshop to explore solutions to community land-use 
issues, effective growth management plans to balance environmental, 
economic, and community concerns through locally-led decisions, and 
fostering collaboration among participants on a variety of growth 
issues.

Future NACo Partnership with BLM & Forest Service
    Contemplating a similar model, the National Association of Counties 
is currently working with the USDA Forest Service and the Bureau of 
Land Management (BLM) to develop a program that would strengthen the 
capacity of counties to reduce wildland fire risk in the wildland urban 
interface. Specifically, the project would assess the current status of 
county development and implementation of Community Wildfire Protection 
Plans. County officials will be provided with technical assistance, 
training, and tools to build their capacity to proactively reduce 
wildland fire risk and contain associated costs in the wildland urban 
interface. The first goal of the proposal is to help local officials 
better understand how their decisions in the wildland urban interface 
influence public health and safety in their communities.
    In addition to capacity building on the local level, the second 
goal of the proposal would be the development and distribution of a 
Best Practices Guidebook for local officials and the development of 
training workshops. NACo would create a guidebook outlining practices 
and strategies in land use planning and fuels management policies for 
wildland fire protection. The publication would serve as a tool for 
communities seeking to develop new wildland fire plans.
    Coconino County serves as an excellent example of how communities 
can create successful partnerships to develop and implement Community 
Wildfire Protection Plans CWPP). Three key partnerships exist in 
Coconino County that actively plan and execute existing wildfire 
protection plans. A brief description of each partnership is below:
Greater Flagstaff Forests Partnership
    After several near misses with fires in the wildland urban 
interface in 1996, the Greater Flagstaff Forests Partnership (GFFP) was 
formed. The GFFP is an alliance of more than 20 environmental, 
governmental, research and business organizations dedicated to 
researching and demonstrating approaches to forest ecosystem 
restoration in the ponderosa pine forests surrounding Flagstaff, 
Arizona. The Partnership's three primary goals are to, (1) restore 
natural ecosystem structures, function, and composition of ponderosa 
pine forests, (2) manage forest fuels to reduce the probability of 
catastrophic fire, and (3) research, test, develop, and demonstrate key 
ecological, economic, and social dimensions of restoration efforts.

Ponderosa Fire Advisory Council (PFAC)
    Created after the Yellowstone fires in 1988, PFAC is comprised of 
members of local fire departments, rural fire districts, emergency 
services, law enforcement, and the USDA Forest Service. PFAC focuses on 
ensuring that all agencies are properly prepared, trained in Incident 
Command System (ICS), share operating guidelines, operate under mutual 
aid contracts, and participate in interoperable communications 
planning. In addition, PFAC is committed to public fire wise education 
and community preparedness in the event of a wildfire emergency. PFAC 
is also actively involved in implementing the CWPP for the greater 
Flagstaff Area.

Wildfire Advisory Council (WFAC)
    Similar to PFAC, WFAC is comprised of local representatives from 
the greater Williams area, including representatives from local fire 
departments, rural fire districts, the Kaibab National Forest, Coconino 
County Sheriff's Office and the Department of Arizona State Lands. WFAC 
developed and is implementing the community wildfire protection plans 
for the community of Tusayan (gateway community to the Grand Canyon) 
and the City of Williams.
    The County participates in all of the collaborative forest 
partnerships discussed above to promote and facilitate forest 
restoration and fuels reduction throughout the County.

Planning
Community Wildfire Protection Plans
    Community Wildfire Protection Plans are authorized in the Healthy 
Forests Restoration Act (HFRA) enacted in 2003. The HFRA provides 
communities with a tremendous opportunity to influence where and how 
federal agencies implement fuel reduction projects on federal lands and 
how additional federal funds may be distributed for projects on non-
federal lands. A CWPP is the most effective way to take advantage of 
this opportunity. Additionally, the HFRA directs the Forest Service and 
BLM to give preference to communities with CWPPS when allocating 
hazardous fuels reduction funding.
    The partnerships outlined above have created Community Wildfire 
Protection Plans (CWPP) in Flagstaff, Williams, and Tusayan. The County 
was actively involved in the development of the CWPPs and has provided 
funding for their development. In addition, plans are currently being 
developed for the Blue Ridge and Forest Lakes areas of the County, and 
the County has contributed funds to the development of these plans. The 
partnerships developing the CWPPs include a variety of interests from 
federal and state land management agencies to homeowner associations to 
environmental organizations. Collaboration and interagency cooperation 
is essential to addressing wildfire protection issues because wildfire 
and forest health issues do not respect jurisdictional boundaries. The 
goal of the CWPPs is a community-based approach to wildland fire 
issues, which combines cost-effective healthy forest mitigation, fire 
preparedness and suppression to protect communities with a proactive 
approach to achieving a healthy forest ecosystem.
    Some examples of the fire mitigation projects resulting from the 
partnerships' CWPP efforts include:
    <bullet>  Clint's Wells Fuels Reduction--Target 2/2008
    <bullet>  Elk Parks Fuel reduction In progress
    <bullet>  Munds Parks fuel reduction 10/2007
    <bullet>  GFFP eastside fuel management 5/2007
    <bullet>  Oak Creek Canyon fuel reduction 6/2007
    <bullet>  Grand Canyon Airport Fuel reduction 12/2007 Tusayan 
Community (gateway to Grand Canyon)
    <bullet>  Bill Williams Mountain Communication/Electronic Site 

Hazardous Tree Reduction 9/2007
    In addition, the City of Flagstaff is implementing a number of fire 
mitigation projects in the wildland urban interface adjacent to 
Flagstaff.

Coconino County Hazard Mitigation Plan 2006
    In addition to the CWPP work done by the forest partnerships, 
Coconino County developed a County Hazard Mitigation Plan, which was 
approved by FEMA in 2006. The Hazard Mitigation Plan identified 
wildland fire as the most significant risk to the communities within 
Coconino County. Potential economic loss due to a catastrophic fire 
could exceed $2.5 billion. A primary goal of the County Hazard 
Mitigation Plan is to promote public understanding, support, and demand 
for hazard mitigation--In addition, the plan aims to educate the 
public; promote partnerships between states, counties, local and tribal 
governments, and to identify, prioritize and implement mitigation 
actions.

Creative Implementation Strategy
    Coconino County established the Coconino Rural Environment Corps 
(CREC) in 1997 to promote environmental stewardship and youth job 
development skills. Over the past several years, CREC has become a key 
organization for implementing hazardous fuel reduction projects 
identified by the forest partnerships. In most cases, CREC assists USDA 
Forest Service and local fire districts with fuel management projects. 
In 2006 alone, CREC conducted forest fuels reduction projects on over 
1,200 acres in Coconino County, most of which are in the wildland urban 
interface. CREC also tackles other environmental improvement projects, 
such as clearing riparian areas of tamarisk, planting trees in burned 
areas, and restoring grassland habitats.

Public Education, Outreach
    In addition to planning and implementing Community Wildfire 
Protection Plans, the partnerships, and in particular PFAC and the 
County, led public fire wise education efforts throughout the County. 
Each year the County provides fire wise information and emergency 
preparedness planning to residents through our annual County 
Newsletter, which is mailed to all county residents. In addition, the 
partnerships support the development and dissemination of an annual 
Survival Guide, which is an insert in our local newspaper. The guide 
provides residents with information on fire wise actions they can take 
to reduce fire hazards on their property as well as emergency 
preparedness tips.

DEVELOPMENT IN THE WILDLAND URBAN INTERFACE
    Wildland fires continue to threaten lives, structures, 
infrastructure, watersheds, community parklands, and other vital 
community assets, particularly in the wildland urban interface (WUI). 
The National Association of Counties has adopted national policy 
calling on counties to enact better local land use ordinances and local 
fuels management policies for wildland fire protection in and around 
communities at risk of wildland fire. NACo supports Federal, state and 
local efforts to collaborate and cooperate on efforts to mitigate fire 
in the wildland urban interface. Coconino County again serves as a good 
example of community development planning that takes into consideration 
fire reduction within the WUI.

Land Ownership Patterns in Coconino County
    Approximately 13% of Coconino County is private land. The remainder 
is owned by the USDA Forest Service (28%), National Park Service (7%), 
Bureau of Land Management (5%), State of Arizona (9%), and Indian 
Reservations (38%). Most of the private land in the County encompasses 
very large ranches that have been historically subject to minimal 
development. The counties forested areas (which are subject to the 
greatest fire risk) are predominantly owned by the USDA Forest Service. 
While development occurs in small private inholdings that prevent 
growth from spreading very far into the forest, these developments, in 
effect do expand the wildland urban interface zone. However, the 
reality in Coconino County is that the vast majority of development 
exists in the greater ponderosa forest of Northern Arizona. One could 
consider the communities of Flagstaff, Williams, Parks, Kachina 
Village, Mountainaire, Fort Valley, Doney Park, Blue Ridge, Pinewood, 
and Forest Lakes as ``pockets'' of development within the forest.

Coconino County's Response to Development in Forested Areas
    Coconino County is exploring the adoption of a specific WUI code or 
ordinance. However, there are many aspects of fire risk reduction that 
have been incorporated into the County's planning and development 
process already. Coconino County has taken a multi-pronged approach to 
addressing development in the wildland urban interface. This issue is 
addressed in the form of goals and policies in the Coconino County 
Comprehensive Plan, as well as local Area Plans for unincorporated 
communities. The WUI issues are addressed in the development review 
process in the form of conditions or stipulations that are placed on 
subdivisions and conditional use permits. In addition, fire prevention 
is addressed through the County's participation in collaborative 
partnerships and interagency cooperation. Lastly, the County's 
Community Development Department actively promotes public education and 
outreach regarding fire wise building and development. One of our 
approaches to public education is to provide informational materials to 
all persons seeking building permits. We provide handouts on Firewise 
landscaping and construction techniques, prescribed fire, tips for 
homeowners on reducing wildfire danger, and even a citizen's guide to 
evacuation procedures.

Comprehensive Plan--Goals & Policies Related to the WUI
    The current version of the Coconino County Comprehensive Plan was 
adopted September 23, 2003. It is a conservation-based plan that 
recognizes that we have an ethical obligation to the land, that we all, 
collectively and individually, have a responsibility for the health of 
the land. The concept is that the health of the land is the foundation 
of the health of the human community. The Coconino County Comprehensive 
Plan includes a Natural Environment element that addresses forest 
ecosystem health in a general way, but the Public Safety element more 
specifically addresses the ``Wildland Urban Interface.''
    The Wildland Urban Interface goal is simply to: ``[r]educe the 
threat of catastrophic wildfire in the wildland urban interface.'' 
There are three policies related to this goal:
    1.  A forest stewardship/fuels mitigation plan is required for 
major developments and subdivisions in the interface;
    2.  Fire wise landscaping and building design and materials is 
encouraged in the interface; and
    3.  Property owners and developers are encouraged to consult with 
adjacent land management agencies when they are developing fire 
mitigation plans to ensure compatibility between adjacent owners and 
land managers.
    In addition, the County regularly consults with and seeks input 
from the USDA Forest Service when we have development proposals 
adjacent to National Forest land. Community Development usually 
accommodates Forest Service concerns and issues through stipulations 
attached to development approval. Likewise, where rural fire districts 
exist, we seek their input and address their concerns through 
conditions of approval.

Development Approval--Subdivisions and Conditional Use Permits for 
        Development in the WUI
    For over ten years, Coconino County has required developers of 
subdivisions in forested areas to include a forest stewardship/fuels 
mitigation plan as a condition of approval of their preliminary plat. 
In some of the earliest cases, the Forestry Division of the State Land 
Department assisted the developers in writing these forest stewardship 
plans. More recently, developers have hired forestry consultants to 
write the forest stewardship plans. The stewardship plans have to be 
completed and accepted by the County prior to approval of the final 
plat. If the plan calls for thinning and burning (or other fuels 
mitigation measures are required), then the developer is responsible 
for completing that work prior to final plat approval, or it must be 
bonded as with other required improvements. Similar requirements are 
attached to conditional use permits where appropriate.

Example of a Development with Fire Protection Requirements in Place
    An excellent example of a subdivision that developed a fuels 
mitigation plan is the Flagstaff Ranch development southwest of 
Flagstaff, which consists of 525 housing units along with a clubhouse 
and community center on about 480 acres of land. The plan called for 
thinning of the entire property, use of fire-resistive construction 
throughout the development, the formation of a fire district to provide 
fire protection for the subdivision, and use of fire sprinklers in 
every building.

FUNDING SOURCES VITAL FOR WILDFIRE PREPAREDNESS
    Mr. Chairman, as Congress and the Administration struggle to find a 
way to contain the skyrocketing costs of wildland fire suppression, I 
urge you to pause and take a look at the cost containment issue from 
outside the beltway, on the ground in one of America's public lands 
counties.
    As I have tried to make clear earlier in my testimony, Coconino 
County, Arizona Counties, NACo and many other counties across the 
country, are finding ways to reduce the risks--and the costs--of 
wildland fire in the WUI. We worry, however, that there may be a 
movement afoot in some quarters to force states and local governments 
to shoulder a greater share of the costs of suppression in the WUI. We 
believe that this would be a very costly mistake.
    First of all, please remember the enormous footprint the federal 
estate has in counties like mine. The United States is, by far, the 
largest and wealthiest landowner in so many of our counties, not only 
in the West, but also in places like Pocahontas County in Chairman 
Rahall's district in West Virginia. For our public lands county 
governments to maintain basic public services--not to mention enhanced 
wildland fire suppression capacity--we depend on the federal government 
fulfilling the promise of the Payments in Lieu of Taxes (PILT) Act and 
the Secure Rural Schools and Community Self Determination Act.
    We are grateful that you and your colleagues in Congress were able 
to extend the latter for one year in the Supplemental Appropriation 
sent to the President in April. This ``stay of execution'' will allow 
us to continue to maintain essential transportation infrastructure and 
keep our rural schools open. It will also continue authorization of the 
Resource Advisory Committees (RAC's) formed under Title II. Nationally 
these 15 person stakeholder committees have studied and approved over 
2,500 projects on federal forestlands and adjacent public and private 
lands using funds that are approved by Forest County Boards of 
Commissioners for these purposes. These projects have addressed a wide 
variety of improvements drastically needed on our National Forests, 
including fuels reduction and reforestation projects.
    Many forest counties have also invested Title III funds in 
developing fire prevention strategies and educating citizens in fire 
safe actions. Since the passage of the Healthy Forest Restoration Act, 
over 100 counties have been actively engaged in developing Community 
Wildfire Protection Plans using Title III funding, including Coconino 
County. These same counties will be investing Title II funds through 
the RAC process to implement their community wildfire protection plans 
through HFRA. Reauthorization of PL 106-393 is vital to the 
continuation of fire prevention strategies and forest health projects 
in our communities.
    With the expiration of this fiscal year just around the corner, 
NACo respectfully asks that the Subcommittee continue to explore ways 
to provide stability and security for the citizens of America's public 
lands counties, including by fully funding PILT and reauthorizing the 
Secure Rural Schools and Community Self Determination Act on a multi-
year basis. Only with a stable, predictable bottom line will rural 
public lands county officials be able to be the kind of leaders for 
forest health and community safety that we ought to be.

Costs of Fire Suppression versus Fire Prevention
    Last December, Northern Arizona University researcher Gary Snider 
published an article in the Journal of Forestry that examined our 
current investment in fire suppression versus inadequate investment in 
reducing fire risk by implementing hazardous fuel reduction treatments. 
The researchers found that by spending $238-601/acre for hazard 
reduction treatments in the southwest today, these treatments will more 
than pay for themselves by avoiding the future costs of fire 
suppression. The economists concluded that current federal policy that 
inadequately invests in hazard reduction treatments does not represent 
rational economic behavior, because funding hazard reduction can pay 
for itself by lowering future fire suppression costs.
    Taking this research and applying it to the Rodeo-Chediski Fire 
that burned over 469,000 acres you can see the fiscal wisdom of a 
prevention approach. A full cost accounting of all costs associated 
with the fire shows costs over $400 million. This includes $43 million 
in suppression costs, $75 million in lost timber and $120 million in 
private insurance payments to cover losses of over 490 residences, as 
well as many other damages.
    Research shows that if you strategically treat 1/3 of the landscape 
you can effectively reduce extreme fire behavior. If we had invested in 
treating 150,000 acres at a representative cost of $500/acre, then it 
would have cost us $75 million to reduce the probability of this 
catastrophe. Although this initially appears expensive, it is dwarfed 
by what the fire ultimately cost the federal, state and local 
governments, the White Mountain Apache Tribe and the citizens who were 
victims of this tragic event.
    In addition to this research, the General Accounting Office 
determined that from 2000 to 2004 the Forest Service and Department of 
Interior transferred more than $2.7 billion from other programs to 
cover fire suppression costs. GAO indicated that the agencies 
``repeatedly underestimated how much money would be needed to pay for 
fire suppression'' (GAO 2004).

Post Fire Costs
    In many cases the costs that occur after a fire is suppressed can 
be significant and are generally the responsibility of the County or 
local jurisdiction. For example, the Brins Fire adjacent to Sedona and 
Oak Creek continues to create hazardous flooding and debris flow risk 
for the residents of Oak Creek Canyon due to the loss of ground 
vegetation from the intense fire behavior. Beyond the physical 
mitigation efforts, the County has implemented public education, 
awareness, rapid emergency notification and coordinated emergency 
response. A task force of Federal, state and local resource managers, 
geologists, public safety, ADOT, and National Weather Service personnel 
have partnered to provide for a safer and better informed Oak Creek 
Canyon community.

FUTURE OPPORTUNITIES
Opportunity for Stewardship Contracting and Sustainable Forest-Based 
        Enterprises
    Stewardship contracting can achieve forest management while meeting 
local and rural community needs as well as create renewable energy 
businesses. Forests can be a source of renewable biomass energy, a 
less-polluting energy source that can reduce dependence on foreign 
fossil fuels. Biomass utilization of materials from restoration 
treatments can create jobs and support local economies while assisting 
the complementary goals of community protection and forest restoration. 
Some costs of restoration would be offset, because forest and wood-
product enterprises would pay for harvested material such as saw logs, 
small-diameter trees, and woody biomass. There would be no need to pay 
for dead tree removal and disposal.
    The stewardship contracting procedure allows forest administrators 
to take factors other than bid price into consideration when awarding 
the contract. Issues such as local job creation, how the material would 
be utilized, and the use of local subcontractors are important aspects 
of the decision. This allows smaller local businesses to outbid larger 
timber companies for the contract. Western communities and public land 
managers have been struggling for years to develop markets for the 
small diameter material that results from fuel reduction activities. 
Stewardship contracting would create the market for small-diameter 
wood. Markets for a sustainable small diameter industry are dependent 
on government commitments through long-term contracting agreements.

Example of Stewardship Contract
    The White Mountain Stewardship Contract on the Apache-Sitgreaves 
National Forest is designed around the goal of building a small-scale 
woody biomass industry based on the need for hazardous fuel reduction 
treatments following the devastating 486,000 acre Rodeo-Chedeski Fire 
of 2002.
    This contract is the largest of its kind and covers fuel reduction 
and treatment of up to 15,000 acres per year for the next ten years. 
The contract was awarded to Future Forest, which is a partnership 
between a wood contracting business and a wood pellet manufacturing 
company that produces pellets for heating wood stoves. A local bio-
energy plant also purchases 50,000 tons of limbs, tree tops, and small 
trees from Future Forest every year. A power plant that is being 
constructed in the area to produce green power credits for Arizona 
power companies is also expected to buy 170,000 green tons of biomass 
annually. Other businesses that are taking advantage of the woody 
materials that Future Forest can provide include a custom log home 
business, a post & pole operation, a chemical wood hardening company, 
and a small-diameter sawmill. The Contract supported 15 firms with 
total expenditures of almost $16 million. The forestry firms employ 245 
full time employees with an additional 85 created through the 
multiplier process.

Increased Funding for Hazardous Fuels Reduction
    There is an opportunity to reduce treatment costs by increasing the 
value of small trees thinned. Strategic planning of treatment types and 
sequencing can reduce per-acre costs by positioning relatively costly 
mechanical treatments in a way that facilitates wildland fire use, 
comparatively less expensive across broader landscapes. Reduced 
treatment costs would create increased funding for hazardous fuels 
reduction. This will provide assistance to community property owners 
for vegetation reduction on property sites, which create a fire hazard 
for the community. Ultimately, hazardous fuels reduction treatments 
will ensure a safer community for residents with protection from and 
prevention of wildfires.

Paradigm Shift from Funding Fire Suppression to Funding Fire Prevention
    Public awareness and support can lead to social changes in thought 
patterns that would encourage a proactive approach in preventing 
catastrophic wildfires through long term restoration, community 
protection and fire management. From my County's perspective, a 
proactive approach is far more responsible than a reactive approach in 
dealing with the social, economic, and environmental damages following 
catastrophic fires in our community.

CONCLUSION
    Coconino County has successfully used the Healthy Forest 
Restoration Act to create collaborative Community Wildfire Protection 
Plans to assist our communities in prioritizing fuel management 
projects. The County developed partnerships with Federal land 
management agencies, state agencies, cities, adjacent counties, 
universities, scientists and environmental groups to create strategies 
to mitigate and reduce the risk of catastrophic wildfire. Importantly, 
HFRA has provided streamlined compliance work under the National 
Environmental Policy Act (NEPA) for fuel management projects.
    As we move forward, Coconino County encourages increased funding to 
federal land management agencies and to the state to create the 
financial capacity for significant forest restoration treatments. We 
support increased funding to enable communities, stakeholder groups, 
and tribes to collaborate in land management activities. These points 
are consistent with the Governor's Forest Health Advisory Council's 
Statewide Strategy.
    Coconino County encourages federal agencies to emphasize 
preventative treatments through active management over suppression 
efforts when setting priorities. For example, the FY2006 enacted level 
for the USDA Forest Service included $282 million for hazardous fuels 
treatment compared to $690 million for fire suppression. In addition, 
Congress should use the appropriations process to change the emphasis 
from suppression to treatment.
    Coconino County is excited at the possibility of bringing a wood 
utilization industry to Northern Arizona and look to the federal 
agencies and Congress to help with this effort. Stewardship contracting 
is crucial to successfully implementing this critical economic 
development opportunity and to re-establishing a healthy forest 
ecosystem.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, Supervisor. And let me 
turn now to the Forester from the State of Georgia, Mr. Farris.

                  STATEMENT OF ROBERT FARRIS, 
                 ACTING GEORGIA STATE FORESTER

    Mr. Farris. Good afternoon. On behalf of the Southern Group 
of State Foresters and the State of Georgia, I am pleased to 
present you with our views related to wildfire preparedness and 
funding. Thank you, Mr. Chairman and Members of the 
Subcommittee, for your invitation to participate.
    I would like to start with a comment on Mr. Bishop's 
comment about the relative humidity here in Washington. In 
Georgia over the past several months, with relative humidities 
in the 20 percent range and winds blowing 20 to 30 miles per 
hour, you would have felt right at home if you had been down 
visiting in Georgia.
    Our firefighters have been very thankful for the recovery 
of some of the relative humidity that we have seen recently 
here.
    The South is in the middle of the worst fire season in 
modern history. So far in 2007, the southern region has had 
over 28,000 fires that have burned over a million acres and 404 
structures. Just this past month, four fires merged together in 
Georgia and Florida to create the largest fire in recorded 
history in the Southeast.
    As far as values, currently our preliminary estimates are 
$48 million of timber loss in Georgia, $33 million of timber 
loss in Florida. And this will be impacting the local economy 
for years to come, the forestry-dependent economy.
    We have had real problems with smoke impacting not only 
Georgia and Florida, but also Alabama and Tennessee. These 
fires have impacted the infrastructure, resulting in numerous 
highway closures, closures of airports, railroads, school 
closures, disrupting utility services, as with any natural 
disaster. Numerous evacuations have occurred in Georgia, with 
over 10,000 home evacuation days in Georgia.
    Georgia alone over this past fiscal year has had over 9,000 
wildfires that have burned more than 550,000 acres. To put that 
in perspective, typically, on a 10-year average in Georgia, we 
have about 8,000 fires that burn approximately 40,000 acres. So 
our losses this year are 13 times normal.
    Even after as much as six inches of rain from tropical 
storm Barry, some of our fires continued to burn in the organic 
soils throughout Southeast Georgia. These fires come on the 
heels of the horrendous fire activity in Texas and Oklahoma 
last year that burned over 1.7 million acres of forest land.
    Fire is certainly not anything new to the South. Typically, 
the southern region experiences more than half of the wildfires 
in the nation, and conducts the vast majority of the prescribed 
burns in the country.
    For example, the southern region averages about 40,000 
wildfires per year, and conducts over 225,000 prescribed burns 
on more than 6 million acres. In Georgia alone, we average 
prescribed burning about a million acres per year.
    As opposed to the West, over 90 percent of the forested 
land in the South is in private ownership. The ability to 
effectively suppress and minimize losses from large-scale 
wildfire is becoming increasingly difficult to the WUI that we 
keep mentioning here. The divestiture of industry lands is also 
significantly impacting our ability to respond to wildfires, 
with the loss of over 500 industry-equipped tractors that were 
once an integral part of our fire response.
    Again, to refer back to Georgia, back in 1989 we had 180 
industry tractors equipped with fire plows that assisted us 
with the fire control. Today, we only have 20.
    The South has 50 percent of the wildland-urban interface in 
the nation. Again referring back to Georgia, Georgia has 23 of 
the 100 fastest-growing counties in the nation. Virtually every 
fire in the South is a threat to homes and communities.
    I know that it is not possible to be 100 percent prepared 
to address the kind of fires we have been experiencing this 
year and last year; however, preparedness can help reduce the 
impacts to homes, infrastructure, and help protect the public 
and firefighter safety.
    There are several areas that I believe are key to being 
adequately prepared. One is early detection and rapid response. 
In the South we use single-engine airplanes to quickly detect 
fires and guide crews to those fires. Well-trained and equipped 
firefighters are critical, in addition to cooperative 
agreements that we have with the Federal fire agencies, the 
South also has two interstate compacts that prove critical to 
mobilizing over 3,000 firefighters and cooperators into the 
state this year, from 44 different states across the Nation to 
assist Georgia.
    Homeowner education is important. The development of 
community wildland protection plans and the use of Firewise are 
important to educating homeowners.
    Fuel treatments are important. Treating forest-reduced 
fuels around communities and constructing fire breaks is of 
paramount importance. Prescribed fire is by far the most cost-
effective and efficient means of reducing fuels in the South.
    State fire assistance funds which come to the states 
through the U.S. Forest Service are extremely important for 
state wildfire preparedness. The Southern Group of State 
Foresters and the National Association of State Foresters are 
part of a national coalition advocating expansion of the State 
Fire Assistance Program to adequately address wildland fire in 
the U.S.
    It is estimated that $145 million is needed in the Fiscal 
Year 2008 appropriation for wildfire control. Budget 
constraints may not support this much increase; however, these 
figures do accurately reflect the true funding needs.
    Attached to my written comments is a briefing paper from 
the State Fire Assistance Coalition that provides further 
details.
    Thank you, Mr. Chairman and Members of the Subcommittee, 
for the opportunity to present our thoughts.
    [The prepared statement of Mr. Farris follows:]

      Statement of Robert Farris, Acting State Forester of Georgia

    On behalf of the Southern Group of State Foresters and the State of 
Georgia, I am pleased to present you with our views related to wildfire 
preparedness and funding. Thank you Mr. Chairman and members of the 
Subcommittee for your invitation to participate.
    The South is in the middle of the worst fire siege in modern 
history. So far in 2007, the Southern Region has had over 28,000 
wildfires that have burned more than a million acres and 404 
structures. In late May four fires burned together in Georgia and 
Florida creating the South's largest fire in recorded history. Smoke 
has impacted air quality not only in Georgia and Florida but also in 
Alabama and Tennessee. These fires have impacted infrastructure 
resulting in numerous highway closures including interstates, disrupted 
power and telephone service and caused airport, railroad and school 
closures. Numerous evacuations have been ordered resulting in over 
10,000 home evacuation days in Georgia. Georgia alone has had over 
8,900 wildfires that have burned more than 550,000 acres. Even after as 
much as six inches of rain from Tropical Storm Barry, some of the fires 
continue to burn in organic soils of the Okefenokee area. Obviously 
these fires are unimpeded by landownership and political boundaries. 
One of these large fires started on private lands in Georgia and burned 
into the Okefenokee Wildlife Refuge. Another fire started inside the 
refuge and burned on a state forest, private land, and the Osceola 
National Forest. These fires come on the heels of the horrendous fires 
in Texas and Oklahoma last year in which 5,700 fires burned more than 
1.7 million acres in those two states.
    Fire is certainly nothing new to the South. Typically the Southern 
Region experiences more than half the wildfires in the nation and 
conducts the vast majority of the prescribed burns in the country.
    For example the Southern Region averages about 40,000 wildfires per 
year and conducts over 225,000 prescribed burns on more than 6 million 
acres. The vast majority of these prescribed burns are conducted by 
private non-industrial landowners. Over 90 percent of the forested land 
in the South is in private ownership.
    The ability to effectively suppress and minimize losses from large 
scale wildfire has become increasingly difficult due to the extension 
of Wildland Urban Interface development into the forested landscape. 
Fragmentation of the forest and expansion of multiple ownerships has 
made fire management more complex. The divestiture of industry lands 
has also significantly reduced the availability of firefighting 
resources--over 500 industry tractor plow units that were once an 
integral part of initial and extended attack capabilities in Southern 
Region are no longer available. The large number of fires in the South 
is compounded by the fact that according to a study done by the 
University of Wisconsin--Madison, the South has over 50 percent of the 
wildland urban interface (WUI) in the nation. The recently completed 
Southern Wildfire Risk Assessment identified over 50,000 communities or 
other populated areas at high or very high risk from wildfires in the 
South. Virtually every fire in the South is a threat to homes and 
communities.
    I am not sure that it is possible to be 100 percent prepared for 
the kind of fires that we have experienced this year with fire spotting 
up to a mile in advance of the flaming front. However, preparedness can 
help reduce the impacts to homes and infrastructure and help protect 
public and fire fighter safety. There are several areas that I believe 
are key to being adequately prepared to deal with fires. Such as:
    <bullet>  Rapid detection--States in the South use single engine 
airplanes to quickly detect new fire starts and to guide fire crews to 
the fires.
    <bullet>  Well trained and equipped fire fighters--In addition to 
using cooperative agreements with the federal wildland fire agencies, 
the South has two interstate forest fire compacts that were approved by 
Congress in 1954. These compacts provide a legal means for states to 
share fire fighting resources. During the period June 2006 through June 
2007 the two southern forest fire compacts provided:
      <all>  79 Dozers/Tractor Plows
      <all>  65 Engines
      <all>  3 Helicopters
      <all>  2 Single Engine Aircraft
      <all>  237 Miscellaneous Equipment
      <all>  9,323 Personnel Days of Assistance
        These resources are largely available for national deployment 
        and for support of federal jurisdiction fires because the 
        southern states have prepared to handle wildfires on private 
        lands. SFA plays a major role in this preparedness.
    <bullet>  Homeowner education--Educating and encouraging home 
owners to protect their property by providing defensible space. The 
development of Community Wildfire Protection Plans and the use of 
programs such as Firewise are important elements in educating 
homeowners as to the need to take responsibility for taking measures to 
protect their homes from wildfire. State forestry agencies are the 
heart of the national Firewise program.
    <bullet>  Fuel Treatments and Pre-constructed fire breaks--Treating 
forests to reduce fuels around communities and constructing fire breaks 
is paramount to home and community protection. Prescribed burning is by 
far the fastest and most economical way to reduce fuels in the South. 
Because of the long growing season, fuel treatments in the South must 
be repeated every three to five years to remain effective.
    Some of the areas of concern related to wildfire preparedness 
include:
    <bullet>  A shortage of heavy airtankers and heavy helicopters on 
national contracts.
    <bullet>  Shortages of key wildfire management personnel such as 
safety officers, which may be related to concern over liability or 
other issues.
    <bullet>  Air quality issues related to prescribed burning for fuel 
reduction. As the Environmental Protection Agency (EPA) issues evermore 
stringent air quality standards, prescribed burning for fuel reduction 
becomes more difficult.
    State Fire Assistance (SFA) Funds which come to the states through 
the U.S. Forest Service are extremely important for state wildfire 
preparedness. The State Fire Assistance Program is the fundamental 
federal assistance program to states for developing preparedness and 
response capabilities for wildland fire. Improved response efficiency 
also reduces fire size and subsequent suppression costs. Since FY 02 
about 165,000 wildland firefighters have received training through SFA 
that has also enhanced interagency coordination on federal lands. 
Moreover, approximately 65 percent of the funds have been used to 
mitigate high-priority hazard fuel situations on 470,000 acres within 
wildland-urban interface areas.
    State Fire Assistance is an essential funding source for the 
development of Community Wildfire Protection Plans and directly helped 
over 19,000 communities in FY 2005 to prioritize their preparedness and 
mitigation efforts; however, much remains to be done.
    The FY 2001 Interior and Related Agencies Appropriations Act 
directed the Secretaries of Agriculture and Interior to develop a joint 
public and private sector 10-year strategy for reducing wildfire risk 
and improving forest health nationwide. The Strategy was recently 
updated (December, 2006) and calls for increased interagency 
coordination and close partnerships with communities to improve fire 
prevention and suppression, reduce hazardous fuels, restore ecosystems 
and promote community assistance. Such goals are only achievable 
through appropriate and sustained levels of funding for the State Fire 
Assistance Program.
    The Southern Group of State Foresters and the National Association 
of State Foresters are part of a national coalition advocating 
expansion of the State Fire Assistance Program to adequately address 
wildland fire in the U.S. It is estimated that $145 million is needed 
in the FY 08 appropriation for State Fire Assistance to develop and 
maintain sufficient preparedness and protection capabilities. 
Extraordinary measures will also be needed to assist landowners with 
recovery, reforestation, and fire mitigation efforts to replace damaged 
forestlands.

[GRAPHIC] [TIFF OMITTED] T6214.001

    Attached to my written comments is a briefing paper from the 
State Fire Assistance Coalition.
    Thank you, Mr. Chairman and members of the Subcommittee, for the 
opportunity to present our thoughts.

[GRAPHIC] [TIFF OMITTED] T6214.002

[GRAPHIC] [TIFF OMITTED] T6214.003

                                
    Mr. Grijalva. Thank you very much, sir. Let me now turn to 
Michael DeBonis, Southwest Region Director, Forest Guild. Sir.

                 STATEMENT OF MICHAEL DEBONIS, 
            SOUTHWEST REGION DIRECTOR, FOREST GUILD

    Mr. DeBonis. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. Thank you for the opportunity to testify on 
the subject of wildfire preparedness, and specifically the 
relationship between wildfire and poverty.
    The Forest Guild is an organization of more than 500 
foresters and allied professionals who manage our country's 
forest lands and advocate for ecologically sound forest 
practices.
    This testimony focuses on three key points for Congress to 
consider when evaluating the Federal levels of assistance 
necessary to ensure that low-capacity communities at risk to 
wildfire have the resources to reduce their risk.
    First, many rural communities at risk to wildfire are also 
areas with significant poverty. Many of these communities have 
lower capacity to cope with fire-related disruptions of 
economic activity and social services, and risk losing more of 
their assets when their homes or their communities burn.
    Second, Federal agencies need better monitoring systems and 
performance measures for fuel reduction and forest restoration 
treatments to direct resources and track impacts in rural low-
capacity communities.
    Third, a designation for low-capacity communities will 
increase the ability of Federal agencies and Congress to 
identify, assist, and monitor impacts in communities that need 
the most help.
    Each year the increasing risk of wildfires is illustrated 
by catastrophic fires affecting communities all across the 
United States. While the impacts to the general public are most 
often illustrated by images of large homes destroyed by 
wildfire, the significant and long-term effects on low-income 
communities often go unnoticed.
    The 2005 study by Resource Innovations and the National 
Network of Forest Practitioners investigated whether 
communities most at risk from wildfire are able to access and 
benefit from Federal programs established to serve these 
communities. In other words, are the dollars, assistance, and 
fuels reduction projects hitting the ground in areas that are 
most at risk.
    The report showed a higher percentage of poor households 
are located in inhabited wildlands, areas which are not 
considered part of the Federally defined wildland-urban 
interface, the areas that Federal agencies and Congress have 
prioritized to receive the majority of wildfire preparedness 
funds.
    Excluding inhabited wildlands from the Federally defined 
wildland-urban interface is one example of how well-meaning 
policies and programs can exclude low-income communities. The 
Federal government needs to ensure that rural low-income 
communities are not overlooked in hazardous fuel reduction 
programs.
    Mr. Chairman, Federal agencies need better monitoring 
systems and performance measures for fuel reduction forest 
restoration treatments for the direct resources and tracked 
impacts of rural low-income communities.
    Current performance measures use traditional input-output 
approach, such as acres treated and cost per acre. These 
measures incur short-term actions that rely on the quickest and 
cheapest way to treat the easiest acres, an approach that does 
not prioritize community watershed or socioeconomic health.
    Yet there are opportunities for Federal agencies to work 
collaboratively with non-governmental community partners to 
develop performance measures that direct capacity and poverty 
in the context of wildfire preparedness.
    Finally, Mr. Chairman, I recommend establishing the 
designation for low-capacity communities, so Federal agencies 
can identify and direct appropriate resources to those 
communities that need the most help. Such a designation should 
be used in assessing communities to target financial and 
technical assistance, wildfire risk assessments at a state and 
local level, and monitoring outcomes and performance measures 
for a range of Federal land management agency programs.
    The agencies should engage in a collaborative process with 
community-based forestry organizations to develop a designation 
and a strategy for its use.
    In closing, I offer the following recommendations for the 
Subcommittee as they explore responses to these issues. 
Recognize that some communities have a lower capacity to cope 
with fire-related destruction, and risk losing more when their 
homes and assets burn.
    Establish a designation for low-capacity communities that 
fire agencies can use to identify and direct appropriate 
wildfire preparedness resources, and design performance 
measures to ensure that assistance is applied in an equitable 
and appropriate way.
    Thank you for the opportunity to comment on wildfire 
preparedness and the relationship between wildfire and poverty. 
The Forest Guild supports your work to increase wildfire 
preparedness in our nation's public lands, and your efforts to 
ensure that all communities, regardless of financial resources 
and social capital, have access to Federal assistance and 
resources.
    I welcome any questions that you have.
    [The prepared statement of Mr. DeBonis follows:]

       Statement of Michael DeBonis, Southwest Region Director, 
                 The Forest Guild, Santa Fe, New Mexico

    Good morning Mr. Chairman and Members of the Subcommittee. Thank 
you for the opportunity to testify on the subject of wildfire 
preparedness and specifically the relationship between wildfire and 
poverty.
    My name is Michael DeBonis and I am the Southwest Region Director 
of the Forest Guild. The Forest Guild is a national organization of 
more than 500 foresters and allied professionals who manage our 
country's forestlands and advocate for ecologically sound forest 
practices. The mission of the Forest Guild is to practice and promote 
ecologically, economically, and socially responsible forestry--
excellent forestry--as a means of sustaining the integrity of forest 
ecosystems and the human communities dependent upon them. The Guild 
engages in education, training, policy analysis, research, and advocacy 
to foster excellence in stewardship, support practicing foresters and 
allied professionals, and engage a broader community in the challenges 
of forest conservation and management. The Forest Guild's Southwest 
program is built on 20 years of experience developing and managing 
forestry-related programs with rural, forest-based communities and 
partners in the region. The Forest Guild is also a member of the Rural 
Voices for Conservation Coalition (RVCC). RVCC is a coalition of 
western rural and local, regional, and national organizations that have 
joined together to promote balanced conservation-based approaches to 
the ecological and economic problems facing the West.
    This testimony focuses on the programs and levels of assistance 
necessary to ensure that low-income communities at risk to wildfire 
have the resources to reduce their risk. This testimony presents 
critical information about the relationship between wildfire and 
poverty and three key points for Congress to consider:
    1.  Many rural communities at risk to wildfire are also areas with 
significant poverty. These communities have lower capacity to cope with 
fire-related disruptions of economic activity and social services, and 
risk loosing more of their assets when their homes or their communities 
burn.
    2.  Federal agencies need better monitoring systems and performance 
measures for fuel reduction and forest restoration treatments to direct 
resources and track impacts in rural, low-income communities.
    3.  A designation for low-capacity communities will increase the 
ability of federal agencies and congress to identify, assist, and 
monitor impacts in communities that need the most help.
1.  Many rural communities at risk to wildfire are also areas with 
        significant poverty.
    Each year, the increasing risk of wildfire is illustrated by the 
catastrophic wildfires affecting communities all across the United 
States. In 2006, over 96,000 wildland fires in the U.S. burned 
approximately 10 million acres, according to estimates from the 
National Interagency Fire Center. While the impacts to the general 
public are most often illustrated by images of large homes destroyed by 
wildfire, the significant and long-term affects on low-income and 
underserved communities often go unnoticed.
    A 2005 study by Resource Innovations and the National Network for 
Forest Practitioners, Mapping the Relationship between Wildfire and 
Poverty, (Lynn and Gerlitz 2005) examined the relationship between 
wildfire and poverty. The study used socioeconomic and ecological data 
to investigate whether communities most at risk from wildfire are able 
to access and benefit from federal programs established to serve these 
communities. In other words, are the dollars, assistance, and fuels-
reduction projects hitting the ground in the areas that are most at 
risk? The study resulted in a series of maps, illustrating the 
relationship between poverty, federal land ownership and Wildland Urban 
Interface (WUI) classification--the areas that federal agencies and 
Congress have prioritized to receive the majority of funds under the 
national fire plan.
    The research indicated that a higher percentage of poor households 
are located in inhabited wildland areas, which are not considered part 
of the federally defined WUI. The report also showed that there is a 
relationship between poverty and federal land ownership, with more poor 
households located in close proximity to federal lands. The study 
indicated that the federally defined WUI is based on residential 
density that excludes many inhabited forest areas. Expanding the 
analysis to include wildland intermix, the less densely populated areas 
that are not included in the WUI, which we refer to from here on as 
``inhabited wildlands'', allowed the researchers to include significant 
portions of rural, inhabited land in areas vulnerable to wildfire.
    Results from the Wildfire and Poverty study indicate that, in 
general, there are more households in poverty in inhabited wildland 
areas than there are in the WUI or in areas outside of the vegetated 
wildlands. The federally defined WUI is one example of how well meaning 
policies and programs can exclude low income communities. The map of 
the United States (Attachment 1) illustrates the data described above 
and provides a visual representation of the relationship between 
wildfire and poverty. The map illustrates areas where 20% of households 
or more are low-income households in WUI and inhabited wildland areas. 
The map indicates a tremendous amount of inhabited wildland, 
particularly in the western United States, that is not considered part 
of the WUI under the Federal Register definition. This inhabited 
wildland area also has relatively high level of poverty.
    State scale analyses echo the national scale findings of the 
Wildfire and Poverty study. For example, more than half of the 
communities at highest risk from wildfire in Oregon are low income. The 
Oregon Communities at Risk assessment identified and assessed the 
relative risk to wildfire in over 560 communities (Oregon Dept of 
Forestry 2006). The assessment assigned each Oregon community at risk 
from wildfire with a low, moderate, or high risk rating for hazard, 
risk, values, protection capability and structural vulnerability. 
Preliminary findings from Resource Innovations, in the University of 
Oregon's Institute for a Sustainable Environment, indicate that of 
approximately 155 communities at high risk to wildfire, 54% are 
communities where over half of the population are very-low income.
    Not only are many rural communities at risk from wildfire and 
limited by poverty, but they can be excluded from the current 
definition of WUI. The federal government needs a broader definition 
for WUI to ensure that rural low-income communities are not overlooked 
when agencies prioritize areas for hazardous fuels reduction.
2.  Federal agencies need better monitoring systems and performance 
        measures for fuel reduction and forest restoration treatments 
        to direct resources and track impacts in rural, low-income 
        communities
    Wildfires and the related government roles and responsibilities for 
federal wildland management are prominent today because of the 
increased severity of fires on and around public lands. In recent 
years, numerous laws, strategies, and implementation documents have 
been issued to direct federal efforts for wildfire prevention, 
firefighting, and recovery. Reliable national-level information and 
monitoring are essential to ensure good decision making, agency 
accountability, and to assist communities in reducing wildfire risk.
    Current performance measures developed by the agencies use a 
traditional input-output approach, such as ``acres treated'' and ``cost 
per acre.'' These measures encourage short-term actions that rely on 
the quickest and cheapest way to treat the ``easiest'' acres, an 
approach that does not prioritize watershed or community socio-economic 
health. Furthermore, current measures do not gauge agency progress 
towards collaboration, rural wildfire protection, or other actions 
necessary for inclusive and integrated forest stewardship. 
Consequently, current measurements fall short of responding to actual 
performance of restoration goals. The Rural Voices for Conservation 
Coalition developed a performance measure issue paper in 2006 that 
provides recommendations for performance measures related to low-
capacity communities, collaboration, and capacity building 
(www.sustainablenorthwest.org/pdf/policy/monitoring/perfmeasures.pdf).
    In September 2006, the Office of the Inspector General issued an 
audit report on the implementation of the Healthy Forests Initiative. 
The report found that USFS lacks a consistent analytical process for 
assessing the level of risk that communities face from wildland fire 
and determining if a hazardous fuels project is cost beneficial. The 
report concluded that without uniform, national criteria, there is no 
way to allocate funds to the most critical projects. (USDA Inspector 
General 2006).
    The findings of the OIG report hold true when analyzed at the 
regional scale. A recent study by the Forest Guild reviewed the legal 
and administrative hurdles facing fuel reduction projects on the U.S. 
Bureau of Land Management's Medford Oregon District and the Rogue 
River-Siskiyou National Forest (Evans and McKinely 2007). The report 
concluded that, overall, the federal government needs to improve its 
record keeping and increase public participation in planning fuel 
reduction treatments.
    A crucial element of monitoring fuel reduction projects is their 
effect on low-income communities. However, federal agencies currently 
lack adequate monitoring systems and performance measures to gauge the 
benefits of Forest Service programs in low-income and low capacity 
communities. In fact, in some cases, assistance has been given to 
wealthier communities to the detriment of less well off communities. 
During the Fiscal Years 2001 and 2002 in New Mexico, all of the 
$685,000 awarded for private land went to reduce fuels in wealthier, 
bedroom communities of Albuquerque rather than the predominantly 
economically distressed and forest-dependent communities of the Manzano 
Mountains (Morton 2003).
    Though there are challenges to efficiently treating the fire threat 
in our nations forests, there are also opportunities for the federal 
agencies to work collaboratively with non-governmental, community 
partners to develop performance measures that address capacity and 
poverty in the context of wildfire preparedness. These opportunities 
include the annual budget allocation process for the Forest Service and 
BLM (tied directly to the PART process), the fire allocation process 
(related to LANDFIRE and Fire Program Analysis), and efforts underway 
by agencies and partners to address the implementation tasks and 
performance measures in the revised 10-year comprehensive strategy 
(WFLC 2006).
3.  A designation for low-capacity communities will increase the 
        ability of federal agencies and congress to identify, assist, 
        and monitor impacts in communities that need the most help.
    Rural Voices for Conservation Coalition recommends the 
establishment of a designation for low capacity communities that 
federal agencies can use to identify and direct appropriate resources 
to those communities that need the most help. A low capacity community 
may be defined as a community that lacks:
    <bullet>  the financial resources to invest in wildfire 
preparedness;
    <bullet>  the social capital, leadership, or governance structure 
to participate in collaborative processes;
    <bullet>  the experience and/or education to understand the 
dynamics at play in a restoration effort, the environmental factors at 
risk, and or the need for either restoration work or collaboration as a 
resolution and the human resources to dedicate to participating in a 
collaborative restoration effort.
    Indicators to identify low capacity communities that agencies could 
use include poverty, population size (to ensure that rural communities 
are targeted), governance, and special needs (RVCC 2007, Evans et al. 
2007). Creating a low-capacity designation will assist agencies in 
directing reduced cost-shares, set-asides in grants, technical 
assistance, training, or other types of help to communities that 
require the most assistance to protect themselves from wildfire.
    In the past, federal programs such as the National Fire Plan and 
Economic Action programs have provided rural community assistance 
grants that are aimed at increasing community opportunities to engage 
in forest health, fire protection, and economic development 
opportunities. While these programs have been effective in providing 
community assistance, there has been no systematic effort to ensure 
that low-income or underserved communities benefit form these and other 
programs.
    There are ongoing efforts to identify and provide assistance to 
low-capacity communities at risk to wildfire. The Federal Emergency 
Management Agency uses a designation for small and impoverished 
communities. Communities within this designation have a reduced cost-
share requirement for pre-disaster mitigation grants. Several counties 
in Oregon have integrated poverty data within their wildfire risk 
assessments to illustrate high risk, high poverty areas in Community 
Wildfire Protection Plans. Similarly, the Forest Guild in New Mexico 
has used a Community Capacity Index within community fire planning 
efforts in two separate communities, Taos County and the greater Cuba 
area (Evans et al. 2007).
    The low capacity designation should be used in 1) assessing low 
capacity communities to target financial and technical assistance, 2) 
wildfire risk assessments at a state and local level, and 3) monitoring 
outcomes and performance measures for a range of federal land 
management agency programs. The agencies should engage in a 
collaborative process with community-based forestry organizations to 
develop the designation and a strategy for its use.
Recommendations and Conclusion
    Thank you for the opportunity to comment on wildfire preparedness 
and the relationship between wildfires and poverty. Your bi-partisan 
work to increase wildfire preparedness on our nation's public and 
private lands is commendable.
    I would like to provide several recommendations for the 
Subcommittee as they explore alternative responses to these issues. 
These recommendations are based both on my own experience and on 
discussions with community-based forestry partners and the Rural Voices 
for Conservation Coalition:
    <bullet>  Recognize that some communities have lower capacity to 
cope with fire-related disruptions of economic activity and social 
services, and risk losing more of their assets when their homes or 
their communities burn.
    <bullet>  Expand the federal definition of WUI to include the 
inhabited wildlands to ensure rural low-income communities are not 
overlooked.
    <bullet>  Establish a designation for low capacity communities that 
fire agencies can use to identify and direct appropriate resources.
    <bullet>  Design measurement criteria and performance measures to 
ensure that assistance is applied in an equitable and appropriate way.
    The Forest Guild supports the work of this Subcommittee and hopes 
our comments will help ensure that all communities, regardless of 
financial resources and social capital, have access to Federal wildfire 
preparedness assistance. I welcome any questions that you may have.
References
Evans, A. M., M. DeBonis, E. Krasilovsky, and M. Melton. 2007. 
        Measuring Community Capacity for Protection from Wildfire. 
        Forest Guild, Santa Fe, NM. http://www.forestguild.org/
        publications/ICCPW_07.pdf
Evans, A. M., and G. McKinley. 2007. An evaluation of fuel reduction 
        projects and the Healthy Forest Initiative. Forest Guild, Santa 
        Fe, NM. http://forestguild.org/publications/Evaluating--HFI--
        07.pdf
Lynn, K., and W. Gerlitz. 2005. Mapping the Relationship between 
        Wildfire and Poverty. National Network of Forest Practitioners, 
        Resource Innovations at the University of Oregon, and the 
        United States Department of Agriculture Forest Service State 
        and Private Forestry, Portland, OR. http://hdl.handle.net/1794/
        2417
Morton, J. 2003. An Evaluation of Fuel Reduction Projects in the 
        Eastern Cibola National Forest. National Community Forestry 
        Center, Working Paper 8, Forest Guild, Santa Fe, NM. http://
        theforesttrust.org/images/swcenter/pdf/Working
        Paper8.pdf
Oregon Department of Forestry. 2006. Statewide Risk Assessment. http://
        www.oregon.gov/ODF/FIRE/docs/PREV/06CAR.pdf
Rural Voices for Conservation Coalition. 2007. Performance Measures 
        Issue Paper. http://www.sustainablenorthwest.org/pdf/policy/
        monitoring/perfmeasures.pdf
USDA Inspector General. 2006. Implementation of the Healthy Forests 
        Initiative. 08601-6-AT, U.S. Dept of Agriculture Office of the 
        Inspector General, Southeast Region, Washington, DC. http://
        www.usda.gov/oig/webdocs/08601-6-AT.pdf
Wildland Fire Leadership Council. 2006. A Collaborative Approach for 
        Reducing Wildland Fire Risks to Communities and the Environment 
        10-Year Strategy: Implementation Plan, December 2006 http://
        www.forestsandrangelands.gov/plan/documents/10-
        YearStrategyFinal_Dec2006.pdf
Attachments
    1.  Map: Poverty and Wildland Urban Interface / Inhabited Wildlands 
http://ri.uoregon.edu/publicationspress/map--3.pdf
    2.  Executive Summary: Mapping the Relationship between Wildfire 
and Poverty.
    3.  Executive Summary: Measuring Community Capacity to Resist and 
Respond to Wildfires

[GRAPHIC] [TIFF OMITTED] T6214.004

[GRAPHIC] [TIFF OMITTED] T6214.005

[GRAPHIC] [TIFF OMITTED] T6214.006

[GRAPHIC] [TIFF OMITTED] T6214.007

                                 __
                                 
    Mr. Grijalva. Thank you very much. Let me turn now to the 
Forester for the State of Arizona. Mr. Rowdabaugh, your 
testimony, please. Thank you.

                 STATEMENT OF KIRK ROWDABAUGH, 
                     ARIZONA STATE FORESTER

    Mr. Rowdabaugh. Yes, sir. Thank you, Chairman Grijalva, 
Members of the committee, for this opportunity to testify on 
behalf of the Western Governors Association and the State of 
Arizona.
    America's fire environment has changed. The recent adverse 
trends in fuels, weather, and demographics are projected to 
continue unabated in the foreseeable future. More than half the 
nation's forests are unhealthy, and are now subject to frequent 
outbreaks of insect and disease and extreme fire behavior. 
Prolonged drought and global climate change have exacerbated 
these forest health conditions and wildfire concerns. Forest 
fragmentation and the rapid expansion of the wildland-urban 
interface have complicated our ability to manage the landscape 
and to manage the fires that burn across them.
    For these reasons, effective wildfire preparedness will be 
even more essential in the future for protecting the thousands 
of communities at risk, the forest-based industries that 
support our rural economies, and the critical watersheds that 
sustain our cities.
    In 2002, the Western Governors Association, at the request 
of Congress, and in collaboration with the Departments of 
Interior and Agriculture, developed a 10-year comprehensive 
strategy for reducing wildfire risks. Congress adopted the 
collaborative approach developed in the 10-year strategy in its 
Healthy Forest Restoration Act of 2003.
    Since then, the 10-year strategy has formed the basis for 
forest health efforts across the nation. And in December of 
2006, the Western Governors and their Federal, tribal, and 
local partners completed an update of the implementation plan. 
And it called for a long-term commitment to maintaining the 
essential resources needed for full implementation of the 10-
year strategy.
    The Governors believe it is more effective and efficient 
and safer to thin forests and protect communities in advance of 
a wildfire than it is to control the fires and repair the 
damage after the fact.
    State and local governments are doing their fair share, as 
well. In Arizona, Governor Janet Napolitano created both a 
Forest Health Advisory Council and a Forest Health Oversight 
Council shortly after taking office to address the state's 
rapidly deteriorating forest health and fire environment.
    These councils have just completed a 20-year strategic plan 
for restoring Arizona's forests, for reducing wildfire 
potential, and increasing community protection. Its 
recommendations require action from Congress and the Federal 
land management agencies, as well as the Governor's office and 
her state agencies, county and local governments, and private 
citizens.
    While this 20-year plan is specific to Arizona, many of its 
recommendations are appropriate on a national scale, especially 
those directed at Congress and the Federal management agencies.
    The Arizona plan calls for, among other things, increasing 
funding for forest restoration on Federal and tribal lands, and 
the implementation of community wildfire protection plans.
    It is important to recall that in much of the West, the 
Federal and tribal agencies manage the vast majority of 
forested lands. In Arizona, it is over 80 percent. And 
therefore, Federal funding is not only essential, it is also 
appropriate for reducing the threats to our rural communities.
    Wildfire suppression costs have received a lot of 
attention. We know that large fire costs are highly correlated 
with large fire size, and that large fires represent less than 
2 percent of all fires, but account for almost 95 percent of 
all suppression expenditures.
    We know that the potential for large fires increases with 
adverse fuels, weather, and topography. And we know that the 
potential for large fires decreases with effective initial and 
extended attack.
    Practically speaking, there isn't anything we can do about 
the weather or the topography. But we can manage the fuels, and 
we can support effective firefighting forces. This is why pre-
suppression activities are so critical to controlling wildfire 
suppression costs.
    It is imperative that sufficient investments in community 
assistance, restoring fire-adapted ecosystems, reducing 
hazardous fuels, and deploying effective firefighting resources 
are made to contain suppression costs and minimize losses.
    Unfortunately, the increase in fire suppression costs in 
recent years has resulted in decreased funds available for the 
very pre-suppression programs that are essential to continue 
future suppression costs. Western Governors support proposals 
for a new funding mechanism to be provided to the Forest 
Service and Interior agencies for paying extraordinary 
suppression expenditures, along with implementing strict cost 
management controls.
    We believe that Congress must resolve these critical 
funding issues in order to maintain effective wildfire 
preparedness programs.
    Again, Mr. Chairman, I thank you for this opportunity.
    [The prepared statement of Mr. Rowdabaugh follows:]

  Statement of Kirk Rowdabaugh, Arizona State Forester, on behalf of 
      The Western Governors' Association and the State of Arizona

    Thank you Chairman Grijalva and Committee Members for this 
opportunity to testify before the National Parks, Forests and Public 
Lands Subcommittee. This testimony is presented on behalf of the 
Western Governors' Association (WGA) and the State of Arizona.
    My testimony today will focus on perspectives from the great State 
of Arizona and the west at-large on the current status of wildfire 
preparedness and the changes needed to fully realize the benefits of 
preparedness relative to long-term suppression costs. My discussion 
points will start with progress made, or in some cases lack there of, 
on implementing the 10-year Comprehensive Wildfire Strategy. I will 
then move to discuss how we have adapted the collaborative efforts 
outlined in the 10-year Strategy at home, in Arizona, by discussing our 
comprehensive strategy which details how to deal with current and 
future threats to the public and private forestland within the state. 
And then I will conclude with a number of thoughts from a west-wide 
perspective on cost containment measures, firefighting needs, fuels 
treatments, and funding concerns.
    As this hearing commences, there have been 42,628 fires that have 
burned over 1,475,775 acres this year. This wildfire season is 
forecasted to be severe and may result in a large amount of acres 
burned. When the Forest Service exhausts their suppression budget it 
has a direct impact on the agency's programmatic abilities. Fire 
seasons are increasingly longer and wildfires are occurring with higher 
frequency and these trends are projected to continue in the future.
    The long range wildfire projections show that this trend of 
increased frequency and severity of wildfire in the West will continue 
into the future. For this reason, wildfire preparedness is very 
important to the federal agencies and state and local entities. Insect 
infestations, invasive species, fragmentation of forestland, increasing 
development in the wildland urban interface, loss of timber markets, 
prolonged drought and climate change all exacerbate our forest health 
problems and the need for increased wildfire preparedness.
10-year Comprehensive Strategy
    The Western Governors' Association's Implementation Plan to the 10-
Year Comprehensive Strategy ``A Collaborative Approach for Reducing 
Wildland Fire Risks to Communities and the Environment'' <SUP>1</SUP> 
is important to discuss when speaking about wildfire preparedness. The 
Strategy was requested by the Congress in 2000. Since then, the 
Strategy and its Implementation Plan have formed the basis for forest 
health efforts across the nation and significant progress has been made 
on the ground in using locally-driven collaboration and in undertaking 
landscape-level planning and treatments. Congress adopted the 
collaborative approach developed in the Strategy in its Healthy Forests 
Restoration Act of 2003.
---------------------------------------------------------------------------
    \1\ http://www.westgov.org/wga/pulbicat/TYIP.pdf
---------------------------------------------------------------------------
    The action items agreed to in the first plan that the Governors 
signed with the Secretaries of the Interior and Agriculture in May 2002 
have, for the most part, been completed. At the urging of WGA's Forest 
Health Advisory Committee, which conducted a review of the original 
plan in 2004, the Governors updated the plan with the federal agencies, 
counties, state foresters, fire chiefs and stakeholders. The goals of 
the plan remain the same as in the 10-year Strategy.
    A collaborative approach is necessary to:
    <bullet>  Improve Prevention and Suppression of Wildfires
    <bullet>  Reduce Hazardous Fuels
    <bullet>  Restore Fire-Adapted Ecosystems
    <bullet>  Promote Community Assistance
    The Implementation Plan puts additional emphasis in the following 
areas:
    <bullet>  Information sharing and monitoring of accomplishments and 
forest conditions to improve transparency;
    <bullet>  A long-term commitment to maintaining the essential 
resources for the plan;
    <bullet>  A landscape-level vision for restoration of fire adapted 
ecosystems;
    <bullet>  The importance of using fire as a management tool; and
    <bullet>  Continuing improvements in collaboration
    The Implementation Plan was endorsed and sent to the Congress by 
WGA, the Secretaries of the Interior and Agriculture, the National 
Association of Counties and the National Association of State Foresters 
in December 2006 <SUP>2</SUP>. WGA's 60-person Forest Health Advisory 
Committee, comprised of national experts on fire fighting, forest 
health treatments and communities' role helped draft the implementation 
plan.
---------------------------------------------------------------------------
    \2\ http://www.westgov.org/wga/press/tyip12-6-06.htm
---------------------------------------------------------------------------
    When fully implemented, the 10-Year Strategy and the Implementation 
Plan will use proactive measures to improve the health of our forests 
as a means to prevent catastrophic wildfires. As noted above, but to 
reinforce, these efforts require cross boundary work, full involvement 
of states and stakeholders, and, most importantly, a long-term 
commitment of time, resources and manpower. With large fires eating up 
the resources that are appropriated for suppression, full 
implementation, with adequate funding, of all four goals of the 10-Year 
Strategy is a wise and economical cost-containment strategy. The 
efforts to date have not lived up to expectations and needs. Yes, much 
progress has been and continues to be made in implementing the tasks 
under the 10-year Implementation Plan, but the funding proposed by the 
Administration and subsequently funded via Congress has not reinforced 
all four goals of the 10-year Strategy. If one looks at funding since 
the inception of the 10-year Strategy, the vast majority has gone to 
goal one, suppression and prevention. And rightly so in many regards, 
as protection of life and property is first and foremost. However, 
without balanced and proportionate investment in the other three goals 
of the 10-year Strategy, we will not make the on-the-ground progress 
the public expects, nor get ahead of the wildfire curve.
    The bottom line is that the 10-year Strategy represents a proactive 
and comprehensive way to address wildfire and forest health issues. 
Funding needs to follow the same proactive, comprehensive philosophy. 
More investment needs to be made in fuels reduction (goal 2), rehab and 
restoration (goal 3) and community assistance (goal 4). It is more cost 
effective and efficient to thin forests and protect communities in 
advance than to put out fires and repair their damage after the fact.
10-year Comprehensive Wildfire Strategy: An Arizona Evaluation
    I would now like provide a good example of what we are talking 
about. I want to demonstrate how we in Arizona are translating the 10-
year Strategy in landscape scale, comprehensive action at the state 
level. Governor Janet Napolitano created an Arizona Forest Health 
Advisory Council and the Forest Health Oversight Council in 2003 to 
address the increasing number, frequency and intensity of wildfires in 
the State of Arizona. The Councils established a subcommittee to draft 
a 20-year strategy and develop policy recommendations on forest health, 
the increase in wildland fire and community protection. The strategy 
has been developed by business people, environmentalists, ranchers, 
academics, elected officials, and federal, state and tribal land 
managers.
    The Statewide Strategy for Restoring Arizona's Forests was 
developed with public input and sets the stage for the next 20 years of 
strategic and efficient restoration work. The Strategy takes into 
account the scientific information, the community collaboration and the 
economics of forest health needed to identify the future steps needed 
for forest restoration in the State of Arizona. As solutions are going 
to require everyone acting cooperatively, the Strategy recommends 
actions for Congress, Federal Land Management Agencies, the Governor 
and Executive Branch Agencies and Counties and Local Governments. All 
of the recommendations are based on five strategies for successfully 
restoring forests including:
    <bullet>  increasing the human and financial resources dedicated to 
restoring Arizona's forests and protecting communities,
    <bullet>  coordinating and implementing action at a landscape-scale 
so that limited dollars go further,
    <bullet>  increasing efficiency of restoration, fire management and 
community protection activities by prioritization,
    <bullet>  encouraging ecologically sustainable, forest-based 
economic activity by working to engage and encourage the private 
sector, and
    <bullet>  building public support for accomplishing restoration, 
community protection and fire management across the state
    This strategy is specific to the State of Arizona but many of the 
recommendations can be examined at a national scale, especially the 
State's recommendations for Congressional action and the Land 
Management Agencies. The Strategy recommends increased funding to both 
federal land management agencies and to the state in order to increase 
capacity for collaborative work on restoration projects. This includes 
a focus on Community Wildfire Protection Plan (CWPP) implementation and 
fuels treatment funding which will in turn reduce national suppression 
costs.
    Relative to the Land Management Agencies, the Strategy recommends 
collaborative planning and implementation across the board as well as 
specific items such as updating the annual Fire Management Plans. Also 
noted is the importance of CWPPs and the need for priority status for 
the implementation of projects identified by the CWPPs.
    The Statewide Strategy for Restoring Arizona's Forests is an 
Arizona-specific document with national significance. This strategy 
will help guide Arizonans to use their resources in the most effective 
way possible and highlight the need for Congressional action and the 
Land Management Agencies to examine their current way of doing 
business. This document provides a landscape-level view that would be 
beneficial for the federal agencies and their partners to examine for 
complimentary strategies.
Cost Containment
    As a starting point in any discussion of wildfire preparedness, the 
Forest Service and the DOI, and all wildland fire suppression entities, 
must be accountable for how much they are spending and how it is spent 
relative to wildfire suppression. The State of Arizona believes that it 
is important for both the Forest Service and the DOI to adopt necessary 
cost containment solutions in order to facilitate a decrease in 
wildfire suppression costs. The costs of wildfire are increasing every 
year and soon the 10-year average will be more than 45 percent of the 
total Forest Service budget.
    The Forest Service and the Department of the Interior (DOI) have 
many recommendations from numerous internal and external sources in 
front of them on how to reduce suppression costs and increase fire 
preparedness. There are several reports that have focused on the need 
for increased cost containment and management practices by the federal 
agencies. I will touch on the two most recent reports that include 
recommendations that will help the agencies remain accountable for 
wildfire suppression costs. An additional note should be made that the 
Implementation Strategy for the 10-year Plan includes many important 
goals and strategies that will result in reduction of the suppression 
costs, both over the short and long-term. This is another good reason 
to focus on its full implementation.
    The most recent and definitive assessment of cost containment was 
completed by the Wildland Fire Leadership Council (WFLC) in 2004 
(www.fireplan.gov/reports/2004/costmanagement.pdf). On behalf of WGA, I 
co-chaired the Strategic Issues Panel on Fire Suppression Costs that 
facilitated the drafting of the report Large Fire Suppression Costs--
Strategies for Cost Management. The report was endorsed by Western 
Governors and the WFLC. The report's recommendations provide a good 
starting point for ways to provide productive rewards for good cost 
decisions on the ground. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ See Testimony of Kirk Rowdabaugh, State Forester of Arizona 
(Co-Chairman, Strategic Issues Panel on Fire Suppression Costs) on 
behalf of the Western Governors' Association before the Senate 
Committee on Energy and Natural Resources, January 30, 2007. http://
www.westgov.org/wga/testim/fire-cost1-30-07r.pdf
---------------------------------------------------------------------------
    The Strategic Issues Panel recommended seven primary actions to 
contain federal fire suppression costs. The first recommended action, 
to increase the level of accountability for large fire costs and their 
impacts by allocating suppression funds on a regional or equivalent 
basis, was intended to provide incentives to federal agency 
administrators for controlling costs. It was this single recommendation 
that the Panel believed would provide the greatest cost savings to the 
federal government because wildfire costs are driven by management 
decisions on the ground. The recommendation has yet to be adopted in 
any meaningful manner although it could lead to the greatest cost 
savings.
    Another important report offering cost containment recommendations 
was just completed by the Brookings Institution in May 2007. The 
Brookings Institution recently released a report titled Towards a 
Collaborative Cost Management Strategy--2006 U.S. Forest Service Large 
Wildfire Cost Review Recommendations. This report examines 20 fires 
that burned 1.1 million acres across 17 national forests in 2006. This 
report, conducted by an independent panel, determined that the agency 
had been fiscally diligent when managing the suppression activities 
related to these fires.
    Along with reporting on the agency's fiscal diligence, the panel 
recommended areas for improvement related to fire suppression costs. Of 
import, the panel found that at best, implementation of cost 
containment actions could potentially result in around a 10% savings in 
wildfire suppression costs. It is obvious that cost containment alone 
will not solve our problem, but it is important to note that there are 
many actions the federal agencies could and still must take to improve 
the savings, notably incorporating and delegating cost containment 
considerations closer to the regional levels of the agencies.
    It is worthwhile to note that the federal agencies have taken cost 
containment seriously and have undertaken several self-initiated cost 
containment measures including transitioning to risk-informed 
management. This measure allows for flexibility in the field and 
increased application of wildland fire use, a fire management method 
where natural fires are allowed to burn under monitored parameters. 
Further, the Forest Service and other agencies are moving to a 
centralized oversight system in order to better model fire behavior and 
cost. These efforts are a step towards lessening the demand on 
suppression dollars, but more changes are necessary to eliminate the 
drain on the federal agencies' budget for other programs.
    Wildfire preparedness is the ability to prepare for wildfire before 
it happens and respond to a wildfire in the most effective and 
efficient manner when it happens. It is vitally important that 
preparedness be looked at across the spectrum of wildfire responders, 
federal, state and local, especially related to initial attack. Too 
often the focus is only on the federal preparedness level. Advancements 
need to be made for minimal investment in local and rural fire 
departments in general. This will result in significant costs savings 
as successful wildfire preparedness results in a reduction of the 
wildfire threat itself.
Suppression Costs and Related Factors
    Wildfire suppression costs are increasing with every fire season. 
These costs will continue to rise as forest health declines. It is very 
important to recognize that cost containment is not the sole solution 
to this issue. That is not to say that the federal agencies do not have 
steps they can take to ensure the most efficient federal wildfire 
suppression apparatus. But the real story here is that a solution is 
needed for our current suppression budgeting crunch as explained below.
    Within the Forest Service budget, suppression costs are allocated 
based on a 10-year average. Due to the increase in catastrophic 
wildfire, this 10-year average allocation increases every year. A 
problem arises as the Forest Service operates under an overall flat 
budget. Basically, their budget does not increase along with the rise 
in the 10-year average, meaning that all other programs under the 
agency get squeezed, eventually having suppression funds eat away at 
all the other Forest Service programs. One branch of the USFS, State & 
Private Forestry (S&PF), is of particular concern here as these 
programs provide necessary fuels treatment work, Community Wildfire 
Protection Plans in high-risk communities and other benefits that 
contribute to the reduction of suppression costs and an increase in 
preparedness. These S&PF programs have been eroded over the years due 
to the ever increasing cost of suppressing large wildfires.
    The astronomical suppression costs impact both types of 
preparedness; fire fighting and fuels treatment. As these costs 
continue to rise, if a solution is not found, successful initial 
attacks and the ability to reduce dangerous fuel levels before fires 
start will become a thing of the past. As suppression costs draw down 
the funding available for fuels treatment and preparedness activities, 
the ability for the agencies and other entities to work on pre-
suppression activities is limited. These pre-suppression activities 
accomplished though numerous State & Private Forestry programs help to 
reduce the future suppression costs.
    It is important to note that 1% of fires burn upwards of 95% of the 
acres and consume 85% of the total suppression costs <SUP>4</SUP>. 
These figures demonstrate that much of our suppression expenditures 
could truly be treated as emergency funding. We propose that a new 
fiscal funding mechanism, with strict cost management controls, needs 
to be found for suppression.
---------------------------------------------------------------------------
    \4\ See NASF Federal Wildland Fire Suppression Costs: Budget Reform 
issue paper, May 29, 2007 http://www.stateforesters.org
---------------------------------------------------------------------------
    The National Association of State Foresters has proposed a solution 
to reduce suppression costs and change the current budget formula to 
reduce the borrowing of funds from other Forest Service programs. The 
National Association of State Foresters (NASF) proposes a partitioning 
of the Forest Service budget by introducing a budget set-aside for a 
flexible suppression spending account that would be linked to rigorous 
cost containment management controls and agency line officer 
incentives.
    As budget pressures and cost savings are realized in this process, 
it needs also to be realized that those monies should be reinvested 
into USFS programs that reduce wildfire threat and help to further 
reduce suppression costs. We believe that Congress should facilitate a 
resolution of this funding issue in order to promote the use of 
appropriated dollars for the original intent of those moneys. The need 
for a reevaluation of wildfire suppression budgeting and the effect 
that the current budgeting format has on the other Forest Service 
programs is a crucial step in increasing the Forest Service's wildfire 
preparedness in the State of Arizona and throughout the West.
    We believe that a solution to the ever increasing suppression costs 
is crucial to the future of the Forest Service. If no solution is 
found, the Forest Service will become the ``Fire Service'' and will not 
have a programmatic offering, just a fire fighting service.
Preparedness
    As suppression costs eat up more of the federal agencies budget, 
the ability for the agencies, and States and locals to fight wildfire 
at their current success rate is impossible. Suppression costs have 
pulled funds from programs that enable improved initial attack, such as 
Volunteer Fire Assistance and Hazardous Fuels treatment. The more 
successful the state and local firefighters are, the larger the 
reduction in federal suppression costs. As the wildfire capacity of the 
federal agencies diminishes and the maturation and skills of the state 
and local firefighters increase, the need for programs that provide 
funding to prepare for fire and fire fighting becomes more important.
    Related and of note, the recent House Interior Appropriations 
Subcommittee markup of the FY08 spending bill has some very insightful 
language relating to state and local preparedness under the Cooperative 
Fire Programs that we are supportive of. Allowing state and locals to 
pilot preparedness and suppression responsibilities on federal lands 
will demonstrate and prove their efficiency and effectiveness in 
relation to federal resources. This is not to say that a sole shift to 
state and local preparedness is in order, because wildland firefighting 
is only successful in full, cooperative partnership between the 
federal, state and local agencies. But it is to say that we should be 
experimenting with our traditional approaches to the issue of 
preparedness.
    Another important factor essential to reducing catastrophic 
wildfire is community planning. CWPPs allow communities to set 
priorities for treatment and reduce their risk. Over 1,100 CWPPs have 
been completed nationally covering more than 3,300 communities and 
there are at least 450 plans moving towards completion. A significant 
problem here is that there are many fuels treatment projects that have 
been identified by CWPPs that are unable to be completed due to lack of 
funding. In Arizona alone, we have 300,000 acres identified by 
communities, National Environment Policy Act (NEPA) approved and in 
need of treatment, but implementation is slowed by funding. These 
important projects hang in the balance due to the ever increasing 
suppression costs siphoning money from other Forest Service Programs.
    The federal agencies have been partnering with state and local fire 
fighting departments and communities for fire fighting and for 
completion of work on the ground. Programs such as State Fire 
Assistance (SFA), which is the only federal program that supports work 
on private lands, are crucial to decreasing the suppression costs. The 
SFA program funds CWPPs, fuels treatment work on private lands, 
education and preparedness and in turn reduces wildfire suppression 
costs. NASF estimates an accurate reflection of funding needs for this 
program is $145 million per year. The current funding proposal from the 
Administration included only $68.1 million for SFA. Luckily the House 
FY08 Interior appropriations bill markup restored funding to last 
year's level.
    As I explained earlier in my testimony, wildland firefighting is 
only successful when it occurs in full, cooperative partnership among 
the federal, state and local agencies. Federal agencies partner with 
state and local fire departments and communities for fire firefighting 
activities. This partnership has been damaged by the recent and 
unprecedented legal proceedings associated with the fatalities that 
occurred during the 2001 Thirtymile Fire in the State of Washington.
    The legal proceedings that followed the Thirtymile Fire resulted in 
threats to firefighter morale, recruitment and retention, and safety; 
and the impacts are being felt at all levels of the national fire 
community. The issue of ``firefighter liability'' will continue to 
impact the ability for federal agencies and state and local fire 
departments to work together to fight wildland fire.
    The ability for firefighters on the front line to share information 
during safety investigations with the agencies is paramount. This 
information must be candid and complete in order to improve firefighter 
safety and enhance risk management practices during wildland fire 
events. When the internal safety investigations are no longer internal 
documents, the ability for the agencies to conduct ``lessons learned'' 
investigations is eliminated. Along with information sharing, the scope 
of duty for firefighters is very important when discussing firefighter 
liability as well as the availability of information and resources 
(such as liability insurance).
    The House Interior Appropriations Subcommittee markup of the FY08 
spending bill included a directive that the Forest Service should 
report to the Committees on the ``firefighter liability'' situation and 
suggest appropriate remedies. The Committee expressed their concern 
about recent reports that fire fighters may be subject to personal 
liability for on-the-job activities during emergencies.
    Individual firefighter civil and criminal liability, in the absence 
of obvious criminal intent, needs to be resolved on a national level. 
Until a solution is found that limits the civil and criminal liability 
of wildland firefighters, wildfire preparedness will continue to be 
compromised. The issue of firefighter liability impacts firefighting 
manpower and the ability to be prepared to fight wildland fire.
    Another issue impacting wildfire preparedness is the need for an 
aviation strategy that addresses the current wildland firefighting 
needs. A significant portion of the National Interagency Aviation 
Strategy, especially the section on large air tankers, focuses on the 
past rather than the future role of aviation needs. The strategy uses 
the 2002 large air tanker capacity as one of the benchmarks for future 
aviation needs. There are opportunities to explore additional criteria 
for aviation needs in today's changing world of wildland fire. This 
should be explored in conjunction with the Blue Ribbon Panel 
recommendations on aviation as Phase 3 of the National Interagency 
Aviation Strategy is developed.
    Wildfire risk within the WUI is becoming more complex and dangerous 
due to many factors, including drought, climate change, forest 
fragmentation and increasing human population. Fuels treatment and 
community-based stewardship projects to help restore forest health are 
important aspects of reducing the wildfire risk to WUI communities.
    The Forest Service and DOI treated four million acres of land in 
2006. Two million of those acres were in WUI areas. There are millions 
more acres that are in dire need of treatment. The number of acres that 
receive treatment will decrease as the funding for hazardous fuels 
reduction is diverted to fund suppression activities. Improving fuel 
conditions and ecosystem health on the landscape is an important part 
of limiting the spread of wildfire. We believe that the four million 
acres treated in 2006 is a commendable start, however, in the future, 
acres need to be treated based on priority. The current funding for 
hazardous fuels treatment does not allow for the treatment of priority 
acres, often the acres treated are the ones that cost the least to 
complete. For this reason, the use of ``acres treated'' as a metric for 
success does not tell the full story. The relevance of this metric 
should be re-examined.
    Mr. Chairman, thank you for the opportunity to present the views of 
the great State of Arizona on wildfire preparedness.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, sir. And our last 
witness, Dr. Peter Daugherty, Oregon Department of Forestry. 
Sir. Doctor.

 STATEMENT OF PETER J. DAUGHERTY, PhD, PRIVATE FOREST PROGRAM 
            DIRECTOR, OREGON DEPARTMENT OF FORESTRY

    Mr. Daugherty. Chairman Grijalva, Ranking Member Bishop, 
and Members of the committee, my name is Peter Daugherty, and I 
am currently the Oregon Department of Forestry's Private Forest 
Program Director.
    I am pleased to have the opportunity to testify today on an 
issue that is critical to the sustainability of our nation's 
forests. And if you don't mind, I will acquiesce to your dress 
code; it is quite warm in here.
    I am going to briefly summarize a study I did, a peer-
reviewed study I did with my colleagues, graduate student, PhD 
candidate Gary Snider and Professor Emeritus Brent Wood. I will 
then relate these study results to the situation in Oregon, and 
then I will conclude with three recommendations.
    Prior to summarizing real briefly the study, I have a full 
copy, and I will respectfully submit it for the record.
    Mr. Grijalva. Without objection, sir.
    [NOTE: The study has been retained in the Committee's 
official files.]
    Mr. Daugherty. Basically, we are all aware of the worsening 
conditions of the forests, and so I won't belabor that point.
    We were asked to look at the economics of doing restoration 
treatments. And now we look at the previous literature, and 
they are saying well, it is a very complicated problem; you 
have to look at the cost of fuel treatments, the values of non-
market and market benefits.
    But given the severity of the problem, we decided to take a 
much more simple approach. After all, you don't need to know 
the exact mass and velocity of a freight train to know that it 
is good policy not to continue to stand on the tracks.
    So what we did is, and let us just get rid of all values 
except the avoided cost of large fire suppression. So let us 
just compare. We know we can treat these forests and save on 
future fire suppression costs. And we did some relatively 
simple avoided-cost analysis to say how much could we spend per 
acre to avoid the cost of these large fires.
    We only included the variable costs associated with large 
fires. We didn't include the fixed costs of preparedness. We 
assumed that costs and the size of fires would remain constant, 
which has not turned out to be true. We also didn't include any 
loss to infrastructure in the wildland-urban interface, and we 
didn't include any loss for ecological values. We essentially 
assumed that a burned and an unburned forest had the same 
value.
    And using these really conservative costs, we compared the 
cost with treatment and fire suppression to the cost of fire 
suppression without treatment. And using these conservative 
values, we came up with that we could spend anywhere between 
$238 to $600 per acre to avoid the future cost of fire 
suppressions.
    We conclude that the underfunding, the current underfunding 
of hazardous treatments do not represent an economically 
rational choice.
    In Oregon we are facing an analogous situation, as in the 
Southwest. We have about 13 million overly dense acres on 
Federal land that are in need of high-priority treatment. In 
Oregon we are having these Federal fires and insect outbreaks 
spill over onto private lands, and that is a real issue. We are 
beginning to have impacts on the private lands to the point 
that one of our legislators suggested putting in a fire break 
between all Federal lands and private lands in the State of 
Oregon.
    The lack of current investment in treatments of our Federal 
lands indicates that we have a lack of a clear national policy 
on forest sustainability and what we need to do to maintain 
sustainable forests.
    In closing, I recommend that we need to significantly 
increase the investment in active forest management to achieve 
healthy and sustainable ecosystems for our children and 
grandchildren. We need to increase active management on Federal 
forest lands, in collaboration with state and private forest 
lands, to promote sustainable forestry.
    And finally, we need to develop a national policy on 
sustainable forests to clarify and enhance the role of Federal, 
state, and local governments in relation to sustainable 
forests, promoting regional collaboration, joint planning, and 
coordinated action.
    Thank you very much, and I will be glad to answer any 
questions.
    [The prepared statement of Mr. Daugherty follows:]

            Statement of Dr. Peter Daugherty, on Behalf of 
The Society of American Foresters and The Oregon Department of Forestry

    Chairman Grijalva, Ranking Member Bishop, and Members of the 
Committee, my name is Peter J. Daugherty, and I am the Director of the 
Oregon Department of Forestry's Private Forests Program. I am pleased 
to have the opportunity to provide testimony on an issue critical to 
the sustainability of our Nation's forest. I am providing this 
testimony on behalf of the Society of American Foresters, the Oregon 
Department of Forestry (ODF), and myself. The Society of American 
Foresters (SAF) is the national scientific and educational organization 
representing the forestry profession in the United States. It is the 
largest professional society for foresters in the world. The mission of 
the Society includes advancing the science, education, technology, and 
practice of forestry to ensure the continued health and use of forest 
ecosystems and the present and future availability of forest resources 
to benefit society. The Oregon Department of Forestry serves all 
Oregonians by practicing and promoting sustainable forestry intended to 
produce a wide range of benefits. The department offers on-the-ground 
guidance and other services to private landowners, helping them to 
improve and maintain forest health and productivity. ODF protects 16 
million acres of private and public forestlands from wildfire.
    Historical practices have created vast areas of unhealthy forest 
ecosystems in the western United States. The overly dense conditions, 
exacerbated by drought, have increased bark beetle mortality and the 
size and frequency of stand-replacing crown fires. These interconnected 
symptoms warn society of the jeopardy of losing these forest 
ecosystems. Although it has become increasingly apparent that an ounce 
of prevention activity is worth a pound of suppression funds, federal 
land-management agencies continue to allocate vastly more funds to 
suppression activities than to prefire hazard reduction. Without large-
scale implementation of fire-hazard reduction treatments, the costs of 
uncharacteristic crown fires in western forests will continue to 
increase.
    In a study conducted with Ph.D. candidate, Gary Snider, and Dr. 
Brent Wood, we examined the economic rationality of continuing the 
policy of emphasizing fire suppression activities over restoration-
based fire-hazard reduction treatments. We conducted an avoided-cost 
analysis to answer the question of how much can we invest in prevention 
to avoid the continued cost of large fire suppression and 
rehabilitation.
    We compared treatment plus fire suppression costs to the cost of 
fire suppression without treatments over 40 years for southwestern 
forests. This avoided-cost analysis estimates the amount one could 
invest in treatments to avoid future suppression costs for large fires. 
We only included the variable costs directly associated with large fire 
suppression; we assumed that fixed preparedness cost would continue. We 
assumed no increase in average number and size of large fires or in 
average per-acre fire suppression cost. We did not include losses and 
damages associated with structures, private land value, and other 
infrastructure associated with the wildland-urban interface in the 
avoided costs. We did not include changes in ecological and social 
values associated with restoration-based treatments. We essentially 
assumed that there is no difference between the value of a burned and 
restored forest.
    Using these very conservative economic values, we found that 
avoided future costs justifies spending $238-$601/acre for hazard 
reduction treatments in the southwest. We conclude that the policy of 
under funding hazard reduction treatments does not represent rational 
economic behavior, because funding hazard reduction would pay for 
itself by lowering future fire suppression costs.
    In Oregon, the current policy has resulted in analogous conditions. 
On federal lands, there are 13 million acres of over-dense forests 
outside of wilderness and inventoried roadless areas that are a high 
priority for treatment in Oregon. The majority of these acres are now 
outside their historic range of variability in terms of stand density 
and fuel loads, and are at risk of losing key ecosystem components to 
uncharacteristically severe wildfire or uncharacteristic vegetation 
succession. The current forest conditions constitute an extremely large 
problem that continues to get worse with time.
    The lack of active management on federal lands is also putting many 
private forestlands at risk. Fires and insect outbreaks are moving from 
federal forestland into private forest and associated communities. The 
current conditions in Oregon's forests are not sustainable with respect 
to fire and insects, and can only be corrected with active management. 
The lack of active management allows current conditions in these 
forests to worsen, leading to a train wreck that will affect many 
ecological, economic and social values.
    There are no risk-free management actions. Indeed, under present 
forest conditions, the no-action or go-slow alternative may very well 
be the most risky of all. Our results indicate that the ever-increasing 
ecological and economic costs resulting from high-severity, ecosystem 
scale fires in the southwest far exceed the cost to society of 
proactive restoration-based thinning treatments. The current 
sociopolitical condition of continuing to spend dollars on fire 
suppression while implementing limited treatment of high-risk forest 
areas represents an irrational ecological and economic decision.
    We no longer face the question of whether society will spend the 
money or not. We are going to pay, one way or another, unless we make 
the unlikely choice not to spend money trying to fight and contain 
unnatural crown fires. We now face the choice of how we are going to 
spend the money and what are we likely to obtain from that expenditure.
    If we invest in restoration-based hazardous fuel treatments, we 
invest in the future; we invest in healthy, sustainable ecosystems for 
our children and grandchildren. By not investing in restoration-based 
fuel treatments, we continue the depreciation of our forests, 
increasing the risk of radical shifts in their structure and function 
because of uncharacteristic crown fire. This lack of investment 
indicates that our nation lacks a clear vision and policies that 
promote the sustainable management of the nation's public and private 
forests as an integrated and high priority.
    Given these choices, it makes a great deal of economic sense to 
conduct forest restoration on a large scale today to retain future 
ecological and economic values. Our analysis shows that the fire 
suppression costs that can be avoided in the future are sufficiently 
large by themselves to justify restoration-based fuel treatment 
expenditures today.
Recommendations
    Significantly increase the investment in active forest restoration 
and management to achieve healthy, sustainable ecosystems for our 
children and grandchildren.
    Increase active management on Federal forestlands in collaboration 
with state and private forest lands to promote sustainable forestry.
    Develop a national policy on sustainable forests to clarify and 
enhance the roles of federal, state, and local governments in relation 
to sustainable forests, promoting regional collaboration, joint 
planning and coordinated action.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. Let me, to begin the 
questioning, turn to our colleague, Mr. Inslee, for any 
questions he might have.
    Mr. Inslee. Thank you. I appreciate the Chair and Ranking 
Member's courtesy in that regard.
    I want to ask you about insect infestation and its causes. 
It is not exactly the exact subject matter, but I want to ask 
you your review of that.
    My understanding is there are some causes of these terrible 
infestations. I am from the State of Washington; we are 
experiencing them in Eastern Washington, as well.
    I guess the question I have, I have heard of the sources of 
stress being drought, being temperature change, and being 
overly dense forests that can perpetuate or lead to these 
infestations.
    I would just have a broad question to the whole panel, to 
the extent you can help us understand those causes, or tease 
out their respective contributions to these infestations. I 
would be interested in any of your even opinions about what 
part, what cause is responsible for what percentage of these 
infestations, or any guidance you can give us on that.
    Mr. Rowdabaugh. Representative, what you describe would 
certainly be appropriate for the situation in Arizona's 
forests, as well.
    What we do know from history is that drought is cyclic in 
the Southwest, about every 50 years; and that the last time 
Arizona experienced this sort of epidemic explosion of bark 
beetle, the primary insect of concern in Arizona, it was also 
50 years ago.
    What is different about this episode than the one 50 years 
ago is the forests in Arizona are tremendously overstocked now, 
and that wasn't the case 50 years ago. And global climate 
change seems to have already identified one of its signatures, 
and that is early snow melt, not just in Arizona, but all the 
western states are now seeing early snow melt.
    The normal environmental controls for bark beetle in the 
West is cold weather. The beetles over-winter just under the 
bark. And if we had typically hard, cold freezes during the 
winter, that would hold the beetle populations in check.
    We are not having hard, cold winters in the Southwest any 
more. And in fact, because of the early snow melt, instead of 
having one or two generations of beetles during the active 
summer season, we are seeing now we have four or maybe five 
generations of beetles emerge, because the beetle active season 
is so much longer than it used to be.
    We also know that en masse, these overstocked trees are 
competing for a very scarce resource: that is water. And 
because of that, none of them have sufficient access to water 
to repel bark beetles. The normal response for a pine tree when 
it is attacked is to form pitch, and to pitch the beetle out. 
And that requires sufficient water to do that. And these 
drought-stressed, overstocked, highly competing trees don't 
have enough water available to form pitch to actively repel the 
beetles.
    Mr. Inslee. Anyone else want to add to that?
    Mr. Daugherty. I would just add that the treatment for 
those bark beetles that are density-dependent, where increased 
stand density is the cause of their outbreaks, and the 
treatment of thinning for fuel reductions is analogous to the 
treatment that you would do for bark beetle reduction. So 
thinning the forest prior to attack would increase the vigor of 
the trees and increase their resistance to attack.
    Mr. Inslee. Thank you. So it really sounds like a triple 
play hitting us all at the same time, then, between drought, 
which removes the ability to respond; density, which reduces 
the resources available; and the underlying global climate 
change that is decreasing the cold snaps that would kill the 
beetles.
    And it may be impossible to tease out the exact 
percentages, but they all sound, in combination, potentially 
catastrophic. Is that a fair statement? Anyone can field that.
    Mr. Farris. There is all those statements are true, with 
the exception of one thing. In Georgia we don't have the cold 
snaps to kill our bark beetles. They are cyclic.
    And one of the things that we are really working hard on to 
try and address overstocking in the state is ensuring that we 
provide markets for our landowners. And one of our focuses is 
to see Georgia become the silicone valley of bio-energy. So we 
are promoting the development of woody cellulose to ethanol in 
our state, and have the proposed first woody cellulose for 
ethanol production plant opening up in Georgia breaking ground 
in July.
    Mr. Inslee. I am meeting the fellow who is doing that, 
Bernard Colson, in about three hours here. So I will tell him 
you are on the job.
    Ms. Archuleta. I would like to address the near catastrophe 
that you were talking about. On Saturday we escaped a near-
catastrophic wildfire in Coconino County that was 60 feet from 
a subdivision of homes, and that was because the forested area 
that was adjacent to it was 90 percent destroyed by bark 
beetle, and had not been treated by removing those trees.
    The reason the subdivision didn't burn and the fire didn't 
spread to the subdivision is because that private subdivision 
had been treated, and fire-wise implementation of defensible 
space was implemented in that subdivision.
    And so that is part of the problem that we are having, is 
that we can work with private property owners to create fire-
wise space, but the adjacent Forest Service property needs to 
be treated and make sure that we----
    Mr. Inslee. Well, congratulations to local leaders. I will 
just lead to one comment. We are having a serious discussion 
for the first time about a response to global warming here. 
Your knowledge base, if it is shared with Members of Congress, 
could be useful on that.
    I don't think Members to date, because they haven't gotten 
to serve on this committee, all the Members, understand the 
correlation between global warming and these catastrophic 
fires. And to the extent that you can help educate Members, it 
probably wouldn't be such a bad thing.
    Thank you very much.
    Mr. Grijalva. Thank you, Mr. Inslee. Mr. Bishop.
    Mr. Bishop. Thank you. I appreciate you all being here. Let 
me see if I can get some simple questions.
    Ms. Archuleta, first of all, what percent of your PILT 
money do you spend actually on fire?
    Ms. Archuleta. In terms of Coconino County specifically?
    Mr. Bishop. Yes.
    Ms. Archuleta. We spend in Coconino County, we have had a 
severe reduction, of course, in our PILT. We get about 
$938,000. And of that money, we spend I would say a third of it 
in activities to begin to address community preparedness and 
wildfires.
    Mr. Bishop. OK, thank you. Mr. Farris, I appreciate your 
comments. I have to tell you, though, anything above 5 percent 
humidity is too much.
    When you were talking about the devastation that is taking 
place on private and public land, you were saying that about 90 
percent of the forests you have in Georgia are private. Is that 
about the same number that is being consumed by fire?
    Mr. Farris. No, sir, not with this particular fire. The 
large Okefenokee Swamp fire? About 87,000 acres of that, 
approximately 600,000 acres are on private lands. The remainder 
burned through the swamp, and then also into U.S. Forest 
Service property in Florida.
    Mr. Bishop. So the bulk was Federal.
    Mr. Farris. Yes.
    Mr. Bishop. Something about a fire going through swamps 
says something about wetlands, doesn't it? I appreciate that.
    The same thing with Mr. DeBonis. When you were coming up 
with the concept of areas in poverty, and you identified those 
areas, do you have any kind of data of how many of those areas 
are getting rural school emergency aid funds? Do you have any 
correlation between those two numbers?
    Mr. DeBonis. Mr. Bishop, I don't have those numbers at this 
time, but I will say generally that there is a lack of data, a 
lack of information about where these resources are going. It 
is one of the challenges.
    Mr. Bishop. Thank you, I appreciate that. Mr. Rowdabaugh, 
when you were talking about the cyclical nature of the drought 
that is also producing the problem with harvests, you no longer 
have the freeze, I am assuming that tree removal is still the 
only other option you now have as far as controlling 
infestation.
    Mr. Rowdabaugh. Yes, sir, that is absolutely correct. The 
only factor that we have any hope of managing is forest 
density.
    Mr. Bishop. You know, it is not in my district, but Dixie 
National Forest in Utah is one of those that was not in one of 
those cycles, but it did have that infestation that took place. 
And even with the best analysis of the professionals in the 
field who wanted tree removal, they were prohibited from doing 
that. And what it did cause is greater destruction of the 
forest, as well as fires then took place with that. So I 
understand that.
    Mr. Daugherty, I appreciate you being here. When you wrote 
and said increased active management on Federal forest lands, 
what did you mean by that?
    Mr. Daugherty. Treatment of high-density forest stands to 
lower the risk of stand-replacing fires in ecosystems that is 
uncharacteristic for them. So active management by thinning the 
forest using prescribed fires, using all the tools, as opposed 
to not treating the forest.
    Mr. Bishop. OK. How long would you estimate it would take 
before a hazardous fuels reduction policy would pay for itself 
by lowering the future fire suppression costs?
    Mr. Daugherty. That is a really good question, and it 
really depends on the rate at which we treat.
    We had assumed kind of fairly aggressive treatment, 
treating about 15 percent of the problem per year. And so if 
you treat 15 percent in a given area of the problem, the high-
hazard areas, you should have a significant reduction in cost 
after 10 years, depending on the lag effect.
    Mr. Bishop. So if we heard that we are basically treating 
about 5 percent of the identifiable area, so we would be 
talking about either 15, what did you say, 20 years at 15 
percent?
    Mr. Daugherty. It would be, yes, 15 to--we ranged it 
between 15 percent and 30 percent treatment per year. And I 
think realistically, to get a handle on this problem we do need 
to be treating 15 percent to 20 percent of the high-hazard 
areas per year.
    Mr. Bishop. So anything to be done to help solve this 
problem in my lifetime, which isn't all that much any more, 
needs to have a significant increase in either what we are 
doing by the government, or we have to bring the private sector 
in to assist in that, if we are actually going to get our hands 
on the situation.
    Mr. Daugherty. Yes, sir.
    Mr. Bishop. Thank you. I appreciate all of you for being 
here, and for your time and patience.
    Mr. Grijalva. Thank you, Mr. Bishop. Some quick questions.
    Mr. Rowdabaugh, can you give me an estimate of acreage 
about, in Arizona, how many NEPA-approved hazardous fuel 
projects and treatments are approved in the State of Arizona, 
and that are awaiting some level of Federal funding to 
implement those?
    Mr. Rowdabaugh. Yes, sir. It is sometimes hard to tease 
that out of our Federal partners. But they do put in the 
National Fire Plan Reporting System their program of work for 
the next few years.
    And for Fiscal Year 2007 and 2008, what is in the NFPR's 
database indicates more than 240,000 acres of NEPA-approved 
projects, which would take an additional $33 million to fund. 
So we know at a minimum that that is the magnitude of what is 
already available, and perhaps there is quite a bit more.
    Mr. Grijalva. Thank you very much. The Supervisor, if I 
may, tell us a little bit more about NACo's policy calling 
counties to enact better local ordinances, wildland-urban 
interface issue, how this policy affects Coconino County. And 
you also talked about the role that Federal land management 
agencies play in helping counties address that wildland-urban 
interface, besides funding, which you made that point very 
clear. What other needs do you think the Federal government 
needs to address to help with that policy initiative that NACo 
has?
    Ms. Archuleta. Thank you, Mr. Chairman, I appreciate the 
question.
    N.A.C.O. has enacted national policy calling on counties to 
enact Federal land use ordinances and local fuels management 
policies for the WUI areas in and around the communities. And 
one of the ways that they have been doing that is through some 
training and development they have provided county staff and 
county supervisors. And we want to continue that effort, of 
course, and develop a best practices guide.
    Coconino County in particular, we are exploring an 
ordinance at the local level for development in the WUI area. 
Absent that at this particular time, we do have policies in our 
county, comprehensive plans specific to the wildland-urban 
interface. Those particular three policies call for the 
immediate fuels reduction firewise application around homes to 
create a defensible space. We encourage the use of materials 
that are fire-retardant building materials. And we also 
encourage landowners to meet with the adjacent property owners, 
the Federal land managers, to make sure that they get their 
input as to what they could do to create a firewise community.
    We also support a collaborative initiative to enact land 
ordinances. And we would encourage other counties to do the 
same.
    In terms of what the Federal land managers can do, we have 
several areas that are ready for fuels reduction, that we have 
gone through the NEPA process. And what we have been told is it 
is because of a lack of funding that those applications have 
not transpired on Forest Service property.
    One specific example in my district, we have a rural fire 
district who is willing to work with the Forest Service, to go 
out and get rid of the bark beetle trees, and to reduce the 
fuels on Forest Service property. And they have had difficulty. 
Just in the past five years they have been trying to develop an 
MOU with the Forest Service, and the rural fire department, 
summer fire department, has not been able to get the Forest 
Service to agree to an MOU.
    They have the personnel to be able to reduce the fuels on 
the Forest Service property, but the Forest Service has not 
given them the permission to do that. And so we would 
appreciate any help in that regard, because communities do want 
to work together with the Forest Service.
    Mr. Grijalva. Yes. The example, painful to me, is 
Summerhaven in Arizona, that burned to the ground awaiting a $1 
million allocation of an already-approved fuels reduction and 
thinning proposal. And while they were waiting, that occurred.
    Mr. Farris, I am certainly interested when you said your 
state is 50 percent of the wildland-urban interface in the 
country, I think is the percentage you used.
    Mr. Farris. That was the South.
    Mr. Grijalva. The South in general, OK.
    Mr. Farris. Yes, sir.
    Mr. Grijalva. In the administrator's budget there is a cut, 
about $11 million, on the State Fire Assistance Program. That 
assistance program, how critical is it to the work in your 
state?
    Mr. Farris. State Fire Assistance funds are critical in the 
South. We believe one of the best ways to keep fires small, and 
all fires do start small, is through early detection and rapid 
response. And those funds assist the states in the South, 
retaining and matching the resources to perform that service.
    Mr. Grijalva. Thank you very much. Mr. DeBonis, I am out of 
time, but I am very interested in the issue of designation for 
communities at risk and low-capacity rural communities in 
particular. I think that designation for the Forest Service 
would be very, very useful. So as you prioritize, as you said, 
you go to the greatest need. And any additional information you 
would like to submit on that issue of the designation would be 
very much appreciated by the committee.
    Mr. Daugherty. Thank you very much, Mr. Chairman. I think 
creating a designation is really the key. The designation 
includes information on the social, economic, and cultural 
values in communities that can help identify communities that 
are most at risk.
    We have applied designations on a local scale in New Mexico 
through the Community Wildfire Protection Plan process. So 
applying similar designations in collaboration with state, 
Federal, and non-governmental groups can help create the----
    Mr. Grijalva. I agree, particularly with the testimony 
earlier today by the Under Secretary and the Assistant 
Secretary that they are in the process of working to implement 
solutions to hazardous fuels prioritization and allocation. It 
would be particularly important to have to be dealing with the 
designation issue, as well.
    I have run out of time. Mr. Bishop, any other questions?
    [No response.]
    Mr. Grijalva. I don't have any more. And I appreciate your 
patience and your information. Very useful. Thank you so much.
    The meeting is adjourned.
    [Whereupon, at 12:50 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
